<html>
<title> - RECOVERING FROM THE FIRES: RESTORING AND PROTECTING COMMUNITIES, WATER, WILDLIFE AND FORESTS IN SOUTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
   RECOVERING FROM THE FIRES: RESTORING AND PROTECTING COMMUNITIES, 
          WATER, WILDLIFE AND FORESTS IN SOUTHERN CALIFORNIA

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

        Friday, December 5, 2003, in Lake Arrowhead, California

                               __________

                           Serial No. 108-80

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

90-767              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Friday, December 5, 2003.........................     1

Statement of Members:
    Baca, Hon. Joe, a Representative in Congress from the State 
      of California..............................................     5
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................     8
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     6
    Lewis, Hon. Jerry, a Representative in Congress from the 
      State of California........................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     7
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     7

Statement of Witnesses:
    Barrett, Alan L., Council Member, Viejas Band of Kumeyaay 
      Indians....................................................    65
        Prepared statement of....................................    67
    Barry, Chips, Director, Denver Water Department..............    36
        Prepared statement of....................................    40
    Bonnicksen, Thomas, Ph.D., Professor, Department of Forest 
      Science, Texas A&M University..............................    56
        Prepared statement of....................................    59
    Bosworth, Dale, Chief, Forest Service, U.S. Department of 
      Agriculture................................................     9
        Prepared statement of....................................    12
    Brierty, Peter, Fire Marshal, County of San Bernardino.......    42
        Prepared statement of....................................    45
    Chrisman, Hon. Mike, Secretary-Designate, California 
      Resources Agency...........................................    15
        Prepared statement of....................................    18
    Grindstaff, P. Joseph, General Manager, Santa Ana Watershed 
      Project Authority..........................................    75
        Prepared statement of....................................    76
    Kinsinger, Anne, Regional Biologist, Western Region, U.S. 
      Geological Survey..........................................    21
        Prepared statement of....................................    22
    Nenna, Dave, Tribal Administrator, Tule River Tribe..........    84
    Stephens, Scott, Ph.D., Assistant Professor of Fire Science, 
      Department of Environmental Science, Policy and Management, 
      University of California, Berkeley.........................    68
        Prepared statement of....................................    71
Additional materials supplied:
    Dreier, Hon. David, a Representative in Congress from the 
      State of California, Statement submitted for the record....    92
    Issa, Hon. Darrell, a Representative in Congress from the 
      State of California, Statement submitted for the record....    93


     OVERSIGHT HEARING ON RECOVERING FROM THE FIRES: RESTORING AND 
    PROTECTING COMMUNITIES, WATER, WILDLIFE AND FORESTS IN SOUTHERN 
                               CALIFORNIA

                              ----------                              


                        Friday, December 5, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                       Lake Arrowhead, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:13 a.m., in 
the Lake Arrowhead Resort Ballroom, Lake Arrowhead, California, 
Hon. Richard Pombo [Chairman of the Committee on Resources] 
presiding.
    Present: Representatives Pombo, Calvert, Walden, Bono, 
Lewis, Radanovich and Baca.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. The Committee is meeting today to hear testimony 
on Recovering from the Fires: Restoring and Protecting 
Communities, Water, Wildlife and Forests in Southern 
California.
    We all know the horrible details of last summer's fires 
here in southern California. The statistics speak for 
themselves--26 people killed, 3,361 homes destroyed and 739,000 
acres burned. But it would be a terrible mistake to think that 
the damage is over now that the fires are out when in fact some 
of the most severe environmental consequences may well occur in 
the coming months and years. The tremendous loss of vegetation 
and the cooking of soils have exposed the hills to erosion, 
water runoff may increase and sediments may move downstream and 
damage houses or fill reservoirs putting endangered species and 
community water supplies at heightened risk.
    We have learned from past fires in other states that the 
costs associated with post-fire rehabilitation and cleanup can 
be enormous and we have learned that minimizing these costs 
requires speedy assessment and action, stabilizing soils and 
reducing runoff with straw bundles, contour-felled trees, grass 
seeding, tree planting, enlarging and armoring culverts, 
building rock barriers and ditches and a number of other 
treatments.
    Decisions concerning what techniques to apply, if any, 
depend on the characteristics and conditions of each particular 
site and need to be made by the specialists of the burned area 
emergency rehabilitation teams. We will learn today the status 
of those teams and their activities, and in particular, the 
Committee will want to ensure that the necessary resources--
financial, technical and human--are available and being 
employed effectively and efficiently.
    In our hearing last September, in this very room, we heard 
that catastrophic fire in this area was not a question of if, 
but a question of when. This predictive reality has been known 
by forest scientists for years, if not decades. Inaction in the 
face of that reality has been tragic. Further inaction will be 
inexcusable. The conditions that have led to so many of the 
nation's uncontrollable fires in recent years exists just 
outside this building--over-dense forests of dead and dying 
trees and excessive accumulation of brush and woody debris are 
a tinderbox waiting for a spark.
    Two days ago, the President signed the Health Forests 
Restoration Act into law. Congressman Walden, one of the 
authors of the bill, and I have worked with the forestry 
community for years to develop and pass this important 
legislation and are now poised to make sure that it is 
implemented quickly and correctly. It has provisions that will 
allow communities to have more say in the management of 
surrounding forests and will speed up the decisionmaking 
process so that hazardous materials can be removed faster with 
less red tape and fewer appeals and lawsuits.
    While this landmark legislation will not solve all forestry 
problems, it is the first pro-forestry bill to be signed into 
law in decades and will make a difference in the management of 
our forests. I expect our Federal land managers to employ it 
immediately on the forests in this area and am anxious to hear 
their plans for doing so.
    With the Health Forests Restoration Act becoming law, I 
believe that we have finally turned the corner away from the 
benign neglect of our forests to a thoughtful and scientific 
management, but I am also very much aware that work is left to 
be done. This law will need to be refined as we learn its 
inadequacies while other laws such as the Endangered Species 
Act still need to be addressed. Bringing communities back into 
the fold is an important first step. Now we must ensure that 
on-the-ground restoration begins in earnest and on a broad 
scale.
    To begin to address these important issues, I would like to 
start today by thanking our witnesses and those in the audience 
for joining us. I would also like to extend my condolences to 
the families of those who lost their lives as a result of the 
wildfires and to thank all of the firefighters who risked their 
lives to protect homes and communities. I would also like to 
extent my thanks to the Chairman of San Bernardino County Board 
of Supervisors, Dennis Hansberger, for hosting us once again. 
Finally, I would like to thank the other members of Congress 
for attending today. In particular, Representative Lewis, for 
having us back in his district and for helping secure millions 
of dollars of appropriations in support of hazardous fuel 
reduction projects. His direct involvement put California at 
the front of the line for receiving these Federal funds. I look 
forward to his continued support and to working with all of you 
on this important matter.
    I would like to recognize Mr. Lewis first for any comments 
he may have.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    We all know the horrible details of last summer's fires here in 
Southern California; the statistics speak for themselves: 26 people 
killed, 3,361 homes destroyed, and 739,000 acres burned. But it would 
be a terrible mistake to think that the damage is over now that the 
fires are out, when, in fact, some of the most severe environmental 
consequences may well occur in the coming months and years. The 
tremendous loss of vegetation and the cooking of soils have exposed the 
hills to erosion; water runoff may increase and cause flooding; 
sediments may move downstream and damage houses or fill reservoirs, 
putting endangered species and community water supplies at heightened 
risk.
    We've learned from past fires in other states that the costs 
associated with post-fire rehabilitation and clean-up can be enormous, 
and we've learned that minimizing these costs requires speedy 
assessment and action; stabilizing soils and reducing runoff with straw 
bundles, contour-felled trees, grass seeding, tree planting, enlarging 
and armoring culverts, building rock barriers and ditches, and a number 
of other treatments.
    Decisions concerning what techniques to apply, if any, depend on 
the characteristics and conditions of each particular site and need to 
be made by the specialists of the Burned Area Emergency Rehabilitation 
teams. We'll learn today the status of those teams and their activities 
and, in particular, the Committee will want to insure that the 
necessary resources--financial, technical and human--are available and 
being employed effectively and efficiently.
    In our hearing last September, in this very room, we heard that 
catastrophic fire in this area was not a question of if, but a question 
of when. This predictive reality has been known by forest scientists 
for years, if not decades. Inaction in the face of that reality has 
been tragic; further inaction will be inexcusable. The conditions that 
have led to so many of the nation's uncontrollable fires in recent 
years exist just outside this building; over-dense forests of dead and 
dying trees, and excessive accumulations of brush and woody debris are 
a tinderbox waiting for a spark.
    Two days ago the President signed the Healthy Forests Restoration 
Act into law. Congressman Walden, one of the authors of the bill, and I 
have worked with the forestry community for years to develop and pass 
this important legislation and are now poised to make sure that it is 
implemented quickly and correctly. It has provisions that will allow 
communities to have more say in the management of surrounding forests 
and will speed up decisionmaking processes so that hazardous fuels can 
be removed faster with less red tape and fewer appeals and lawsuits. 
While this landmark legislation will not solve all forestry problems, 
it is the first pro-forestry bill to be signed into law in decades and 
will make a difference in the management of our forests. I expect our 
federal land managers to employ it immediately on the forests in this 
area and am anxious to hear their plans for doing so.
    With the Healthy Forests Restoration Act becoming law, I believe 
that we have finally turned the corner away from the benign neglect of 
our forests towards thoughtful and scientific management, but I am also 
very aware that much work is left to be done; this law will need to be 
refined as we learn it's inadequacies, while other laws, such as the 
Endangered Species Act, still need to be addressed. Bringing 
communities back into the fold is an important first step, now we must 
insure that on-the-ground restoration begins in earnest and on a broad 
scale.
    To begin to address these important issues, I would like to start 
today by thanking our witnesses and those in the audience for joining 
us. I would also like to extend my condolences to the families of those 
who lost their lives as a result of the wildfires, and thank all the 
firefighters who risk their lives to protect homes and communities. I'd 
also like to extend my thanks to the Chairman of the San Bernardino 
City Board of Supervisors, Dennis Hansberger, for hosting us once 
again. Finally, I'd like to thank the other members of Congress for 
attending today, in particular, Representative Lewis for having us back 
to his district and for helping secure millions of dollars of 
appropriations in support of hazardous fuels reduction projects. His 
direct involvement put California at the front of the line for 
receiving these federal funds. I look forward to his continued support 
and to working with all of you on these important issues.
                                 ______
                                 

STATEMENT OF JERRY LEWIS, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mr. Lewis. First, thank you very much, Chairman Pombo, for 
bringing the Committee here and providing this opportunity for 
the community to begin to understand the response of the 
Congress to this tragedy. I would like to say, Mr. Chairman, 
you were here on September 22, just weeks before a tragedy 
struck, but we all knew in the offing was not just this 
challenge but the reality of a potential disaster. We have 
experienced a significant piece of that disaster, but I know 
that your Committee members flew by helicopter over the 
mountains just this morning to look one more time, first at the 
damage, but the remainder only somewhere at a maximum 10 
percent, but more likely five percent of the bark beetle 
infested trees were impacted by this fire, which means that 
lightning strike could lead to an inferno tomorrow. The 
challenge is still very, very much ahead of us. And I do not 
know how we are going to go about eliminating all of those 
millions of dead trees, but we must do that and it is going to 
take years and millions and millions of dollars as well as 
effort and man-hour support and the like.
    Mr. Chairman, as we came in this morning, I noticed some 
protesters out front with signs who would suggest that maybe we 
should not cut trees, that maybe there is some way to do this 
by waving a magic wand. I absolutely feel strongly for those 
who are concerned about our environment. You know of my past 
involvement in air quality questions in California myself. I 
hold no second spot in my mind's eye to this interest. But to 
have no habitat at all is not acceptable. Today, in my forest, 
we have eliminated the habitat in the form of tens of thousands 
of acres of species that we are very concerned about because of 
a lack of cooperative venture. And perhaps here, starting 
today, Mr. Chairman, we may have the opportunity to begin a 
base group of people who will start at ground zero and work 
hand in hand to try to figure out how you preserve the 
environment but restore our forests and indeed prevent this 
tragedy from ever striking this region again, once we have come 
together to find the solutions necessary.
    So thank you very much for being here. I might mention, Mr. 
Chairman, you mentioned dollars. We were successful in getting 
a commitment and appropriation of $500 million in the recent 
supplemental to respond to this challenge. About half of that 
money has been redirected to the Forest Service so that 
services can be delivered more rapidly and services that are 
needed immediately can begin to take place. The Committee, Mr. 
Chairman, the Conference Committee, said before God and 
everybody that day that that was only a down-payment. And so 
indeed, the Federal government is going to be at the plate. But 
all of us are going to have to share in this at the local 
community, the fire service agencies, the State of California, 
the County of San Bernardino--we are all in this together.
    So thank you very much for your courtesy and for being with 
us.
    Mr. Pombo. Thank you. Mr. Baca.

 STATEMENT OF THE HON. JOE BACA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Baca. Thank you very much, Mr. Chairman. First of all, 
I want to thank you and I do not know if I was put on the left 
side because I am the Democrat and everybody else is on the 
right side, but I really want to thank you and welcome you to 
our district. We are here to talk about the tragedy that 
recently changed our lives. And it really has changed our 
lives. As Congressman Lewis indicated, I believe it is a 
volcano that is ready to explode at any time if we do not deal 
with the wildfires in the area that destroyed many of our homes 
and businesses and devastated our entire community.
    As indicated, nearly 740,000 acres were burned, over 3,360 
homes were destroyed and 26 people lost their lives. To me, 
when you lose one life, you have lost too many lives. At one 
point, nearly 16,000 firefighters risked their safety to help 
save our forest and protect our lives. We owe a great gratitude 
to a lot of the firefighters.
    If I may have your permission, I would like to have every 
firefighter that is here from the Forest Service or other, 
could you please stand and let us give them a round of 
applause.
    [Applause.]
    Mr. Baca. These are the men and women really who 
courageously saved a lot of what could have happened, it could 
have been worse.
    On Wednesday, President Bush signed the Healthy Forest 
Restoration Act. I have been consistent in supporting the 
President in this initiative, I am happy that both houses voted 
on this legislation, though some may see it as a Monday 
quarterbacking since we were warned for years that this was 
going to happen. I supported this bill three different times, I 
supported it in Committee and I supported it on the Floor. Many 
of us knew that the dead trees left out there were simply 
matches waiting to be ignited or exploding as volcanoes. I am 
unhappy that it took a devastating fire like this to pass this 
law, but now hopefully we have the law in place to make sure 
that something like this never happens again and I think that 
is what we are here to talk about, is to look at how we may 
prevent further damage to our area.
    I commend both Chairman Pombo and Congressman McInnis for 
sending the legislation to the President's desk. But now the 
fires are over and we need to focus on recovery.
    Water quality has always been a major problem in my 
district. We have consistently had to fight perchlorate 
contamination and drought. The families in my district have 
been conserving water for months and many of them are scared to 
give their babies water from the tap because of the 
perchlorate. So this is something that also affects us. And now 
with the fires, they have gotten worse. We are at the risk of 
ashes and debris creeping in the water supplies in some places 
like soil which has been scorched that is stopping water from 
soaking into the ground that is going to have a huge impact on 
Rialto and the Colden water basin.
    I am also concerned about the impact that wildfires have 
had on Native American tribes in our area, 10 tribes in 
southern California have suffered damages from the wildfires--
San Pasquale, Dana Mission Indians lost 67 acres of the 68 
homes. San Manuel lost 98 percent of its vegetation because of 
the wildfires.
    I hope today we will discuss what Congress can do to help 
these tribes as part of the community to bounce back from the 
destruction.
    I welcome my colleagues from the Inland Empire and I thank 
the witnesses for being here today and I look forward to 
hearing answers to some of the questions and I look forward to 
working in a bipartisan way to solve this problem because we 
have all got to come together, this is not a Democratic issue, 
this is not a Republican issue, this is not an Independent 
issue, but this is an issue that impacts all of us. And 
together we can make a difference and we look forward to 
solving these problems and hopefully we can prevent further 
damages to our areas and really look at the beautification, 
because as we flew over the area it was nice to see the beauty 
of the forests the way it is in some of the areas where it has 
not been devastated but in some of the areas when you look at 
it, it was like looking at a dinosaur, empty, shrubs in the 
area, it does not look pretty.
    We are looking forward to restoring that. And when we look 
at this immediate area, we look at the corridor of I-15 that 
runs right through this area. What additional damage could have 
been done to as well because this is where nuclear waste and 
other transfers go from here to Nevada, through that area. Can 
you imagine if our firefighters and others had not done what 
they had done and if at that time there was any transfer of 
anything, what it could have done to this immediate area? It is 
not only this area but the effects it could have had in our 
whole region.
    I thank you and I look forward to hearing from the 
witnesses. Thank you very much, Mr. Chairman.
    Mr. Pombo. Thank you. Mr. Calvert.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert Thank you, Mr. Chairman, and I want to thank 
you for having this hearing and I certainly want to thank 
Congressman Lewis for hosting us here in his Congressional 
District. I will keep my remarks extremely brief.
    I know we want to get to our panels. But I as well as all 
of us want to thank the courageous firefighters and the first 
responders. What a fantastic evacuation in the face of a 
disaster, it could have been a lot worse, as we said, but 
people were successfully able to get off the mountain. This 
could have been much worse.
    I certainly want to thank you for your efforts on the 
healthy forest initiative, I think that is a step forward. The 
work that needs to be done is enormous. As a native of southern 
California, we have seen these fires which have been a part of 
our life here in California, but of late, they have become more 
often and more fierce. So hopefully, with this legislation, we 
can take positive proactive steps to prevent this from 
happening.
    Certainly I am concerned about the secondary effects of 
this. Chairing the Water Subcommittee and looking at the 
precious resource that we have here which is obviously very 
scarce, as Mr. Baca indicates, we are very concerned about 
water quality and the effects off mountain that are going to 
happen because of flood problems and water quality issues. So 
that will be of interest also.
    But again, thank you for this hearing and look forwards to 
listening to these panels today. Thank you.
    Mr. Pombo. Mr. Radanovich.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman, for having this 
hearing today, and to you, Jerry, for hosting it.
    I come from the Yosemite part of California and 10 years 
ago, about 10 or 12 years ago, experienced bark beetle 
devastation, nothing to what I have seen on the helicopter tour 
around here. This is amazing. But I think that we have got a 
valuable tool in the healthy forest initiative because my 
experience has been when there was the desire to go in and 
harvest these trees, that the previous Administration would 
stall in their efforts to go harvest them and there were also 
lawsuits filed to block the harvesting of this kind of timber 
until it sat dead in the forest for so long that it was no 
longer economically viable.
    I am looking forward to a good discussion with this panel 
and others about how that might be avoided this time around, 
because that is an awful fire danger out there.
    I look forward to the testimony and appreciate the hearing 
being here.
    Mr. Pombo. Mr. Walden.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. As the only non-
Californian here on the panel, I appreciate the opportunity to 
come back. I was here with you September 22. I want to thank 
Congressman Lewis and you for having this hearing on this very 
important issue. I think we learned on September 22 what to 
anticipate in case of fire. We have seen that come into 
reality.
    What we have to do now is evaluate what happens after a 
fire, because sometimes the consequences are even worse after a 
fire than before, when you begin to look at water quality 
issues, habitat issues, flood issues, sediment issues as well 
as setting up for the next monster fire. That I think is 
probably my biggest concern, is what do we do now after a fire. 
The smoke has cleared, the problem may have gotten worse, not 
better. As I understand it, there is a very small percentage of 
the diseased trees that actually burned, something less than 10 
percent, which means the problem we so identified last fall in 
September remains and with the other stresses now in the 
forest, the other burn material that is out there, the fire 
danger may actually be greater and now you also face the 
terrible environmental potential of mudslides, sediment and 
other pollution.
    So, Mr. Chairman, I thank you for your great leadership on 
this. We saw flying up today the result of a no-action 
alternative. A no-action alternative means you do not do 
anything, and for many years, many people thought doing nothing 
in the forest might be the best thing for the forest. Most of 
us recognize that was not true. We have a picture now in our 
minds of the effect of no-action alternatives--this enormous 
fire, monster fire, catastrophic damage. We cannot just walk 
away from these forests, these chaparral areas, and expect them 
to survive unless you want monster fire and great destruction 
and devastation. And I for one do not want that.
    So, Mr. Chairman, thank you for this. I look forward to our 
witnesses and I look forward to future legislative initiatives 
to do post-fire what we are now doing with the Healthy Forest 
Restoration Act for pre-fire activity.
    Mr. Pombo. Ms. Bono.

 STATEMENT OF THE HON. MARY BONO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Bono. Thank you, Mr. Chairman. It is a pleasure to be 
here with all of you. I do not sit on the Resources Committee, 
I am on the Energy and Commerce Committee, but I represent an 
area that is very similar to this area and that would be 
Idyllwild, and I know that the photos we are seeing today and 
much of the discussion will not be focused on Idyllwild, but I 
would like to remind all of you to think of Idyllwild as we 
make this discussion.
    I would also like to thank Chairman Lewis, who we have 
worked together so closely on this issue. We flew the area a 
year ago at least and looked for some solutions and ideas that 
were really out-of-the-box type of thinking and I commend the 
Chairman--even though he called Chairman Pombo, Chairman Bono--
he probably does not know he did that, but I appreciate the 
raise in stature over there.
    [Laughter.]
    Ms. Bono. It is really Jerry's leadership that has been 
unbelievable as always.
    This area, Congressman Lewis, has been near and dear to my 
heart for my entire life. I grew up in southern California and 
my first ski run was actually at what used to be called 
Goldmine, for all of you old timers up here, you remember 
Goldmine, it was a long time ago, and I really believe the 
forests are such a critical and essential part of southern 
California lifestyle and would hate to think of them being gone 
1 day, but that reality is here.
    Like Congressman Calvert said, I would also like to commend 
the community for evacuating 58,000 people without a single 
incident is really something that is amazing to have witnessed, 
but knowing that that came from within the community as we face 
this crisis here and in Idyllwild, people have been addressing 
what can be done from the community's point of view and things 
like evacuation routes were high on the priority list and you 
were quite successful at that. And like Congressman Calvert 
said, I applaud you for that.
    But the different twist for me, I am in sort of the way of 
thinking here that we are still waiting for the other shoe to 
drop. We had no catastrophic fires over in Idyllwild, but we 
are still waiting, as are all of you up here. We are waiting 
for the other shoe to drop. My questions, truly for 
policymakers in Washington as well as in Sacramento, are how 
are we best equipped to deal with this, and Congressman Lewis 
and I sat with FEMA and asked them for their help a long time 
ago and tried to press the case that this was a crisis that had 
already occurred and that FEMA needed to come in and help with 
this. Unfortunately, on the day of October 24, FEMA came out 
and said they would not be able to help us and I was a little 
bit frustrated by the timing, but southern California was 
ablaze and that FEMA made that statement.
    The truth of the matter really is we do need to discuss the 
roles that both FEMA and OES play in this situation, because we 
do not want to dilute their responsibilities as they are faced 
with homeland security and other pressing issues, but how can 
we best address removing these trees and getting the job done. 
And I think that is a discussion that we should have perhaps 
today and certainly back in Washington and Sacramento.
    I would also like to add, as we are frustrated perhaps by 
protesters, I would like to say that I believe multiple voices 
can be added to this debate. We had very successful legislation 
that we wrote in the previously 44th District of California 
when we established the Santa Rosa/San Jacinto National 
Monument, when we brought together all interested parties--the 
environmental community sat down with our builders and we came 
up with wonderful legislation that to this day everybody is 
very happy with. And I believe if we address this in the same 
spirit where we come together and have discussions and truly do 
what is best to move this forward, we can be quite successful 
and I hope we use the National Monument Act as an example of 
that spirit.
    So I want to again thank you, Mr. Chairman Pombo, for 
having me here today. Thank you and I yield back.
    Mr. Pombo. Thank you. I would like to introduce our first 
panel of witnesses. We have Chief of the Forest Service Dale 
Bosworth who is accompanied by Mr. Jack Blackwell and Mr. Gene 
Zimmerman; the Honorable Mike Chrisman, Secretary-Designate, 
California Resource Agency; and Ms. Anne Kinsinger, Regional 
Biologist, Western Region, USGS, accompanied by Mr. Jon Keely, 
Research Scientist, Western Ecological Research Center.
    Before we begin, I would like to ask you to stand. It is 
customary in the Resources Committee to swear in all of our 
witnesses, so if you would stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Pombo. Let the record show they answered in the 
affirmative.
    Let me remind the witnesses that under Committee rules, you 
must limit your oral statements to five minutes, but your 
entire written testimony will appear in the record.
    I now recognize Chief Bosworth for his statement.

    STATEMENT OF DALE BOSWORTH, CHIEF, U.S. FOREST SERVICE, 
 ACCOMPANIED BY JACK BLACKWELL, REGIONAL FORESTER, PACIFIC SW 
    REGION, U.S. FOREST SERVICE and GENE ZIMMERMAN, FOREST 
                SUPERVISOR, U.S. FOREST SERVICE

    Mr. Bosworth. Thank you, Mr. Chairman. First, I really 
appreciate the invitation to be here today and to talk about 
some of the efforts that we have underway for restoring and 
protecting the natural resources that were affected by these 
devastating fires.
    I also want to thank you for your leadership in helping to 
get us the Healthy Forest Restoration Act that was signed into 
law, as you said, on Wednesday, and thank the rest of the 
members of the Committee for that help too. It is going to make 
a big difference. It was a very good day for the Forest Service 
last Wednesday when the President signed that. So thank you for 
that.
    Now as we concentrate our efforts on some of these National 
Forest System lands in trying to do this restoration work, I 
want to also make sure that we all recognize that there were 
some equally devastating effects of these fires on some of the 
local people and local communities and we just feel very bad 
for those people and we want to do all the things that we can 
in the Forest Service to try to help them.
    My statement will focus on the work of my agency, but 
again, we all know that there has been a tremendous amount and 
continues to be a tremendous amount of cooperation among all 
agencies. And as I say, while my statement focuses on the 
Forest Service, there is lots of other things going on that we 
recognize. Cooperation began long before the fires and I am 
very proud of Forest Supervisor Gene Zimmerman here, and his 
folks for the role that they played in helping the communities 
become prepared for this situation long before it happened. And 
I also think it is incredible that 58,000 people were evacuated 
from the mountain, some of them in the middle of the night 
without electricity, and that there were no incidents. And that 
is because of good planning and good leadership. And all the 
people involved in that should feel very proud as an example 
for the rest of the country.
    There are many examples of heroic work that took place 
during these fires. They saved homes, they saved lives. But you 
know, I do not think we ought to be putting our firefighters in 
a situation where they have to be heroes day after day after 
day. There is a better way. And that way is restoring these 
fire dependent ecosystems to a healthy condition.
    Our focus at the moment is going to be on restoring and 
protecting the natural resources after these fires. The work 
that we are doing here I think may be the most challenging 
stabilization effort that we have ever been involved in in the 
Forest Service. We have our very best expertise here available 
to help, to do what they can.
    The chaparral areas where most of the fire occurred is 
different than the forest types and they require different 
treatments for both the rehabilitation as well as for risk 
reduction. So we have always got to be careful that we do not 
try to think of a one size fits all solution to any of these 
problems, but we look at the habitat type and the forest types 
that we are trying to deal with in each area.
    The risk remains high in these bark beetle killed areas as 
we saw on our helicopter trip, because there is so much of that 
that remains out there and so many more trees that continue to 
die.
    Before these fires were controlled though, while they were 
still burning, we had teams that were onsite that were 
evaluating and assessing the work that needed to be done in 
terms of rehabilitation and restoration. We activated four 
large burned area emergency rehabilitation teams, we call them 
BAER teams. These BAER teams assess and they map the damage 
that has been caused by these fires and they design and 
implement rehabilitation plans to help protect life and 
property and reduce further damage from these fires.
    As a result of the fires, ground cover has been burned 
away, exposing the soil to erosion hazards. This increased 
hazard exposes homes then that may not have previously been in 
the pathway of floods or susceptible to flood damage, but may 
be now. We are stabilizing slopes by spreading thousands of 
tons of straw mulch, we are digging catchment basins to slow 
down water, reshaping roads. We are clearing ditches, 
installing culverts to ensure adequate drainage systems. As you 
know, more water will run off now because we do not have the 
ground cover to catch it and so the existing culverts may not 
be large enough to carry that water, so we need to replace them 
with larger culverts.
    To date, we have approved $9 million toward this effort and 
we have spent over $2.5 million at this point. Some examples of 
places that we are doing work--Silverwood Lake is a big 
concern, it is a major supplier of drinking water to over 12 
million people, if I understand that correctly. Much of the 
forest around the lake was burned in the old fire. We are 
placing rice straw on hundreds of acres of burned areas there 
to slow or reduce the ash and the debris movement to the lake.
    The Sespe Oil Fields on the Los Padres National Forest is 
another area where we are concerned. Floods or debris could cut 
oil and gas transmission lines, and the road system there 
provides access to feed California condors by the Fish and 
Wildlife Service on a daily basis. We are stabilizing the road 
system to reduce the risk to the pipeline and also to assure 
access to these condors.
    So this BAER work is ongoing. We expect to be done 
generally by mid-December.
    I want to say something about the Forest Service's Research 
and Development Branch. We have what I believe is the best 
natural resource, and it is the largest natural resource 
research and development organization in the world. This group 
is bringing their expertise to southern California to aid in 
the recovery efforts by assisting the BAER teams in assessing 
the situation and providing advice. The Pacific Southwest 
Research Station has laboratories all over California is one of 
the best in the country. They have some of the brightest 
scientists there that are here to help and they will do 
everything they can.
    We are also addressing issues of advanced technologies for 
fire resistant housing, for biomass removal and techniques that 
homeowners can implement to reduce their risk of wildland fire 
damage.
    There will also be some things that our scientists are 
doing to try to make sure that we are designing follow up 
studies so that we can fill in the gaps of knowledge in the 
science of fire recovery, so we can learn from what happens and 
what takes place from these efforts.
    I do want to point out that emergency stabilization, this 
BAER work, is focused on short-term actions--short-term 
actions--to get burned areas through one or two seasons. This 
work is funded through our fire suppression funds because it is 
emergency. Now more rehabilitation work may be necessary over 
the next several years to ensure that watershed work is 
maintained, that invasive weeds do not spread, that land is 
vegetated and key transportation routes and facilities are 
available. That work is funded through our regular national 
forest system appropriations.
    Now this is important work and we are going to have to set 
priorities in this work in light of our responsibilities to 
sustain all of our other Forest Service programs, because we 
will have to take dollars from other programs to do this longer 
term restoration work here.
    Even after these fires though, we are going to continue to 
face serious forest and rangeland health issues here and around 
the rest of the country. Restoring and rehabilitating our fire 
adapted ecosystems I believe is the most important task that 
our agency is going to undertake over at least the next decade. 
And again, the way that we are going to deal with these fires 
in the long term is by dealing with the forest. It is a forest 
management problem, not a fire problem.
    We have made a commitment to move aggressively in 
accelerating vegetative treatments that will improve the fire 
condition class at the landscape level. We will be moving 
forward in the implementation of the Healthy Forest Restoration 
Act rapidly so that we can get on the ground and get more of 
the dollars to the ground to get this work done. We will be 
working closer with people, closer with the communities in 
implementing that healthy forest legislation, and that is 
critical that we have the people with us, that we work together 
across the landscape, not looking simply at one ownership or 
another, but looking at it as a landscape and working together 
to solve the problem. And we will be doing that.
    I must say though I was a little disappointed the day after 
the Healthy Forest Restoration Act was passed when I was 
looking through some web pages on the computer and saw a couple 
of environmental web pages that already had documents on how we 
can litigate and stop any of the projects under the healthy 
forest legislation. It is disappointing to me because I did not 
see anything that said how we can maybe make the projects 
better. Because that is what we ought to all be working at, how 
can we make the projects better than immediately jumping to how 
can we stop the projects.
    I hope that through effective public participation, 
effective public involvement, we will be able to bring all of 
these groups into the fold in how we manage at least the 
national forests.
    Thanks again for the opportunity to be here and we will be 
happy to answer any questions you might have.
    Mr. Pombo. Thank you. Mr. Chrisman.
    [The prepared statement of Mr. Bosworth follows:]

        Statement of Dale Bosworth, Chief, U.S. Forest Service, 
                United States Department of Agriculture

Introduction
    Mr. Chairman, thank you for this opportunity to discuss with your 
committee the status of our efforts for restoring and protecting the 
natural resource values that were affected by the recent fire events in 
Southern California. As we concentrate our efforts on National Forest 
System lands affected by the fires, we also recognize the equally 
devastating effects from this disaster on the local population, 
communities and other land management organizations. The activities now 
being undertaken by our agency and local, county, state and federal 
partners may be the most challenging restoration effort that we have 
ever encountered. The skill that is needed and the scale of the effort 
are extraordinary. We are bringing the greatest expertise available to 
restore the vegetation and soil resources that were affected by the 
fires as quickly as possible.

Southern California Fire Review
    As you were able to see today, the Southern California fires of 
2003 were some of the most destructive wildfire events, in terms of 
structures lost and lives affected, in recent history. In three weeks, 
wildfires burned over 739,000 acres, 22 people lost their lives as a 
result of the fires, and 3,623 homes were destroyed. Thirty-five 
percent of the burned acreage was on National Forest System lands. Five 
large fires, the Paradise, Piru, Old, Grand Prix and Cedar fires were 
located on the Angeles, San Bernardino, Los Padres and Cleveland 
National Forests. The Forest Service spent over $71 million to suppress 
these fires. Before the fires were fully controlled, we had teams on 
site evaluating and assessing the work that needed to be done. Today, I 
would like to describe to you the progress of our current efforts and 
our goals for the future.

Current Emergency Stabilization Efforts
    Emergency stabilization in Southern California is a multi-agency 
cooperative effort, accomplished across federal, state, private and 
tribal lands. The Forest Service is coordinating with the Natural 
Resource Conservation Service, the California Department of Forestry 
and Fire Protection, the Department of the Interior and local 
governments to make the emergency stabilization effort as effective and 
seamless as possible. The Forest Service activated four large Burned 
Area Emergency Rehabilitation (BAER-pronounced ``bear'') Teams, one per 
National Forest, to implement the emergency stabilization work. These 
teams are the equivalent of twelve normal-sized BAER teams which 
usually have 6 to 8 members per team. BAER teams are assembled on fires 
where resources may be at risk. The teams assess and map the damage 
caused by a fire and design and implement a rehabilitation plan. The 
goal is to protect life and property and reduce further natural and 
cultural resource damage.
    As a result of the fires, much ground cover has been burned away, 
exposing the soil to the direct impact of rain. In addition, depending 
on the severity of the fire, the soil itself may repel water, rather 
than absorbing it. Less water soaking into the soil makes it difficult 
for seeds to germinate and for surviving plants to obtain water. These 
conditions may set the stage for soil erosion and for more rapid 
flooding when rains occur. Homes that were previously considered not in 
the path of flood waters will be susceptible to being damaged or lost 
to floods.
    We are working to stabilize slopes scoured bare by the fires. On 
the ground and from the air, crews will spread thousands of tons of 
rice straw. The mulching is designed to help speed the growth of 
grasses whose roots will help stabilize the soil. This effort, however, 
is not without limitations. Mulching on slopes steeper than 60 degrees 
can do more harm than good. The straw washes downhill and clogs 
culverts and storm drains.
    Treatments are designed to reduce flood levels and to direct the 
flood waters away from homes, property and places where people are 
likely to be. Here in Southern California, catchment basins are used to 
collect and slow water and debris. We are reshaping roads, clearing 
ditches and installing culverts to assure that road systems have 
drainage systems to carry storm water safely and effectively.
    Floods often carry debris and mud with them. These debris torrents 
can damage or destroy critical natural resources, homes and property. 
Silverwood Lake on the San Bernardino National Forest, supplies 
drinking water to 12 million people. Much of the forest surrounding the 
lake was burned in the 91,000 acre Old Fire. During a heavy rain, ash 
and debris could wash into the lake overloading the filtration and 
sanitation systems. We are placing hundreds of acres of rice straw on 
the severely burned areas to slow or reduce the ash and debris movement 
into the lake.
    Other values at risk include the Sespe Oil Fields on the Los Padres 
National Forest. Floods or debris torrents in the oil field could cut 
through the oil and gas transmission pipes, causing leaks. The road 
system that accesses the oil fields also provides access to the U.S. 
Fish and Wildlife Service National Condor Wildlife Refuge, where the 
USFWS feeds the condors on a daily basis. If this road system were lost 
to a flood or debris torrent, the condors would be at risk. We are 
stabilizing the road system to reduce the risk to the pipelines and 
assure access to the condors.
    Approximately $9 million in (BAER) Forest Service funds have been 
approved for work on the Southern California Fires. To implement the 
emergency work as soon as possible, funds are approved incrementally as 
needs are identified. As of this week we have expended $2.5 million in 
emergency restoration funds. Recent rains have had a positive effect by 
encouraging sprouting and regrowth of vegetation. The moisture has not 
been heavy enough to increase the damage in the burned areas. We do 
know that, if heavy winter rains occur, subsequent flooding and mud 
slides will follow. What we are trying to do now is evaluate where the 
biggest threats are and limit the damage as much as possible. The work 
of the BAER teams is expected to be completed by mid-December.

Science and Technology Transfer
    As community leaders, citizens, land managers and institutions, 
such as the insurance industry, assess the situation and begin recovery 
efforts, it is important that they have the latest and best scientific 
expertise and information. Our Forest Service Research and Development 
organization is the largest natural resource research organization in 
the world. This group is bringing its expertise to Southern California 
recovery efforts by leading a coalition of scientific and technical 
organizations to assist the BAER teams in assessing the situation and 
providing advice and expertise on recovery efforts. We will also be 
designing follow-up studies to fill in key gaps in the science of fire 
recovery efforts where we still have information needs. The plan of 
action developed by these scientific specialists will go well beyond 
the initial efforts of recovery and stabilization and address such 
issues as: (1) advanced technologies in fire resistant housing 
construction; (2) factors impeding the effective implementation of 
biomass removal; and (3) techniques that homeowners can implement to 
reduce their risk within the wildland urban interface.

Rehabilitation Efforts
    The emergency stabilization (BAER) work is focused on short-term 
actions to get burned areas through one or two seasons, especially the 
critical first season. This work is expected to be completed within 
weeks. Additional rehabilitation work will take place over the next 
several years to maintain the watershed work started, minimize the 
spread of invasive weeds into areas disturbed by the fire, revegetate 
land and keep key transportation routes open.
    In addition to the lands burned in Southern California this year, a 
total of 1.4 million acres were burned on National Forest System lands 
this year with over 198,000 acres so severely burned that serious 
erosion hazards were created. The total cost of rehabilitation work in 
FY 2003 was met through appropriations and by reprioritizing our 
program of work. We recognize that these long-term rehabilitation needs 
are important. We will continue to weigh the priorities of this work in 
light of our responsibilities to sustain our other Forest Service 
programs to protect, manage and restore resource values on National 
Forest System lands. The rehabilitation work includes: reforestation, 
treatments for noxious weeds, wildlife habitat improvement, follow up 
on erosion and sedimentation mitigation, and rehabilitation of roads 
and recreation trails.

10-Year Comprehensive Strategy
    Mr. Chairman, our expenditures on wildland fire suppression doubled 
in the last 10 years, illustrating the serious forest and rangeland 
health problem we face. As bad as the fires were, they burned for the 
most part in chaparral areas and did not appreciably change the forest 
health situation on forested lands in Southern California, particularly 
on the San Bernardino National Forest which has the most serious 
situation. In the forested areas, much of the remaining unburned acres 
are still choked with mostly small trees, many of which are dead and 
dying from drought and bark beetle infestations. Much of these forested 
lands remain at risk.
    In addition we know that brushlands of Southern California are 
serious fire hazards. We also know that high severity crown fires have 
been a characteristic of chaparral landscapes for thousands of years 
and will continue to be. Wildland fire in Southern California and 
across much of the United States is an integral part of nature. Large 
chaparral fires tend to burn under very severe drought and high wind 
conditions that make control difficult or impossible. This does not 
mean that infrastructure damage is inevitable. Because we have 
communities and homes adjacent to, and within, these landscapes, we 
need to work together to reduce the danger through public-private 
partnerships. Treating vegetation zones around communities, roads and 
other important infrastructure can be effective when combined with 
programs where communities implement projects to fire-safe their homes 
and communities.
    We advocate a comprehensive approach to address this and other 
situations across the country. In cooperation with the Western 
Governors' Association, our federal, state and tribal partners and 
interested stakeholders we have developed a 10-year Comprehensive 
Strategy and Implementation Plan to reduce wildland fire risks to 
communities and the environment. We are in the second year of 
implementing this strategy that acknowledges fire's role in the 
ecosystem. Restoring and rehabilitating our fire adapted ecosystems may 
be the most important task that our agency undertakes. The Strategy and 
Implementation Plan provides a road map for helping communities to 
protect themselves from the risk of wildland fire.
    The Comprehensive Strategy recognizes the need to shift our fire 
management emphasis from a reactive to a proactive approach. We are 
moving from treating symptoms towards treating the underlying problems 
and strategically placing hazardous fuel treatments throughout our 
nation's forests and rangelands to change large-scale fire behavior.
    On the San Bernardino National Forest, implementing this strategy 
is underway. We have through cooperative efforts, reduced fuels along 
roadways to provide effective evacuation routes, thinned and removed 
dead trees, reduced fuel hazards and provided fuel breaks all of which 
were effective during the recent fires. Additional work remains, on the 
National Forests in Southern California as well as other areas across 
the country which are experiencing serious forest health problems.
    On December 3rd, the President signed into law the Healthy Forests 
Restoration Act of 2003, which will give federal agencies needed 
additional tools to implement the 10-Year Comprehensive Strategy and 
Implementation Plan. I want to thank you Mr. Chairman for your support 
and leadership in the development and passage of this vitally important 
legislation.
    The Act authorizes the Forest Service and other federal agencies to 
work directly with communities at risk in the development of community 
wildfire protection plans. The Secretaries of Agriculture and of the 
Interior will consider the recommendations within these community plans 
when developing an annual program of work. The Act requires the 
agencies to work collaboratively with local communities and interested 
parties when developing hazardous fuels reduction projects, and reduces 
the number of alternatives the agencies are required to conduct 
environmental analyses for proposed projects. The changes described in 
the Act should reduce the time span that occurs prior to management 
actions taking place.
    Successful integration of the Healthy Forests Restoration Act in 
the implementation of the Comprehensive Strategy will result in 
landscape-scale changes that significantly reduce the potential for 
large, damaging fires. I, along with our Regional Foresters, have made 
a commitment to move forward aggressively in accelerating vegetative 
treatments that improve condition class in fire-adapted ecosystems on 
National Forest System lands.
    I also wish to thank the Congress for providing additional funding 
in FY 2004 to help meet the challenge of reducing fire risk. In 
California, $15 million in hazardous fuel reduction funding and $25 
million for state and private funding will help the state and local 
communities reduce wildfire hazards.
Conclusion
    We will do our best to rehabilitate and restore the resources that 
were affected by these fires. I am confident that we have the right 
talent and teams in place to accomplish this work in cooperation with 
local and state agencies. At this time, I will be pleased to answer any 
questions that the committee may have.
                                 ______
                                 

STATEMENT OF THE HONORABLE MIKE CHRISMAN, SECRETARY-DESIGNATE, 
                  CALIFORNIA RESOURCES AGENCY

    Mr. Chrisman. Thank you, Chairman Pombo and members of the 
Committee. It is a pleasure to be here and on behalf of 
Governor Schwarzenegger, I appreciate the opportunity to 
testify before this Committee today to discuss the catastrophic 
wildfires experienced here in California this fall.
    Again, as other speakers have said, I appreciate the great 
efforts of the Chairman and the entire Resources Committee in 
getting the Healthy Forest Act passed--which, as we know, 
President Bush signed earlier this week.
    Recent wildfires here in southern California have caused 
devastation on a scale that I have not seen in my lifetime. The 
lost acreage, the tragic loss of lives and, of course, the 
dollar cost is yet to be determined, but it is going to be in 
the hundreds and hundreds of millions of dollars. Beyond that 
human toll, southern California fires, of course, represent a 
major environmental catastrophe, the scale of which we are 
still to determine. These fires destroyed not only trees, but 
watershed and habitat for the flora and fauna.
    Like others, both on the dais as members and here on the 
witness stand, I would like to take the opportunity to commend 
the thousands of individuals who helped fight the fires, 15,000 
people contributed to the army of firefighters and medics and 
logistical supporters and volunteers who helped to eventually 
extinguish these fires. In the midst of this widespread 
destruction it is easy to forget the achievements of the 
Federal, state and other local agencies.
    As most of you are aware, former Governor Davis, in 
consultation with then Governor-elect Arnold Schwarzenegger, 
named a Blue Ribbon Commission to review the efforts to fight 
the state's recent wildfires and provide recommendations to 
prevent destruction from future fires. The Commission will 
present its recommendations in March of 2004. Andrea Tuttle the 
State Forester at the Department of Forestry and Fire 
Protection here in California, will represent the Resources 
Agency on that Commission and I urge the Committee to include a 
copy of the Commission's report and recommendations as a part 
of the hearing record, if we might, please.
    The State of California with its Federal and local partners 
has made great strides in preparing for large scale wildfires 
and mobilizing resources to react once a fire begins. There is 
ample examples down in this part of the world in San Bernardino 
and Riverside Counties where managing fire emergencies through 
incident command-based, multi-agency organizations have been 
very successful over time. These organizations, of course, have 
developed and operate with strategic plans to serve as guiding, 
planning, preparedness, evacuation response and mitigation 
activities.
    I personally cannot stress enough the importance and 
strength of the inter-agency cooperation we have experienced 
with our partners in formulating these preparedness plans. 
Cooperation between Regional Forester Jack Blackwell, myself, 
between Forest Supervisor Gene Zimmerman, CDF Units Tom O'Keefe 
of San Bernardino County and Tom Tisdale of Riverside and 
between our staffs has simply been tremendous. At every step 
along the way, Federal, state and county and special districts 
work together in ways they never experienced before.
    The State of California in preparing for these fires, some 
of the actions that we took:
    The California Department of Forestry took a strong role in 
clearing evacuation routes, reduced the paperwork involved in 
some of the laws that we have to meet.
    The Department of Transportation provided trucks, hauling 
trees and waste.
    The California Integrated Waste Management Board provided 
expanded use of transfer sites.
    The Highway Patrol worked closely with local sheriffs and 
law enforcement agencies.
    And many other examples of excellent cooperation between 
the various agencies.
    Strong inter-agency coordination served California well 
during the recent fires and I pledge to continue efforts under 
the Schwarzenegger Administration.
    However, while coordinated planning and effective reaction 
to wildfires is important, this alone does not address the root 
cause of the problem. California forests are in a state of 
crisis. Policies of 100 percent fire suppression and no 
reasonable thinning have left our forests choked full of dead 
and dying trees, as we have experienced around the Lake 
Arrowhead area. Some areas around this area, tree densities I 
am told are in the neighborhood of 400 trees per acre and 
sometimes more. Scientists estimate historically healthy 
forests in this region would support only 40 to 50 trees per 
acre. With a density 10 times historic levels, trees must 
compete for sunlight and water and as a result more and more 
trees are stressed out and unable to ward off disease or fire. 
More importantly, the massive increase in forest density 
creates a virtual tinderbox of forest fuels I think we have all 
experienced here and have seen the result of it.
    Recent drought has, of course, undoubtedly contributed to 
this problem. As any visitor to Lake Arrowhead will tell you, 
the bark beetle infestation has greatly contributed also to the 
demise of our forests and enhanced the tinderbox effect.
    Again, I want to commend the Chairman and the members of 
the Committee for the passage of the Healthy Forest Act. This 
legislation recognizes that forest management practices need to 
adapt recent scientific understandings to the causes of 
wildfire. Under the previous Administration here in California, 
the State of California recognized that our forests were in 
dire need of responsible and active management. The state spent 
significant resources removing dead and dying trees from our 
forests across the state. Furthermore, following a proclamation 
from Governor Davis, the California Public Utilities Commission 
has ordered Southern California Edison Company and San Diego 
Gas & Electric to remove all dead or dying trees that could 
potentially threaten transmission and distribution lines in 
their service territory. Edison predicts that this tree removal 
will run as high as $400 million and could take several years 
to complete.
    These efforts and more will be necessary to protect our 
forests and reduce the potential for catastrophic wildfires. 
This problem was not created overnight and will not be solved 
overnight. It will be an expensive endeavor which is especially 
challenging for a state in the midst of fiscal woes. Given the 
sensitivity to California regarding forest management 
practices, I am convinced that a strong stakeholder process in 
reducing fuels without the help of local governments, residents 
and landowners and interest groups simply is not possible.
    I pledge that the Resources Agency will recognize and 
respect differences in geography, habitat and human populations 
that occur in our forests. We will engage stakeholders and look 
for local solutions to managing these forests and reducing the 
risk of catastrophic fires.
    To meet this challenge, the state must seek innovative 
solutions to forest thinning that both respects our 
environmental values and protects our forests from future fire 
calamities. One such idea is to promote the development of 
biomass power plants adjacent to our forests. Currently most of 
the dead or diseased trees that are removed from our forests 
have little or no commercial value. They are often hauled off 
to municipal dumps or incinerated.
    As we speak, Southern California Edison Company, with the 
help of the California Energy Commission, is pursuing the 
development of multiple biomass plants in areas affected by the 
bark beetle infestation. By converting wood waste into energy, 
California can protects its forests and provide cleaner, 
renewable energy to its citizens. As Secretary, I will seek to 
promote biomass power sources and other forest management 
techniques to achieve both economic and environmental benefits.
    Mr. Chairman, thank you again for holding this most 
important hearing and as public servants, we know that 
government is designed to provide basic service and protect its 
citizens. In the area of forest management, oftentimes we are 
failing at both. The forest management policies of the past led 
to the environmental destruction and the loss of human life and 
property. If policymakers do not rise to this challenge, our 
forests will continue to burn with the massive fires like the 
ones that ravaged southern California and the intermountain 
west last summer. It is time to start actively managing our 
forests in a way to protect these beautiful resources and 
reduce the risk of these catastrophic fires.
    Thank you very much.
    Mr. Pombo. Thank you.
    [Comments from the audience.]
    Mr. Pombo. Before I recognize Ms. Kinsinger, I would just 
like to remind our audience that this is an official 
Congressional hearing and therefore we are bound by House 
rules, and as part of the House rules, any outbursts from the 
audience or expressions both in favor or opposed to any of the 
testimony is a violation of House rules, so I would like to ask 
all of you to maintain the decorum that is necessary in an 
official hearing. Thank you.
    Ms. Kinsinger.
    [The prepared statement of Mr. Chrisman follows:]

   Statement of Mike Chrisman, Secretary, California Resources Agency

    Chairman Pombo and Members of the Committee, on behalf of Governor 
Arnold Schwarzenegger, I appreciate the opportunity to testify before 
the Subcommittee regarding the catastrophic wildfires that California 
experienced this fall. I also appreciate the great efforts of the 
Chairman and the entire Resources Committee in passing the Healthy 
Forest Act, which President Bush signed earlier this week.
    The recent wildfires in Southern California have caused devastation 
on a scale not seen before in my lifetime. The fires burned 739,597 
acres in Southern California. At the height of the fires, over 15,000 
personnel were actively working to contain them. Sadly, 3,631 homes 
were burned to the ground. Another 36 commercial properties and 1,169 
outbuildings were also destroyed. And, most tragically, 22 people lost 
their lives in the fires. The total cost of the recent fires is still 
unknown, but it will surely be in the hundreds of millions of dollars.
    Beyond the human toll, the Southern California fires represent a 
major environmental catastrophe, the scale of which we cannot yet fully 
determine. These devastating fires destroyed not only trees but also 
watersheds and habitat for numerous species of flora and fauna. Winter 
rains will bring further damage, as barren landscapes will lead to 
widespread erosion, polluting California's streams, rivers, and lakes, 
and clogging water treatment facilities.
    I want to take this opportunity to commend the thousands of 
individuals who helped fight the fires. As I mentioned earlier, over 
15,000 people contributed to the army of firefighters, medics, and 
logistical supporters and volunteers who helped to eventually 
extinguish the fires. In the midst of the widespread destruction, it is 
easy to forget the achievements of Federal, State and local agencies.
    As you are aware, former Governor Gray Davis, in consultation with 
then Governor-elect Arnold Schwarzenegger, named a Blue Ribbon 
Commission to review the effort to fight the State's recent wildfires 
and provide recommendations to prevent destruction from future fires. 
The Commission will present its recommendations in March 2004. Andrea 
Tuttle, the State Forester at the Department of Forestry and Fire 
Protection, will represent the Resources Agency on the Commission. I 
urge you to include a copy of the Commission's report and 
recommendations as part of this hearing record.

State & Local Preparedness
    The State of California, with its Federal and local partners, has 
made great strides in preparing for large-scale wildfires and 
mobilizing resources to react once a fire begins.
    San Bernardino and Riverside Counties manage fire emergencies 
through an incident command-based, multi-agency organization known as a 
Mountain Area Safety Task Force (MAST). San Diego County created a 
similar organization called the Forest Area Safety Task Force (FAST). 
These groups include the county emergency and public works 
organizations, local Fire Safe Councils, the U.S. Forest Service, the 
California Department of Forestry and Fire Protection (CDF), the Office 
of Emergency Services, California Highway Patrol, California Department 
of Transportation, California Department of Fish and Game, and local 
utility operators. These organizations developed and operate from 
strategic plans that serve to guide planning, preparedness, evacuation 
response, and mitigation activities.
    I cannot stress enough the importance and the strength of the 
interagency cooperation we have experienced with our partners in 
formulating these preparedness plans. Cooperation between Regional 
Forester Jack Blackwell and myself, between Forest Supervisor Gene 
Zimmerman and CDF Unit Chiefs Tom O'Keefe of San Bernardino County and 
Tom Tisdale of Riverside, and between our staffs has been tremendous. 
At every step along the way, the Federal, State, county and special 
districts worked together in ways they have never experienced before.
    The following is a short summary of the actions taken by the State 
of California in preparation for the recent fires:
    <bullet>  CDF took a strong role clearing evacuation routes, 
temporary community shelter sites and fuel breaks utilizing inmate 
crews. We have reduced the paperwork for cutting trees on private 
lands, and coordinated implementation of the Endangered Species Act 
with the California Department of Fish and Game, especially with 
respect to protecting the Southern Rubber Boa snake.
    <bullet>  The California Department of Transportation provided 
trucks for hauling tree waste to disposal sites, and stockpiled signs, 
cones and heavy equipment for clearing roads in the event of 
evacuation.
    <bullet>  The California Integrated Waste Management Board 
permitted expanded use of the transfer sites for the tremendous volumes 
of wood waste, and the local Air Pollution Control District streamlined 
air quality permits for the air curtain burners. Those burners can 
efficiently dispose of large quantities of forest waste at very high 
temperatures with very little air emission.
    <bullet>  The California Highway Patrol worked closely with local 
sheriffs and law enforcement in designing and coordinating evacuation 
plans to help responders get in while getting evacuees out.
    <bullet>  The Contractors State License Board, in coordination with 
CDF, is conducting field inspections to insure that the public is 
protected from fraudulent business practice.
    <bullet>  We have participated with all the MAST agencies in San 
Bernardino County in a tabletop exercise to prepare for a wildfire in 
the Lake Arrowhead area.
    <bullet>  Every strike team, every firefighter coming into southern 
California is given a copy of this special Red Book, a Structure 
Protection Pre-Plan and mandatory briefing to inform them of the 
extraordinary fire behavior they may encounter, which may exceed 
anything they have ever experienced before.
    Strong interagency coordination served California well during the 
recent fires. I pledge to continue these efforts under the 
Schwarzenegger Administration.

Forest Management is Fire Prevention
    However, while coordinated planning and effective reaction to 
wildfires is important, this alone does not address the root cause of 
the problem. California's forests are in a state of crisis. Policies of 
100 percent fire suppression and no reasonable thinning have left our 
forests choked full of dead and dying trees. In some areas around Lake 
Arrowhead, tree densities of 400 trees per acre are common. Scientists 
estimate that, historically, a healthy forest in this region would 
support only 40-50 trees per acre. With a density ten times historic 
levels, trees must compete for sunlight and water. As a result, more 
and more trees are stressed out and unable to ward off disease or fire.
    More importantly, the massive increase in forest density creates a 
virtual tinderbox of forest fuels. At one time, naturally occurring 
fires burned out small trees and brush, leaving larger trees unscathed. 
Today, the vegetation build-up causes fires to burn hotter and higher, 
destroying entire forests in their path.
    Recent drought has undoubtedly contributed to this problem. When 
trees lack adequate water, they are unable to produce the sap that is 
needed to ward off deadly insects like the bark beetle. As any visitor 
to Lake Arrowhead can tell you, bark beetle infestation has greatly 
contributed to the demise of our forests and enhanced the tinderbox 
effect.
    Again, I want to commend the Chairman for the passage of the 
Healthy Forests Act. This legislation recognizes that forest management 
practices need to adapt recent scientific understandings on the causes 
of wildfires. The U.S. General Accounting Office summarized the problem 
succinctly in a recent report:
        Human Activities--especially the federal government's decades-
        old policy of suppressing all wildland fires--have resulted in 
        dangerous accumulations of brush, small trees, and other 
        vegetation on federal lands. This vegetation has increasingly 
        provided fuel for large, intense wildland fires, particularly 
        in the dry, interior western United States. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ GAO Report 04-52, ``Forest Service: Information on Appeals and 
Litigation Involving Fuels Reduction Activities,'' October 2003.
---------------------------------------------------------------------------
    Under the previous Administration, the State of California 
recognized that our forests were in dire need of responsible and active 
management. The State spent significant resources removing dead and 
dying trees from our forests. Furthermore, following a proclamation 
from Governor Davis, the California Public Utility Commission has 
ordered Southern California Edison and San Diego Gas & Electric to 
remove all dead or dying trees that potentially threaten transmission 
and distribution lines in their service territory. Edison predicts that 
tree removal cost will run as high as $400 million and could take 
several years. These efforts, and more, will be necessary to protect 
our forests and reduce the potential for catastrophic wildfires.
    But, I want to caution the public. This problem was not created 
overnight. And, it will not be solved overnight. It will be an 
expensive endeavor, which is especially challenging for a State in the 
midst of fiscal woes. Given the sensitivities in California regarding 
forest management policies, I am convinced that a strong stakeholder 
process is essential. The State of California and the U.S. Forest 
Service are not going to be successful in reducing fuels without the 
help of local governments, residents, landowners, and interest groups. 
I pledge that the Resources Agency will recognize and respect 
differences in geography, habit, and human population that occur in our 
forests. We will engage stakeholders and look for local solutions to 
managing these forests and reducing the risk of catastrophic fire.
    To meet this challenge, the State of California must seek 
innovative solutions to forest thinning that both respects our 
environmental values and protects our forest from future fire 
calamities. One such idea is to promote the development of biomass 
power plants in or adjacent to our forests. Currently, most of the dead 
or diseased trees that are removed from our forests have little or no 
commercial value. They are often hauled off to municipal dumps or 
incinerated. In San Bernardino County alone, 400-500 tons of wood waste 
must be disposed of daily.
    As we speak, Southern California Edison, with the help of the 
California Energy Commission, is pursuing the development of multiple 
biomass plants in areas affected by bark beetle infestation. By 
converting wood waste into energy, California can protect its forests 
and provide cleaner renewable energy to its citizens. As Secretary, I 
will seek to promote biomass power sources and other forest management 
techniques that achieve both economic and environmental benefits.
    Mr. Chairman, thank you again for holding this important hearing. 
As public servants, we know that government is designed to provide 
basic services and protect its citizens. In the area of forest 
management, we are failing on both accounts. The forest management 
policies of the past led to environmental destruction and the loss of 
human life and property. If policymakers do not rise to this challenge, 
our forests will continue to burn in massive fires like the ones that 
ravaged Southern California this fall. It is time to start actively 
managing our forests in a way that protects these beautiful natural 
resources and reduces the risk of catastrophic fires that threaten so 
many communities in California.
                                 ______
                                 

   STATEMENT OF ANNE KINSINGER, REGIONAL BIOLOGIST, WESTERN 
   REGION, U.S. GEOLOGICAL SURVEY, ACCOMPANIED BY JON KEELY, 
 RESEARCH SCIENTIST, WESTERN ECOLOGICAL RESEARCH CENTER, U.S. 
                       GEOLOGICAL SURVEY

    Ms. Kinsinger. Thank you. Mr. Chairman, thank you for the 
opportunity to present this testimony. I have with me today Dr. 
Jon Keely and several other USGS scientists, who will be 
available to answer technical questions. Before I begin though, 
I would like to reiterate on behalf of the Department of 
Interior our gratitude to you, Mr. Chairman, and to other 
members of this Committee for the hard work in achieving the 
passage of the Healthy Forest Restoration Act of 2003. As you 
noted, the President signed that bill on Wednesday. The 
Department is grateful to you for your efforts in providing 
through this legislation additional tools to carry out the 
President's Healthy Forest Initiative.
    I would also like to extend my sympathies to the local 
community for the losses they suffered during these fires.
    The USGS conducts fire-related research to meet the varied 
needs of the land management community and to understand the 
role of fire on the landscape. This research includes fire 
management support, studies of post-fire effects and a wide 
range of studies on fire history and ecology. USGS is an active 
participant in the National Fire Plan and in the DOI and USDA 
joint fire science program. We are currently working closely 
with the FEMA-led multi-agency support group to respond to 
these southern California fires as well as working with 
numerous BAER teams.
    My testimony today is going to focus on five aspects of 
USGS fire response--the floods and debris flows, water quality, 
wildlife effects, invasive species and remote sensing.
    As many of you have already noted, the damage from this 
year's wildfires in southern California is likely not over. 
Just as the fires were the largest in southern California's 
recorded history, the potential for floods and debris flows 
from the burned areas is great. Stormwater runoff in hundreds 
of very steep drainages with histories of large floods and 
debris flows will flow into some of the most rapidly growing 
urban areas of California.
    In response, USGS has begun to install rain and stream 
gauges in critical hazard areas. We are meeting with the 
National Weather Service and flood control agencies to plan 
expanded flood warning sites. To assess the hazard from debris 
flows, the USGS has begun the modeling necessary to produce 
debris flow hazard maps of some of the most dangerous burn 
areas. And we do have a handout that we can show you that 
pinpoints some of the high risk areas. We are also working on 
plans, with the support of FEMA, to complete hazard maps for 
all fire areas. If possible, we will work to develop early 
warning systems both for flash floods and debris flows.
    Water quality is also a concern. Fires in southern 
California have produced ash and a variety of chemicals that 
enter air, soil and ground and surface waters. Tracking these 
chemicals is critical for maintaining a healthy water supply 
and will also provide an understanding for the larger picture 
of water quality in southern California. If possible, the USGS 
will continue monitoring to determine the effects of winter 
floods on sediment and contaminant transport in the Santa Ana 
River Basin. We can also document and study the effects of 
atmospheric fallout and runoff from the fires in the San Diego 
Basin. Both of these basins, as you know, are important water 
supplies.
    Since the mid-1990s, USGS has been conducting wildlife 
research in many of the areas impacted by these recent fires, 
including reptile and amphibian surveys at monitoring stations 
throughout southern California. We are studying the impact of 
fire on endangered species and on biodiversity in general and 
on the recovery of vegetation in these ecosystems. Our research 
has included the effectiveness of post-fire treatments, species 
diversity and abundance, as well as habitat quality assessments 
and vegetation characteristics.
    The interaction of invasive plants and fire is creating 
substantial challenges also for land managers. Invasive plants 
can compete with native plants, alter wildlife habitat and 
promote the spread of fire. Invasive alien grasses especially 
benefit from fire. They promote recurrent fire in many cases to 
the point where native species cannot persist and native plant 
assemblages are converted to annual grasslands. This vegetation 
type conversion can reduce overall biodiversity and increase 
fire risk. We are continuing our research on fire and invasives 
and the relationship between the two.
    Finally, the USGS is employing this remote sensing 
expertise to the fire aftermath. Fire response requires 
detailed imagery of the burn areas, both for additional 
research and for on-the-ground response activities. To meet 
common geographic data needs, the USGS is assessing the 
availability of remotely sensed imagery and data from all 
agency sources. And I would like to take a moment to thank the 
Forest Service in particular for purchasing some of this 
imagery and sharing it among all of the fire response partners.
    In summary, USGS scientists have been studying the natural 
processes in southern California for decades and thus, we have 
some baseline data from which we can understand the long-term 
impacts of these burns. We are moving quickly to provide 
decisionmakers with the information and tools they need in the 
aftermath of these devastating fires.
    Mr. Chairman, this concludes my remarks and I would be 
happy to answer any questions you might have.
    [The prepared statement of Ms. Kinsinger follows:]

      Statement of Anne E. Kinsinger, Western Regional Biologist, 
                         U.S. Geological Survey

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present this testimony regarding ``Recovering from the 
Fires: Restoring and Protecting Communities, Water, Wildlife and 
Forests in Southern California.'' The USGS conducts fire-related 
research to meet the varied needs of the land management community and 
to understand the role of fire on the landscape; this research includes 
fire management support, studies of post-fire effects, and a wide range 
of studies on fire history and ecology. USGS is an active participant 
in the U.S. Department of Agriculture (USDA)/Department of the Interior 
(DOI) National Fire Plan, which is a long-term effort focused on 
helping to protect communities and natural resources. The USGS is also 
an active participant in the DOI and USDA Joint Fire Science Program; a 
partnership that develops information and tools for managers and 
specialists who deal with wildland fuels management issues. The Program 
was authorized and funded by Congress in October 1997. The USGS is 
using its unique capabilities to investigate the complex interactions 
of Earth processes with the urban environment in Southern California.
    My statement will describe the role of USGS in post-fire recovery 
and rehabilitation in Southern California. Before I begin, however, I 
have been asked to convey the gratitude of the Department of the 
Interior to Chairman Pombo and the other members of this Committee for 
their hard work in achieving the passage of H.R. 1904, the Healthy 
Forests Restoration Act of 2003. As you know, the President signed that 
bill on Wednesday. The Department is grateful to you for your efforts 
in providing, through this legislation, the additional tools needed to 
carry out the President's Healthy Forests Initiative, and the 
Department looks forward to making progress in ongoing efforts to 
address the problems of wildland fires here in California and elsewhere 
throughout the Country.
    The recent fires in Ventura, San Bernardino and San Diego counties 
were devastating in their reach. However, the damage from this year's 
wildfires in Southern California is likely not complete. Just as the 
fires were the largest in Southern California's recorded history, the 
potential for floods and debris flows from the ravaged mountains is 
great. Storm water run-off in hundreds of drainages in extremely steep 
terrain with histories of large floods and debris flows will flow into 
some of the most rapidly growing urban areas of California. Thousands 
more homes could potentially be destroyed this winter as an indirect 
impact of the wildfires. Understanding the factors controlling the 
behavior of wildfires and the potential debris flows that are the 
indirect consequence of these fires will lead to improved predictive 
capabilities, helping to plan accurately for and mitigate fire and 
related hazards in future years and for future generations.
Employing existing data
    We have been studying the natural processes of Southern California, 
in many cases for decades, and thus have baseline data from which we 
can understand the changes brought about by the fires.
    Currently, extensive baseline data exists for two of the focal fire 
areas.
    <bullet>  San Diego Basin. The Sweetwater River System in the San 
Diego Basin consists of the Sweetwater River itself, and two receiving 
reservoirs that are used for drinking water supply (Loveland and 
Sweetwater Reservoirs). This system is the primary water supply for one 
million people, and has been heavily impacted by the Cedar fire. The 
USGS has been conducting atmospheric deposition and dissolved organic 
carbon studies on Sweetwater and Loveland Reservoirs for the past five 
years, and has also been conducting surface-water/ground-water 
interaction studies focused on the impact of pumping on riparian zones 
that support endangered species. These studies provide excellent data 
on pre-fire baseline conditions. This work will continue to document 
and study the effects of atmospheric fallout and runoff from fires on a 
water body used for drinking water. It is expected that the fire will 
increase levels of dissolved organic carbon, which will, in turn, 
increase concentrations of THMs (tri-halomethanes) when that water is 
chlorinated for public supply. If chemical indicators of the fire can 
be found, they will enable tracking of groundwater recharge from the 
fire areas through the alluvial/riparian system, providing accurate 
estimates of travel time. This will assist in providing the data 
necessary to help insure human health while protecting endangered 
species in the watershed.
    <bullet>  Santa Ana River Basin. Large parts of the Santa Ana River 
Basin were burned by the Old Fire and the Grand Prix Fire. The USGS has 
been conducting water-quality studies in the Santa Ana River Basin as 
part of the National Water Quality Assessment (NAWQA) program and 
several cooperative studies. These data can be used to assess the 
impact of the fires on water quality. Water-quality data are available 
from 7 mountain drainages, six of which were extensively burned. The 
seventh, the South Fork of the Santa Ana River was not burned and will 
serve as a control--although it received large amounts of atmospheric 
fallout. Existing data at these sites include general minerals, 
nutrients, dissolved organic carbon (DOC), and at selected sites, trace 
metals, pesticides, and semi-volatile organic carbon compounds. The 
NAWQA sites are strategically located to study the effects of the fire. 
The data will be collected bimonthly at three of the sites for a 
limited suite of constituents. Ten years of water-quality data also are 
available for downstream sites along the Santa Ana River where water is 
diverted to ponds that recharge aquifers pumped for water supply for 
more than 2 million people. Existing data include nutrients, trace 
elements, pesticides, and selected volatile organic carbon compounds. 
The study is ongoing and three storm flows will be sampled this year 
for nutrients, DOC concentrations and extensive characterization of the 
DOC using optical properties. Additional analyses are needed to 
characterize the effect of the fires. Ash and other material washed 
from the basin during storm flow will accumulate in ponds used to 
recharge aquifers underlying Orange County.
    In addition, since 1995, the USGS has been conducting wildlife 
research in many of the areas impacted by the recent fires, including 
reptile and amphibian surveys at fixed monitoring stations throughout 
Southern California. We knew that it was important to understand the 
response of the natural systems in Southern California to urbanization, 
and we have learned that Southern California is an ecosystem at great 
risk of biodiversity loss. The USGS is studying the impact of fire on 
endangered species and biodiversity in general and the recovery of 
vegetation in these ecosystems. The USGS research at the various sites 
has included species diversity and abundance, as well as habitat 
quality assessments and vegetation characteristics. Invasive plants and 
fire create substantial challenges for land managers. Invasive plants 
can compete with native plants, alter wildlife habitat, and promote the 
spread of fire. Invasive alien grasses especially benefit from fire, 
promote recurrent fire, in many cases to the point where native species 
cannot persist and native plant assemblages are converted to annual 
grasslands. This vegetation type-conversion can affect wildlife and 
reduce overall biodiversity. The effective management of many wildlife 
species depends on the control of invasive plants and the maintenance 
of appropriate fire regimes.

Collecting data for future management decisions
    In spite of the tragedy of the recent Southern California fires, we 
have an unprecedented opportunity to collect data necessary for the 
effective mitigation of future events. The information collected in the 
burned areas can be transferable to most of the susceptible fire areas 
of Southern California. The USGS currently is working with land 
management and emergency response agencies to develop plans for 
assessment of hazards from floods and debris flows and for monitoring 
environmental recovery. This is in addition to mapping the area using 
remote sensing data as discussed more fully below.
    The USGS is currently moving quickly to collect transitory data 
that will be destroyed over the next few weeks and months, including 
the effect of the fires on endangered species, the ecosystem causes and 
consequences of the fires (effect of fire suppression policies, re-
growth, burn intensity, etc.), ground water and sediment pollution 
caused by the fire, the impact of the fires of the adjacent ocean, and 
``opportunistic'' data (unique data acquisition opportunities created 
by the removal of vegetation, such as unique ``bare earth'' images 
along especially hazardous sections of the San Andreas fault). Analysis 
of these data will support restoration and mitigation plans of the 
burned lands, many of which are Federal lands managed by the Department 
of Interior.
    This collection of transitory data is accompanied by activities to 
address immediate information needs for flood warning. The USGS is 
conducting reconnaissance field inspections of burned watersheds and 
has begun installation of a limited number of rain and stream gages in 
critical hazard areas. The USGS is meeting with the National Weather 
Service and Flood Control agencies to plan expanded ALERT flood warning 
sites. To assess the hazard from debris flows, the USGS has begun 
modeling necessary to produce Debris Flow Hazard maps of the most 
dangerous burn areas and is working on plans, with the support of FEMA, 
to complete hazard maps for all fire areas. Assessments of debris flow 
hazards will be shared with landowners and relevant agencies, including 
Bureau of Land Management, Bureau of Reclamation and the U.S. Forest 
Service. The USGS is already working with the U.S. Forest Service and 
others in advising Burned Area Emergency Response (BAER) teams in the 
affected area.
    As water quality can be diminished by sediment transported from the 
burned watersheds, the USGS is working with baseline from past studies 
and collecting more data. Recent wildland fires in Southern California 
have produced ash and a variety of chemicals that enter the air, soil, 
ground-water and surface-water systems. The tracking of these chemicals 
through the water system is critical for maintaining a healthy water 
system, but it will also provide for understanding the larger picture 
of ground-water pollution in Southern California. Specifically, the 
USGS will continue with a previously planned monitoring experiment to 
determine the effects of winter floods on sediment and contaminant 
transport offshore of the mouth of the Santa Ana River.
    As noted above, in order to assess the environmental response to 
the fires, the USGS is evaluating data from previous studies to 
identify useful pre-fire information that will serve as a baseline to 
assess fire impacts and monitor post- fire recovery, including species 
inventories and habitat quality assessment, water quality assessments, 
and vegetation characterization. The USGS has begun field surveys to 
assess impacts on endangered species that it already was monitoring.
    The USGS is also employing its remote sensing expertise to the fire 
aftermath. Fire response has a need for detailed imagery of the burn 
areas, both for research and on-the-ground response activities. The 
USGS is working with other agencies on the post fire response, and 
examples of imagery that would be used include: a) High-resolution 
digital topographic mapping; b) Aerial photography; c) Satellite 
Synthetic Aperture Radar; and d) Multi- and Hyper-spectral imagery. To 
meet common geographic data needs, the USGS is assessing the 
availability of relevant remote sensed imagery and data from all agency 
sources.

Conclusion
    USGS scientists have been studying the natural processes discussed 
in my testimony in Southern California for decades, and thus have the 
baseline data from which we can understand the changes brought about by 
the fires. The USGS has the scientific expertise in wildland fire 
research to help in understanding the ecosystems affected by wildfire, 
and to assist land managers in post-fire recovery and rehabilitation in 
Southern California.
    Mr. Chairman, this concludes my remarks. I, and my colleague, Dr. 
Jon E. Keeley, USGS, Research Scientist, will be pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Pombo. Thank you very much. I would like to turn to the 
Committee for questions and remind the members of the Committee 
that we are under the five-minute rule and to limit your 
questions to five minutes. We have a number of panels and a 
long day ahead of us. So we will start with Mr. Calvert.
    Mr. Calvert Thank you, Mr. Chairman.
    In this region, the last time I think that we had the 
potential of as much flood problems as we may have this winter 
was back in the El Nino period when we were given reasonable 
warning that there may be a potential hazard on its way and as 
a matter of fact, the U.S. Geological Survey, along with 
others, made that prediction. And we were able to get emergency 
declarations in effect to clear out flood control channels, 
clean out debris basins. Maybe this is a question also for the 
Corps of Engineers and the Fish and Wildlife, but we were able 
to be proactive in anticipating a potential disaster. And a 
good thing we did. We remember back in those days we were able 
to do that, we were able to clean out the Los Angeles River 
when a lot of people were screaming and yelling if I remember 
in those days, a lot of the debris basins, but we did it. And 
when the water did come--and by golly, it sure did come, we 
were prepared for it. And the disaster that could have been was 
mitigated substantially by the proactive work that took place.
    Certainly in the Santa Ana region, Santa Ana River Basin 
region today, we are going to have a problem. I do not think it 
is if, it is just a matter of when, and when the water comes, 
and it will, then we are going to have to anticipate that.
    This is a question primarily for U.S. Geological Survey, 
but for the entire panel, certainly with our new gentleman from 
the California Resources Agency, is what are we doing right now 
to make sure that we clear out all the bureaucratic roadblocks 
to make sure that we prepare for the inevitable, that we clean 
out these flood control channels, that we clean out the debris 
basins, that we put the check dams in immediately, that we get 
all of the permissions that are necessary today, because this 
work should be taking place right now.
    So I think I will start with Ms. Kinsinger and then anyone 
else that would like to add in.
    Ms. Kinsinger. Well, as I noted, we have been working with 
this FEMA-led multi-agency group and that has been our primary 
vehicle, along with the BAER teams. We have also been working 
with a lot of local offices of the emergency services. As you 
know, we are providing the scientific information, the tools, 
and so we are not involved in the permitting processes per se. 
But we have been on the ground already with hydrologists, 
geologists and our biologists.
    Mr. Calvert You would agree though, for the record, that 
these flood control channels, debris basins and the rest should 
be cleaned out and be made ready for the coming winter rains.
    Ms. Kinsinger. Well, I agree that we need to prepare for 
the inevitable floods and debris flows. I might defer to my 
colleague Mike Choulters on that. Do you want to comment on 
that, Mike?
    Mike Choulters is the California Water Resources District 
Chief.
    Mr. Choulters. Thank you. I think just to add to what Anne 
said, the ability of the USGS to get out quickly, which we 
have, and add to the alert network both with rain gauges and 
with stream gauges--beginning to get stream gauges in, that 
takes longer--is the mechanism that we would add to the larger 
group in finding ways to know when those disasters are going to 
occur and be able to report that quickly.
    Mr. Calvert I will ask Mike to add into this too, also.
    Mr. Chrisman. Again, our efforts are joint efforts with our 
Federal counterparts, flood control agencies through the 
California Department of Water Resources. We do a 
prioritization on an annual basis of those streams and 
watersheds that need to be--where flood protection needs to be 
undertaken. Oftentimes we are behind the eight ball for 
budgetary problems, many times. But again, it is a very high 
priority as we watch weather patterns and try to measure the 
potential rainfall coming into California.
    Mr. Calvert I would say under budgetary reasons, obviously 
it will cost tremendous more dollars----
    Mr. Chrisman. I could not agree more.
    Mr. Calvert --after the fact than before the fact.
    Mr. Chrisman. Absolutely right.
    Mr. Calvert Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Baca.
    Mr. Baca. Thank you very much, Mr. Chairman.
    This question I guess either Jack or Dale can attempt to 
answer. The fire not only destroyed structures but burned soil 
and created high risk of floods, especially in the foothills. 
Weather forecasts to expect drier and warmer weather this year. 
How long should we expect the threat of floods?
    Mr. Bosworth. You know, that is going to depend a lot on 
the kind of weather that we have in the next few years. What we 
worry about most, at least in terms of the emergency 
rehabilitation work that we do is the first season, the first 
rain. And we want to be prepared for that, that is why we want 
to have work done by the middle of December.
    Then our next step is to make sure at least for the first 
couple of years we can make it through those years.
    But then there is the longer term kind of rehabilitation 
needs that we will have over the next several years. But I do 
not think I can give you--maybe Jack or Gene can be more 
specific in terms of exact number of years you might have to 
worry about flooding, but it is not over after the first year 
and it will be a number of years before we really feel like you 
are out of the woods. And it depends on how intensive the fires 
burn as well. But Gene has a little more experience in this 
part of the country than I do, so Gene, do you have anything to 
add to that?
    Mr. Baca. And can you elaborate in terms of what impact, if 
we are not totally prepared for these kinds of floods to this 
area?
    Mr. Bosworth. Well, when you start getting a lot of water 
on these kind of steep slopes under these kind of conditions, 
you can have mass soil movement. Of course, you have erosion, 
but then you have mass debris movement into the channels. It 
can back up when it becomes plugged, culverts can become 
plugged with debris, then the road washes out, that pushes more 
debris down, you can have mudslides into homes if they are 
located in harm's way. There are a number of those kinds of 
things that can happen if you have the wrong kinds of events 
following these kinds of devastating fires.
    Mr. Baca. The next question. I know that workers in San 
Bernardino are using bales of hay, sandbags and traffic 
dividers to help ward off floods. Will this be sufficient in 
high risk areas, is question number one. What else can be done 
to minimize the amount of flood damage in these cities?
    Mr. Bosworth. Well, again, depending upon what kind of 
weather conditions come about here in the future, you can have 
situations where nothing that we will do will solve the 
problem. So I would not want to make a false promise that 
everything that we are doing, at least on the national forest 
lands are going to solve the problem under any kind of weather 
event. But, for example, the amount of straw, the straw that we 
are putting on the ground, the thousands of tons of straw, our 
research has shown that that reduces the erosion in some cases 
50 to 80, 90 percent. That will make a big difference under 
normal kinds of weather conditions.
    Mr. Baca. And what is the length of time before it grows 
though, the effect if we do not have----
    Mr. Zimmerman. The straw that we are putting out does not 
have any seed in it. The estimated period for vegetative 
recovery, at least for a reasonably good start so the hillsides 
have a good semblance of green again, is three to five years.
    Mr. Baca. Mr. Chrisman, in your testimony, you stress the 
importance of Federal-state partnerships dealing with various 
aspects of the forests and fire management. Overall, how would 
you rate the partnership in California and in what ways can it 
be improved?
    Mr. Chrisman. My comments said the partnership is superb, I 
mean the planning, the inter-agency planning that goes on on a 
regular basis, the mock planning exercises that we go through 
on a regular basis across our agencies is superb. As I 
indicated in my testimony, I think proof of that was seen in 
the early successes in this catastrophic activity here when we 
were able to get the residents moved out and all of that. So 
again, it is working pretty well here in California.
    You know, how can we improve it? I guess my response to 
that would be you can always improve upon the response to a 
catastrophic event like this. And the post-planning that goes 
into this activity, I think hopefully will yield those kinds of 
things that we can do better as the inevitable natural event 
will occur later.
    Mr. Baca. And one final question, and I know my time has 
run out, but from what you have seen so far, what threatened or 
endangered species were maybe most impacted by the fire?
    Ms. Kinsinger. I would like to ask Dr. Robert Fisher to 
address that, if he could come up.
    While he is coming up, I just wanted to say one thing about 
protecting lives in the case of flood and debris flows. And 
that is we do have the technology available to deploy early 
warning sensors in some of these very high risk areas such as 
the ones you are seeing on your map. Now those will not 
necessarily reduce property loss, but they can save lives.
    Mr. Baca. Hello, and welcome.
    Dr. Fisher. On the question of threatened and endangered 
species, I want to just add that the Resources Agency through 
the Legacy program has recently produced a series of maps that 
show which species occur only within the fire zones, being that 
the entire distribution of that species globally may have been 
affected by the fire. So there is a subset of plants and some 
animals that fall into that category. That does not mean that 
they are extinct, but it means that their habitat and their 
sensitivity might have changed.
    For the most part, many endangered species were not greatly 
impacted by the fire, but what happens post-fire is what is 
really going to be important. And obviously the habitat has 
changed and we are right now focusing on trying to understand 
post-fire recovery in these species.
    And I cannot really name--I would not want to name a couple 
of specific species, but we are less concerned about the direct 
impact on endangered species from the fire than we are what is 
going to happen post-burn in the recovery process.
    Mr. Baca. Thank you.
    Mr. Pombo. Mr. Radanovich.
    Mr. Radanovich. Mr. Bosworth, in my opening statement, I 
had commented about lawsuits and the ability for the Forest 
Service to allow timber cutting both the fire damaged areas but 
also in the non-fire damaged areas that were susceptible--or 
had problems with bark beetle dead trees. With the advent of 
Healthy Forests, can you further elaborate on what you might 
see down the line? I know that the legislation has made it a 
little easier I think for forest plans to actually be 
implemented and eases the burden I think on the NEPA processes 
and things like that. Can you give me an oversight as to how 
you see it down the line once we try to get these forests into 
proper balance, what you might run into as a result of the law?
    Mr. Bosworth. Well, I think the law is going to help us. 
Like I said earlier, I think it will give us some time to be 
more effective in terms of our public participation with 
communities. I think it will help us engage communities more 
effectively. There are some changes in terms of how you go 
about appealing. There is what we call a predecisional protest 
approach that we are going to develop as part of the 
legislation, that we think will give people a good opportunity 
to question our decisions, but will not take up as much time to 
do it.
    So the whole focus is on being able to get decisions made 
quicker with better public participation and get the money and 
the work on the ground done quicker, more effectively. So that 
is what we will be working toward in the implementation of 
this. In the end, what I am hoping it will come to 10 years 
from now, 15 years from now, is we will have treated these 
forests in a way that will allow fire to still play a role in 
the environment. These are fire-adapted ecosystems that we are 
dealing with, they evolved with fire and we have to get fire 
back into them but it has to be in a way that is not going to 
be devastating.
    So when you have a situation where there is way too many 
trees because we have been suppressing fires over the years, 
way too many trees, and then you have a drought situation, you 
end up with dead trees and with insect problems and then, of 
course, you end up with fire problems. We need to have fewer 
trees. We will be leaving the large, big trees, the right 
numbers of them, the right species and then getting fire back 
into those fire-adapted ecosystems.
    Mr. Radanovich. Thank you very much. Mr. Chrisman, I have 
got a question for you and I do want to congratulate you on 
your recent appointment as Resources Secretary for California.
    Mr. Chrisman. Thank you, Congressman.
    Mr. Radanovich. I noticed on the ride here from the 
hospital where the helicopter pad was to the hotel that there 
is--and I believe it is being administered by CDF, a program to 
go in and pull out a lot of these dead trees due to the bark 
beetle.
    Mr. Chrisman. Yes.
    Mr. Radanovich. In an urban interface area, a place that 
may not be national forest, I think it is on private land, but 
nevertheless a fire danger. Is the funding--those are expensive 
jobs, I mean those trees are hanging over power lines and homes 
and everything else. That is no small task and I know that that 
kind of stuff is necessary probably all over the state in some 
ways.
    Mr. Chrisman. It is, and you are right. As I indicated in 
my comments, you know, we are in the process of working with 
the utilities here in California, the Public Utilities 
Commission to get a lot of those trees moved away from the 
transmission and distribution lines.
    One of the programs that CDF administers here in California 
is called the Fire Safe Program, a very effective program, 
again in the context, involving stakeholders and individuals 
who live in the rural/urban interfaces, which is more and more 
the case here in California, all up and down the State of 
California where we go in and help--CDF goes in and helps 
organize local communities to push vegetation back from their 
homes, vegetation back from structures, to recognize that we 
have got to manage these forest ecosystems in a way that 
prevents these kinds of catastrophic wildfires. We are doing a 
lot of that across California and of course, we are going to be 
working with our Federal and local counterparts to try to 
increase those activities over time.
    Mr. Radanovich. So you actually have an operating budget, 
you are going to make sure that there are enough funds there to 
do all that interface.
    Mr. Chrisman. That is exactly right.
    Mr. Radanovich. All right, thank you very much.
    Mr. Pombo. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman.
    Chief or Gene perhaps, talk to me about the densities that 
are here today around Lake Arrowhead, both in the private and 
the public lands versus what historically they should be had 
fire operated naturally over the last century, or management 
had taken place. What do you see in terms of densities today 
and what should those densities be?
    Mr. Zimmerman. Obviously you realize that density is highly 
variable. Having said that, there are places here on the forest 
where there is 400 to 500 trees per acre. Typically we would 
expect as foresters in land like this in the neighborhood of 30 
to 40 to 50 trees per acre, depending upon the carrying 
capacity of any particular site.
    Mr. Walden. So you are saying it is 10 times?
    Mr. Zimmerman. Greatly over-populated with trees, yes.
    Mr. Walden. And when we look at a picture like the one over 
here to my left showing the dead trees, we flew over areas like 
that, if that is your Federal forest land, what kind of time 
line are you on to clear that out and is it just the dead trees 
that need to be thinned out to rebuild the ecosystem?
    Mr. Zimmerman. We have been focusing on the dead trees 
because we have been focusing on human life and property issues 
like evacuation routes and areas right up against the urban 
interface. We need to focus on overall stand density. We need 
to take that next step and that is starting to deal with the 
densification of the remaining green trees, where they do 
remain. We have been reluctant to do that on the national 
forests. Initially a year-and-a-half ago when we started fairly 
aggressively dealing with this, we took out some green trees 
trying to treat a given acre, if you will, with one entry and 
get it down to an acceptable stocking. What we found is because 
of the high populations of bark beetles, we lost some of the 
trees that we left and we ended up with not enough trees. So 
right now until the population of beetles drop off, it is our 
intent to just deal with the red trees, but be ready to move 
aggressively to thin the remaining stands of green trees as 
soon as the population of beetles drops off. And we hope that 
happens.
    Mr. Walden. In his testimony, Dr. Stephens I think it is, 
from Berkeley, talks about one of the things that is missing 
here is the infrastructure and that what is needed is a local 
mill. When was the last time you had a local mill and why do 
you not have one now?
    Mr. Zimmerman. Before my time. I have been here 11 years, 
there has not been a sawmill here in that time. I think 
Congressman Lewis probably--excuse me.
    Mr. Walden. Is the lack of a sawmill, in your opinion, a 
problem for getting these trees out of here?
    Mr. Zimmerman It is certainly a part of it. The economics 
is driven by a lot of costs, you know, there is the cost of 
cutting the trees down, moving them, power lines, houses and 
all of that stuff. This is very expensive work. It would be 
nice if we did not just have to burn this material up. That too 
is expensive.
    Mr. Walden. Or putting it in landfills?
    Mr. Zimmerman. Grinding it up and putting it in landfills 
is expensive. If there was some value, and the way to have 
value is to reduce the cost. Part of the cost of taking this 
stuff to a sawmill is the transportation cost. I understand it 
is about 7 hours one way, so only the very best of the logs are 
going to a sawmill, and thereby paying their own way through 
this.
    Mr. Walden. When was the last time you had a timber sale, 
not a hazardous fuels reduction effort, but a timber sale, and 
why?
    Mr. Zimmerman. About eight or nine years ago, we sold the 
last sale, prior to this last year-and-a-half. I essentially 
threw in the towel on the timber sale program on this forest, 
even though it was a very small program.
    Mr. Walden. Why?
    Mr. Zimmerman. Because our timber sales were being appealed 
and we had lawsuits, we had protests out in front of the ranger 
station here at Arrowhead, the district ranger was being hung 
in effigy and protesters on weekends protesting those small 
timber sales.
    Mr. Walden. Then what is it going to take to get this 
forest cleaned out and how long is it going to take? This is a 
powder keg, both the private lands and the public lands. I 
never thought after being here in September and then watching 
these fires go that we would ever come back and be in this 
building. Three percent burned, is that it, of the bug-infested 
timber lands?
    Mr. Zimmerman. Three to five percent, somewhere in there.
    Mr. Walden. Which means the bulk of them are left still in 
this volatile state.
    Mr. Zimmerman. Yes, and in fact the areas that burned where 
we had big infestations, there are now more dead trees there 
because of the fire.
    Mr. Walden. So the fire situation is worse for the future?
    Mr. Zimmerman. What it is going to take obviously is 
infrastructure. You have mentioned part of the infrastructure, 
the other part is human infrastructure, licensed contractors, 
folks working for the various agencies, staff, to put contracts 
together, and money. And Congress is well aware of that.
    Mr. Walden. Thank you, Mr. Chairman. Thank you.
    Mr. Pombo. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman. For the audience's 
edification, Mary Bono and I are not members of the Committee, 
so we have the privilege of being here by way of the courtesy 
of Chairman Richard Pombo.
    [Laughter.]
    Mr. Lewis. And I wanted for the record, for all of those 
who were curious to know, that both Richard Pombo and I do know 
the difference between us and Mary Bono.
    [Laughter.]
    Mr. Lewis. But she is sometimes difficult to ignore.
    I am very interested, Mr. Bosworth, in pursuing the 
question of remaining dead trees and fuel, much of which is on 
public lands, but a lot of which is on private land as well. 
And as part or a fire on somebody's five acres where that 
individual cannot afford--I am not even worried about 
responsibility here, but cannot afford to take down those 
trees, could be the source of devastation. I would like you to 
spend a moment addressing your sense of funding flows that are 
beginning to happen, whether there are adequate dollars 
beginning to fill in the pipeline and what role will any of 
those funds play in terms of dealing with this private land 
problem?
    Mr. Bosworth. There are two kinds of dollars that we get, 
the Forest Service, in terms of what we would be using to help 
this situation. There is the money that we get to manage the 
national forest system, to deal with the fuels there. And then 
through our state and private forestry program, we get dollars 
that through grants can go to the counties and those dollars 
then can go to help private landowners to do other things 
within the county that needs to be done in these areas.
    There is a big need out there. And in fact, I might have 
Jack Blackwell be specific about the kinds of dollars that he 
is getting at this point in terms of state and private dollars, 
but you know, I do not expect that we are going to be able to 
come up with enough money to take care of all the private land. 
What we can do though is we can come up with enough money to 
work together, and if we can get some of these other kinds of 
infrastructures in place--in other words, if we can find a way 
to utilize some of the material that is being removed, that 
would significantly or may significantly reduce the cost of 
doing some of the work that needs to be done. As long as we are 
going to haul it off and recover no value, it is going to be 
that much more expensive.
    But I am going to ask Jack to be specific about the kinds 
of dollars that this area is getting right now from a state/
private forestry standpoint.
    Mr. Blackwell. OK. Congress has been very generous this 
year and that is due in large part, Mr. Lewis, to some of your 
tremendous work. There is $47.7 million that has already 
passed, about 50 percent of that is available for state and 
private work off the national forests. In addition, as you well 
know, there is $50 million pending in a consolidated 
appropriations bill, which we are all told has a great chance 
of passage. Again, that is a 50/50 split.
    So southern California should see $97.7 million in fiscal 
2004, the one we are in, and 50 percent of that work will 
occur--those funds will go onto the national forests and 50 
percent on the state and private lands.
    Mr. Lewis. Thank you for that.
    Mr. Chrisman, I was especially interested in your comment 
about the prospect of biomass sorts of development for energy 
production. There are some very interesting things going on 
that I have been made aware of in Oregon currently where in the 
past they have had a bark beetle problem. They are looking at 
the development of methane and other kinds of alternative fuels 
from those resources as the trees come down, et cetera. And I 
would like to talk with you a lot more about that. I think 
there is some tremendous potential there and there could be a 
state and Federal partnership developed as well.
    Mr. Chrisman. I think the time is right for that, 
Congressman.
    Mr. Lewis. One more question of Mr. Bosworth, if I could. I 
know I am pushing my time here, but as we go forward and take 
down trees, saving our forest is much more than just taking 
down trees. We want to see those trees appropriately and well 
managed come back and have the forest be here for as long as 
man may be here. Are there aggressive efforts to not only 
collect seeds of indigenous trees to the region, begin nursery 
programs and the like to begin actually growing plants that 
might well be placed in the forest lands over time here?
    Mr. Bosworth. We do have large programs of reforestation, 
nurseries where we can grow seedlings and plant seedlings. We 
have gotten better and better and better at that over the years 
in terms of our ability to do that.
    The real question is to get the lands into condition where 
those trees can grow, to where we can then, as I said before, 
get fire back into these fire-dependent ecosystems in a more 
controlled way, and I believe we can have healthy forests in 
the future.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Pombo. Ms. Bono.
    Ms. Bono. Thank you, Mr. Chairman.
    I am going to ask my first question I believe to Chief 
Bosworth, and that is the general thinking I believe among 
people who are afraid of healthy forests is that we politicians 
have something called a slippery slope theory, that what we 
start has great intentions but it ends up being so much more 
than it is. And they believe even by thinning the forest here, 
that ultimately it is going to mean the entire commercial 
exploitation of logging of the forests here. I was wondering if 
you could take some time to--I do not believe in the slippery 
slope theory, I do believe there are reasonable people in 
government and in agencies who are there to prevent slippery 
slopes who are actually capable of stopping such things from 
happening. But I was wondering if you could take an opportunity 
to share your thoughts about this very thing.
    Mr. Bosworth. I would be happy to. You know, one time, the 
Forest Service, on the national forests, we sold somewhere in 
the vicinity of 12 billion board feed a year of timber back in 
the mid-1980s. For the past several years, it has been about 
1.8 to 2 billion board feet a year. We have not proposed big 
increases, we have not proposed any increases since I have been 
Chief of the Forest Service. What I am interested in is making 
sure that what we do, we do well.
    These are battles and fights and fears of the past, in my 
opinion. And the threats to our national forests and to our 
nation's forests in the future are things like a natural 
buildup of fuel and invasive weeds and insects and diseases and 
some of those kinds of things. They are not--over-cutting and 
timber harvesting is not a battle of today or in the future, in 
my opinion.
    Ms. Bono. Thank you. I think a prime example, and I will 
bring Mike into this debate, is when we talk about biomass or a 
local contractor mentioned cogeneration to me up here as well, 
which is another idea. But can you explain to me how much fuel 
currently exists and once we create biomass, are we then 
creating something that we are going to need to perpetuate so 
we are effectively continuing to look for further fuel to add 
to the biomass or is this something we can do and stop when the 
time is right?
    Mr. Chrisman. That is an excellent question. It has created 
problems in the past as we have tried to encourage, through tax 
incentives and other types of programs, these types of biomass 
activities. I mean you have got to create enough of an economic 
incentive for these kinds of opportunities to be made real and 
then to ultimately function in a way that they are continuing. 
Here in California, I cannot answer your question about the 
total amount of biomass. Clearly the biomass available off a 
forest is significant. There are biomass generation plants in 
the San Joaquin Valley that are taking biomass from 
agricultural products. That industry is on the growth in 
California because of the air pollution, air quality issues 
that are keeping the burning from happening with a lot of these 
facilities.
    So again, it seems to me that what we need in this area is 
effective public/private partnerships where we have state and 
Federal tax structures maybe creating incentives where you can 
get capital investment in these kind of activities. What we do 
not want to get ourselves into is where we are--as in the 
1980s, where we created a situation where we actually went in 
and subsidized the price of the output of some of these biomass 
plants. Ultimately economically they fail because market forces 
are at play and they just do not work. So we have got to create 
opportunities where these things do work. I think we are on the 
road to doing that.
    Ms. Bono. Thank you. I realize my time has just about 
expired, so I will yield back, Mr. Chairman. Thank you very 
much.
    Mr. Pombo. Thank you.
    I have a number of questions but I think in the interest of 
time, Chief, I will just kind of boil it down to this--we have 
had complaints or concerns that have arisen by area residents 
about their ability to do things, to get in and clear areas out 
and delays because of Forest Service policy. What does Congress 
need to do to speed up the process in terms of doing this 
recovery? The healthy forest bill is one thing, and that is 
something that we need to do proactively to try to lessen the 
chance of this happening again, but it happened here. What do 
we need to do now? What suggestions can you have for this 
Committee and for Congress as to what our next step should be?
    Mr. Bosworth. Well, I assume you are talking about the 
recovery aspects after the burn.
    Mr. Pombo. Yeah.
    Mr. Bosworth. And the things that we need to get done now. 
What the Forest Service is doing here in California is we are 
going to be issuing grants to these counties very quickly. On 
occasion we will hear some concerns about our grant process and 
whether it is too complicated and whether it is clear enough to 
be able to apply for a grant. We believe that we have got it 
down to a situation where people can apply for those grants 
fairly quickly and fairly easily. And our folks are ready to 
help any of them that need help in terms of how to apply for 
those grants. I believe a call letter went out around the first 
of December to all the counties in the area so that they can 
get those grant applications in.
    In fact, I think what I will do is let Regional Forester 
John Blackwell talk a little more specifically about that 
because they have been working real hard at it.
    Mr. Blackwell. Well, the Fire Safe Councils, the community 
groups that this new legislation promotes, working with them 
and through them, I believe are the way we need to go. And that 
is the way that we are delivering the funding and trying to put 
together these action plans in response to the Healthy Forest 
Act.
    And so it is as simple as that, I believe.
    Mr. Pombo. Let me ask you specifically on one issue that 
was brought up to the Committee. And that is that local 
citizens have been kept from clearing out dead trees, brush and 
dirt piles along recently bulldozed fire breaks because Forest 
Service archaeologists and anthropologists must first inventory 
arrowheads and pottery shards and botanists must first 
inventory all disturbed flora before they can do anything. You 
know, it is real easy for us to blame the Forest Service or to 
blame you guys, but a lot of this is Federal law. And what I am 
looking for is what do we have to do, what can we do to make 
the recovery happen faster, to move through the bureaucratic 
process faster? Is it a matter, do you need more people or do 
you need some kind of a streamline in the law? Is there some 
kind of a bureaucratic reduction that we could do that can move 
this along faster?
    Mr. Blackwell. Well, of course, people and funding always 
help. We have got the Antiquities Act, we cannot destroy 
priceless antiquities and so we have to survey for them. That 
takes time. We have got the Endangered Species Act. We cannot 
drive a plant or an animal to extinction through our 
activities. And so we have to survey and plan and that takes 
coordination.
    The people that you are hearing from expressing frustration 
is some of the same frustration that we have over the length of 
time some of these things take. And they are very frustrating, 
but the goals are good. It is next to impossible to shortcut 
and not make terrible mistakes. And so we have to jump through 
those hoops.
    You put your finger on a very tough problem that we wrestle 
with. Certainly more people allows us to get the work done 
quicker, but we have got to find ways to do it more 
efficiently, and we wrestle with that. The streamlined NEPA 
that we are working on now should help.
    That is I guess about as far as I would go right now.
    Mr. Bosworth. I would just like to add one thing. When I 
came into my job a couple of years ago, we put together a team 
to work on what we call the process predicament, and developed 
a document to try to identify all the areas where process is a 
problem for us. And we have had people working all across the 
country in trying to deal with--it is amazing the number of 
places where we have brought ourselves to a screeching halt 
because of our processes. And so we are trying to pick them up 
one at a time. We are working our way through these and my 
objective is in the end that we still have good processes, we 
still take care of the land the way we need to take care of it, 
but that we are effective and efficient and quick and we do it. 
And we have not been that way. So that is why we are trying to 
fix those processes. And you helped us with the Healthy Forests 
legislation.
    Mr. Pombo. Well, I will just tell you on behalf of myself 
and the other members of the Committee, if you guys come up 
with suggestions, things that you need, do not hesitate to let 
us know. You know, the Healthy Forests initiative I think was a 
good thing and we were able to get that through, but now we are 
dealing with the aftermath, and if there is something that we 
need to do in order to make that happen, you need to sit down 
and tell us what that is.
    Mr. Bosworth. We will do that. I appreciate that.
    Mr. Pombo. I want to thank this panel for their testimony. 
I am going to excuse this panel and call up our second panel. 
Mr. Chips Barry, Director, Denver Water Department and Mr. 
Peter Brierty, Fire Marshal, County of San Bernardino.
    Before you sit down, if you would just raise your right 
hand.
    [Witnesses sworn.]
    Mr. Pombo. Let the record show they both answered in the 
affirmative.
    We welcome you here today. As with the previous panel, I 
would ask you to limit your oral testimony to five minutes. 
Your entire written testimony will be included in the record. 
Mr. Barry, we are going to begin with you.

          STATEMENT OF HAMLET J. BARRY, III, MANAGER, 
                 DENVER WATER, DENVER, COLORADO

    Mr. Barry. Thank you, Mr. Pombo. I am pleased to accept 
this invitation to be here today. My name is Chips Barry, I am 
the Manager of the Denver Water Department.
    I think I am here because Denver Water has had some 
experiences in the last three or four years that might prove 
instructive to people in California. We have had fires and 
floods. Presumably we have learned something from that and 
maybe it is relevant to California. Although I will say that 
the soil conditions, vegetation types, et cetera, are different 
and I do not know for sure that everything we did is relevant 
here. That decision will need to be made by people as they go 
through the experience, but maybe we have learned something and 
it is helpful.
    Teresa has agreed to show some slides for me. I want to 
point out this is my only opportunity to command the Federal 
government by asking her to put the slides up and down, so this 
is my one opportunity to do that.
    [Laughter.]
    Mr. Barry. Teresa, you can go to the next one. Just to put 
things in context, this tells you what the Denver Water System 
looks like. Right there is the city of Denver, the continental 
divide runs through here like this, the different colors 
represent the different watersheds. The biggest watershed is 
the South Platte River Watershed. More than 80 percent of our 
water comes from that watershed, either because it comes 
through a tunnel from the west slope, Lake Dillon, to that 
watershed, or it originates in that watershed itself. So that 
gives you that idea.
    Let me talk a little bit about the fires we have had in our 
system. This is the South Platte Watershed. We had a major fire 
called the Buffalo Creek fire in 1996. We had the Hayman fire 
in 1992. And from that, we have learned something, and let us 
talk a little bit about what we learned. And I will say that 
the Buffalo Creek fire is where we first learned our lesson. We 
did not anticipate what would happen after we had a 12,000 acre 
fire, which is relatively small, even by our standards and 
certainly by California standards, if that fire was followed by 
a two-inch rain.
    Teresa, you can put the next one up, let us see what we 
have got here. Well, this shows that we have had seven fires in 
this watershed over the last seven years. We can skip right on 
to the next one, Teresa, please.
    This is the shape of the Buffalo Creek fire, 12,000 acres. 
Sixty days after that fire, we got two inches of rain in this 
area and we are talking about rain on top of decomposed granite 
soil. It is not really soil, it is decomposed granite. I do not 
know how it compares to the situation here. But we had in about 
four or five hours two inches of rain in this area. That 
produced a wall of sediment that came roaring down this creek 
and dammed--this is the South Platte River right here. It 
dammed the South Platte River for a period of five or six hours 
until the river broke through and sent a sea of trash and 
sediment down the river into our major reservoir, which is 
right down here.
    You can show the next picture, which I think will show--
this is an example of 5,000 tons of driftwood sediment, porta 
potties, tires, propane tanks and other crap that we got 
overnight in this reservoir. This was a significant problem for 
us.
    Let us look at the next one. This shows what happened to 
the water quality overnight. That is ash and sediment. Those 
are our intake towers right there.
    Go ahead to the next one, Teresa. I will get to this in a 
minute. The Buffalo Creek brought us 400,000 cubic yards of 
sediment into a reservoir that had received 110,000 yards in 
the prior 11 years. We got 400,000 cubic yards in a space of 
about 2 days and that equaled what we had seen in prior 12 
years. This was a surprise to us and this is the lesson that we 
were taught that helped us perhaps a little bit getting ready 
for the next fire.
    Now this shows you something that is quite relevant to what 
the prior panel was talking about. This is the forest in 1900. 
This is the way the same ground looks today. It is overgrown, 
it is under-managed, it needs to be thinned. It is top heavy 
with fuel and it is like it is in California, this is a 
disaster waiting to happen. Actually, we have already had this 
disaster, we burned this area in the Hayman fire in 1992.
    We can go to that next slide. This is the whole Hayman fire 
burn area, this is a major reservoir of ours and this is 
property that we own. That is 8,000 acres right there, the 
total area is 137,000 acres. You can see the severity of the 
burn area around our watershed.
    Now I will say that based on what we learned at Buffalo 
Creek, we began a program of forest treatment and thinning, 
much the way that the Chief was talking about. In the areas 
that we succeeded in thinning in advance of this fire, not 
because we knew the fire was coming but because it was time to 
do it. In those areas it either did not burn or it did not burn 
severely. And I will say that our facilities--we have a series 
of houses and shops and stuff right here. We had done all of 
that treatment around that area and it did not burn. We have 
become the poster child for forest thinning and forest 
treatment to show what happens if you do it and the area then 
burns, because where we had done the treatment it did not burn 
or it did not burn severely.
    We did have opposition when we began that. We had 
cooperation from the Forest Service. We had citizens and others 
who did not want us to thin and treat the forest the way we 
thought was necessary. We did it and we are happy we did it. 
But we did not get our 8,000 acres done. You can see, this 
8,000 acres, a lot of it burned severely.
    Teresa, you can go to the next slide. I think I am going to 
begin to show what happened as a result of the fire. Goose 
Creek is one of the tributaries that drains into Cheesman 
Reservoir. This is what it looks like now, a year after the 
fire. You can just go ahead and whip through those and we can 
begin to see the stuff that we have done. Goose Creek used to 
be about 20 feet wide. It is now 150 feet wide and it has got 
three feet of sediment and ash deposited in the bottom of that 
drainage.
    This is some of the treatment we did in the area that was 
burned. We put in straw bales and log sediment dams. We 
contoured and did directional felling. We hydro-seeded and 
hydro-mulched. We put down polyacrylomides which tend to hold 
the soil. We did hydro-axing. I will have to describe for you 
what a hydro-ax machine is. It is an amazing item. It is 
basically a deck mower--a huge deck mower on the end of a 
cherry picker. You put it at the top of a burned dead tree and 
it grinds the tree to mulch in about 30 seconds. It is like 
putting a tree in a pencil sharpener. And I am sure when you 
come up against your next primary opponent or his campaign 
manager, you will imagine use of this hydro-ax machine.
    [Laughter.]
    Mr. Barry. This thing is remarkable. It is like putting a 
tree in a pencil sharpener. The last time I checked, we had 
hydo-axed 425,000 trees on our 8,000 acres, and that is only 
about a quarter of what needs to be done.
    So we did timber sale in the salvage area. We have--in 
fact, I have this figure somewhere. Ten million board feet of 
lumber was salvaged from the area burned in this fire. We had 
to pay to have that done, I would say, but we reduced the 
amount we had to pay by the salvage value of 10 million board 
feet. They did not pay us to get it, but we had to pay less to 
have them do it.
    Teresa, next slide. This begins to show some of the 
technique. We put in--oh, I have a figure here, well, 2,000 
sediment dams in gullies like this of straw bales, at least 
2,000. I have had a crew of 50 men working on our 8,000 acres 
in the Hayman forest every day since the fire 18 months ago. 
Forty men every day doing stuff like this. You can just go 
through the slides. They will show you the kind of things we 
are doing.
    I always put this in here to amuse the Chief. Our land 
begins here. This is Forest Service land. We have put straw 
bale dams all the way down the drainage, all the way down to 
the reservoir. I will tell you that we think this helps but we 
have not yet seen a two-inch rain on top of this burn area. We 
have seen as much--we have seen only about a quarter-of-an-inch 
of rain so far. So I can tell you that we need to do everything 
we are doing, but I cannot tell you for sure that it will work 
absolutely. Mother Nature may win.
    Teresa. We have done contour felling. You can see this. 
This is standing dead timber, where instead of salvaging the 
lumber we put it across the hill as a sediment dam.
    Go ahead. Directional felling in drainage bottoms because 
you leave it. You do not cut the limbs off and you collect the 
sediment. You slow it down that way.
    This is part of what this crew of men has been doing. We 
have built these little--these trash racks. You can see that 
there is sediment collected here. This is the result of a 1/4-
inch rain or less. I was up there 2 weeks ago and many of these 
things are now full and they have to be emptied. If you can 
empty them. Sometimes you cannot get equipment in, the hill is 
too steep, et cetera.
    This is an area showing what we would call completed 
treatment. Where we have seeded, we have hydro-axed, leaving 
the material that the hydro-ax produces from a dead standing 
tree, which is mulch. Leaving it on the ground and contour 
felling a tree. So that is what a good portion of our burned 
area looks like right now, our 8,000 acres.
    I will say that--oh, no, one more thing here. My engineers 
had a bit of a gulp when I told them we needed to design a 
leaky dam, otherwise known as a sediment trap. That is what 
this is. The Goose Creek area was heavily burned. You can put 
up the next one, too. We built a 40-foot high dam that was 
designed to leak. It is supposed to let water through and hold 
sediment back. The dam face is down there. We are on the up-
stream side. We know that is working. We are going to have to 
go in and clean it out. I suspect it is the Colorado equivalent 
of the sediment basins that you have here in the San Gabriel 
Mountains. It is smaller, smaller scale, same idea. Trap the 
sediment before it can go downhill and do too much damage.
    Let me wrap up with just a few conclusions and observations 
about what Denver has learned. A great deal of the potential 
damage from the forest fir can be eliminated or reduced by 
careful deliberate forest management in the years and decades 
before. This is what the Chief and others were talking about. I 
have seen this firsthand. We have forests that have too much 
fuel, too many trees, too much disease and our fire suppression 
policy has exacerbated the problem. We have fuel loads that are 
indescribably large and they lead to the kind of problems that 
we have seen in our watershed.
    Our preliminary conclusion is that our sediment control 
measures, most of them on a pretty small scale, are going to 
help, but I cannot guarantee that they are absolutely going to 
work. I am hopeful but not particularly optimistic that we will 
succeed in keeping 2 million cubic yards of decomposed granite 
sediment from washing downhill into the South Platte River and 
into Cheesman Reservoir. I am hopeful but I am not optimistic.
    The Federal government agencies, NRCS, Forest Service, BLM 
are occasionally helpful and they are always sympathetic; 
however, their budgets are limited and the acreage they deal 
with is vast compared to our own. Following the fire, we have 
outspent the feds ten to one on an acre-per-acre basis in this 
burn area. The point is that you cannot depend upon the Federal 
government to do a great deal for you. No matter how big your 
problem is they have a million problems just like it or bigger. 
So Denver has taken it upon ourselves, we are going to do for 
our land everything we can do. We do not expect--we would hope, 
but we do not expect the feds to be able to do the same thing.
    I remain very concerned about overgrowth in the forest in 
the so-called red zone, which is the urban wildland interface 
not owned by the Federal government and not owned by Denver 
Water. It is overgrown as well. This is not part of my 
testimony, but listening to earlier testimony, Mr. Pombo, it 
seems to me if Congress could be of help here, we need to ask 
the insurance industry to require forest treatment on private 
land in the red zone, because if you do not treat it, you 
either do not get hazard insurance for your house or you pay a 
lot more for it. The single most effective thing that could be 
done on private land would be to do it through the insurance 
industry. Congress should--I know you do not like doing battle 
with the insurance industry, and I do not either at least on 
the local level. I have tried it and I lost. Not on this issue, 
on a different one. But it would make sense to me to have the 
private land incentive. The combination of carrot and stick. 
There has got to be something out there to get private 
landowners to take care of it and it may be that the insurance 
industry is a vehicle to make that happen.
    Finally, I would simply say that based on our own 
experience, we know as much about what to do as the Federal 
agencies. They are helpful, but you have to rely on your own 
expertise and your own manpower and your own money if you are 
really going to get it done. We have done a lot. Denver has 
become the poster child for this treatment, but, of course, we 
have not had a two-inch rain on top of that fire area. I am 
afraid we may become the poster child for the disaster, too. 
But at the moment, we are the poster child for what you do 
before the fire and what you do after the fire.
    Thank you for allowing me to testify.
    Mr. Pombo. Thank you.
    Mr. Brierty.
    [The prepared statement of Mr. Barry follows:]

  Statement of Hamlet J. Barry, III, Manager, Denver Water Department

I. Introduction
    My name is Chips Barry, and I am Manager of the Denver Water 
Department. Denver Water is a municipal corporation that supplies water 
to 1.2 million people in and around Denver, Colorado. About one quarter 
of the population of Colorado is supplied by water from us. Our water 
supply is dependent on water generated in watersheds located primarily 
on Forest Service and other public lands west of Denver. We gather 
water in three watersheds west of Denver on both sides of the 
Continental Divide, and move it by canal and conduit as much as 80 
miles to treatment facilities located near the city.
    Denver Water has had several large fires in our watershed in the 
last seven years. This testimony will describe how Denver Water dealt 
with our watershed before, during, and after those fires, and attempt 
to distill the lessons we have learned about forest fires, erosion, 
sediment control, water quality, and the various levels of governmental 
ownership, control, or oversight that influence our action.
    I make no claim that our experience is fully relevant to the recent 
wild fires here in California. I suspect that differences in vegetation 
type, soil conditions, topography, and settlement patterns mean that 
the lessons from our experience will be only partially helpful here in 
California. Nevertheless, I will try to distill our experience for 
whatever it may be worth.

II. Watershed Described
    Denver draws water from the Blue River, the Fraser River, and the 
Williams Fork River, all of which are tributaries of the Colorado River 
west of the Continental Divide. We also draw water from the South 
Platte River, on the East Slope of the Continental Divide. Much of the 
water on the West Slope is delivered to Denver by tunnel through the 
upper reaches of the South Platte. Hence, more than 80% of the water 
supplied to Denver is delivered via the South Platte River. Thus, the 
South Platte watershed is of vital importance to us. Since 1996, there 
have been six forest fires in the upper South Platte watershed. Two of 
these have had, or will have, devastating consequences for us. (Insert 
Slides 1-4.)

III. Buffalo Creek Fire
    The Buffalo Creek Fire began on May 8, 1996. It burned swiftly and 
was a very hot fire, burning 12,000 acres in a day. The intensity of 
the fire made the underlying soil hydrophobic, meaning it would not 
absorb water. While Denver Water knew that a forest fire could create 
erosion problems, we had, in fact, no real idea of what would happen. 
In July, we had a persistent rainstorm on top of the Buffalo Creek 
Area, and received two inches of rain in a short period of time. The 
decomposed granite ``soil'' moved like ball bearings when hit with that 
volume of water, and this destructive erosion load flowed directly down 
Spring Creek and dammed the South Platte River. After a few hours, the 
river broke the dam and the resulting mess ended up in our Strontia 
Springs Reservoir a mile further downstream. In three hours we received 
as much sediment in Strontia Springs Reservoir as had accumulated in 
the prior eleven years. We received something like 400,000 cubic yards 
of material. We also received fifteen or more surface acres of floating 
debris, and 5,000 tons of driftwood, port-a-potties, tires, and other 
flotsam brought down by the flood.
    Looking back on the Buffalo Creek Fire and Flood, I think it's fair 
to say that we did not know how severe the erosion would be if we got a 
severe rainstorm on top of the area that had been burned. We did not 
anticipate the damage, but with only 60 days between the fire and the 
rain, there was little time to do anything had we known.
    For this relatively small fire, the water quality and clean-up 
costs were nearly a million dollars, and the estimated future cost is 
15 to 20 million dollars to dredge our reservoir. We estimate the 
aftereffects of erosion will negatively affect water quality, and cost 
us $250,000 per year for at least ten years. (Insert Slides 5-7.)

IV. The Hayman Fire
    The Hayman Fire began on June 8, 2002. This fire began during times 
of drought, and was fueled by an overgrown, under-managed forest, and 
high winds. The fire burned for six weeks, and, at the end of it, 
138,000 acres of our South Platte watershed had been consumed.
    Prior to the fire, based partially on our experience at Buffalo 
Creek, we had begun a program of forest thinning and treatment to 
reduce the fuel loads in the forest on lands we own. However, Denver 
Water owns only 8,000 acres of the 138,000 burned, and even for our 
8,000 we had only completed about one quarter of the thinning. The 
lesson is that the area that was thinned or treated did not burn or did 
not burn severely.
    Following the Hayman Fire, and continuing until today, Denver Water 
has had a crew of up to 40 people working on our land around Cheesman 
Reservoir, in order to prevent or limit the kind of sedimentation seen 
after the Buffalo Creek Fire. Fortunately, we have not yet seen the 
kind of rainfall over this burned area that was seen in the summer of 
1996. However, even a 1/4-inch rain has been sufficient to move tons of 
debris down the hill toward the river and our reservoir.
    Since July of last year, the following restorative efforts have 
taken place at the Cheesman Reservoir property:
    <bullet>  Denver Water crews and aerial contractors have applied 
more than 210,000 pounds of grass seed over 4,550 acres, and have 
sprayed hydromulch over an additional 450 acres;
    <bullet>  Nearly 30,000 straw bales have been placed, creating 
nearly 2,000 sediment dams in gullies in the burn area in order to slow 
the flow of rain runoff;
    <bullet>  Crews have cut dead timber on steep slopes in the burn 
area using a process called ``contour felling,'' in which trees are cut 
and aligned perpendicular to the slopes, again to prevent erosion;
    <bullet>  Denver Water also hired contractors with Hydroax machines 
to mulch standing dead trees on about 2,100 acres. This process helps 
break up the hydrophobic soils, removes the unsightly burned trees from 
the landscape, and returns organic materials to the soil, replacing 
those that were destroyed in the fire. Much of this was done in areas 
that were already seeded, providing mulch over the seed;
    <bullet>  Under private contract, 1,700 acres of burned land were 
logged by timber salvage companies. About 10 million board feet of 
lumber--the equivalent of 22,000 cords of firewood or 2,900 miles of 2-
by-4 studs--were salvaged;
    <bullet>  Starting this year, Denver Water planted 25,000 ponderosa 
pine seedlings and will continue to do so for the next nine years to 
reforest the area with its native pine species;
    <bullet>  As a more immediate source of protection for the dam and 
the water supply, a 140-foot-long, 40-foot-high rock sediment dam was 
constructed to span the Goose Creek inlet, northwest of the dam. The 
structure contains about 14,000 tons of rock and is designed to be 
water permeable; and
    <bullet>  Costs of the Cheesman reclamation have totaled nearly 
$5.5 million, with the U.S. Natural Resources Conservation Service and 
the U.S. Environmental Protection Agency reimbursing Denver Water about 
$2.8 million of that amount. Future dredging costs have not been 
estimated.
    (Go through the sequence of slides from No. 8 through No. 23, 
describing the fire, erosion prevention measures, and sediment 
problems.)

V. Lessons Learned and Observations.
    I do not know whether the experience of Denver Water in the arid 
ponderosa pine forest of the foothills of the Rockies is relevant to 
the chaparral fires in coastal California. Nevertheless, my 
observations and final thoughts are as follows:
    1.  A great deal of the potential damage from the forest fire can 
be eliminated by careful, deliberate forest management in the years and 
decades before. We have too much fuel load in our forests, and our fire 
suppression policy exacerbates the problem. Our forests need to be 
treated and thinned regularly and scientifically. This problem has 
nothing to do with favors to the timber industry;
    2.  Our preliminary conclusion is that our sediment control 
measures, most of them on a very small scale, have helped, but they 
have not yet been severely tested by a large rain event. I am hopeful, 
but not particularly optimistic, that we will succeed in preventing two 
million cubic yards of decomposed granite from moving downhill into our 
waterways;
    3.  The Federal Government agencies, namely NRCS, The Forest 
Service, and BLM, are occasionally helpful and usually sympathetic. 
However, their budgets are limited and the acreage they deal with is 
vast compared with our own. Following the fire, we have outspent the 
Feds nearly 10 to 1 on an acre-for-acre basis comparing our land to 
theirs. The point is that you cannot depend upon the Federal Government 
to do a great deal for you. No matter how big your problem is, it is 
only one among a million such problems for them;
    4.  Denver Water remains concerned about overgrown forests in the 
``red zone,'' which is the urban/wildland interface west of Denver up 
and down the Front Range. We have not yet discovered the right mixture 
of carrot and stick that will motivate private landowners to treat and 
thin the forest on their property to help avoid catastrophic wildfire; 
and
    5.  I think the above observations lead clearly to the conclusion 
that the local agencies know as much or more than anyone about the 
problems and what will help to alleviate future water quality, 
sediment, and erosion problems. Based on our experience, there is no 
guarantee that any of the measures will work, but we need to do what we 
can.
                                 ______
                                 

           STATEMENT OF PETER BRIERTY, FIRE MARSHAL, 
               SAN BERNARDINO COUNTY, CALIFORNIA

    Mr. Brierty. Honorable members of the Subcommittee, Mr. 
Chair and Congressional guests, on behalf of the citizens of 
the County of San Bernardino and the Board of Supervisors of 
the County, I would like to thank you for the opportunity to 
speak here.
    Last month these mountains dodged a bullet. A bullet that 
could have taken the life off of, if not out of, these 
mountains.
    I realize that today across our great nation there are 
other forests with as many, possibly more, dead and dying 
trees. But those forests are not the most popular, not the most 
visited, not the most populated. They do not contain $8 billion 
of assessed homes and properties and businesses, the homes of 
our citizens.
    To manage the bark beetle problem the Board of Supervisors, 
over 18 months ago, authorized that the Mountain Area Safety 
Task Force, or MAST, be the administrative structure to manage 
this multi-jurisdictional emergency. The efforts of MAST paid 
great dividends in our response here on the mountain top. With 
that in mind, the county's Office of Emergency Services is 
reinvesting those benefits of the MAST model and has initiated 
an action plan in cooperation with our flood control districts 
to mitigate the effects of debris and flood runoff from the 
burned areas. There are now 30 miles of burned foothills, 
moonscape. This is not only a physical threat of debris and mud 
flows to our property owners down stream but it also threatens 
the quality of our drinking water, not just in the foothills 
and the mountains, but the quality of drinking water for 
millions of people in California and also the California water 
project.
    A year before the fire started MAST was addressing 
reforestation. As we speak, the Lake Arrowhead Community 
Services District is creating a customer report that provides 
citizens with valuable information on erosion control. This is 
a companion document to their previous publication providing 
information on proper planting of fire resistant and drought 
tolerant native plants in the mountains. This week alone 
several meetings have been held between agency representatives, 
registered professional foresters, arborists, fire safe 
councils and the Resource Conservation Service and, of course, 
citizens in efforts to coordinate, educate and most importantly 
initiate action on the issues of proper replanting, healthy 
reforestation and erosion control. The House Resource 
Committee's continued support of these community-based 
operations are critical to the long-term success of 
reforestation on this mountain.
    As of November the 1st, the fire siege of California 
consumed almost 800,000 acres, but 68 percent of those acres 
that burned were private lands, leaving only 32 percent that 
were Federal. I would ask that Congress encourage the Forest 
Service to utilize the maximum flexibility provided within the 
Act to fund efforts to mitigate the fire danger and the threat 
on private lands, or as the Act describes as at-risk 
communities that are surrounded by a forest boundary. There are 
49,000 improved parcels with homes and businesses in this 
forest, but only a small minority of those businesses and homes 
are actually on Forest Service lands.
    I would also ask that the Forest Service make their highest 
priority those projects that will protect our communities. They 
should endeavor to provide fuels treatments, fire protection 
zones, shaded fuel breaks in cooperation with local fire 
jurisdictions and create them immediately, but in an 
environmentally safe fashion with respect to artifacts of those 
who have gone before us adjacent to our communities.
    Let us talk about fire safe councils. I would ask that 
funding be provided to our fire safe councils, but the grant 
approval system that we have today is rather Byzantine. It is 
cumbersome, it is time consuming and the folks that are sitting 
in this room today that are members of those fire safe councils 
are ready to act today, not next year and not years from now 
but today. They are here and willing. These citizen-led 
organizations have made terrific progress in every single 
community across this mountain top. Their tireless efforts to 
motivate, educate and organize have paid great dividends to our 
mountain communities. Ellen Palima from Latto Creek should get 
a medal for what she did over there. Among their successes, 
their town hall meetings--constant town hall meetings, standing 
room only, filling this room itself to overflow, were clearly 
the foundation for success for the sheriff's office safely 
evacuating over 58,000 people off this mountain in a few days. 
Although it might not have been the largest evacuation in the 
state's history, it was certainly the most calm and absolutely 
the most polite.
    The term tree removal now needs to include the development 
of infrastructure to utilize all of those wood products from 
the tree and consider them raw materials and not waste. The 
county itself has initiated funding actions to begin its own 
financial efforts to develop the much-needed wood products 
utilizations, wood mills, local mills, portable mills, 
cogeneration operations. At our last meeting tree removal 
operations were creating 600 tons of wood waste a day. That has 
just gone well over 800 and with the work of California 
Edison--one of our greatest allies on the mountain top for 
removing fuel is California Edison--we well may move over 1,600 
tons a day. Now let us put that in perspective with last 
January. At this time last year we were handling about five 
tons of wood waste a day. We need that infrastructure. Also, 
please note that I have quoted only activity on the private 
lands. These numbers do not include the trees on Federal lands, 
which is roughly a 10 times larger land mass. The solutions 
that we need to consider must include the beneficial uses of 
all wood products regardless of their origin.
    In terms of the fire response, we must also examine the 
National Fire Plan and the National Wildland Policy in regard 
to how local agencies are reimbursed when wildland fires 
threaten structures on private lands. Local governments, whose 
citizens all pay Federal taxes, incur great expense in 
providing structure protection during these events and do not 
have the mechanism or the funding in place, the so-called red 
money and green money, to pay for response from threats from 
outside their community.
    With regard to the President's Healthy Forest Initiative. 
In recent days it has been somewhat frustrating to hear that 
the President's Healthy Forest Initiative was immaterial to the 
fire siege of 2003. Some have observed that the fire was mostly 
in chaparral and coastal sage, not the forest. Well I am here 
to tell you that our local mountain fire fighters and those 
that helped them from all over are not going to allow this fire 
to burn into this forest just to make a political point. Some 
say it was a little luck, some say it was the weather, but I 
say there was a lot of planning done by MAST, there was a lot 
of preparation by our fire safe councils and the bottom line, 
some incredible fire fighting--nothing less than heroic, at 
great risk to themselves--ta kept this fire out of the greater 
parts of our mountain communities. The siege of 2003 is now 
recognized as possibly the largest fire in California history 
with 3,000 homes lost, a tragedy. But the fire fighters kept 
this fire from getting into 10 times that many homes.
    With regard to the trees that were effected, absolutely 
fewer than five percent of the trees were taken. That leaves 95 
percent still standing and more dying every day. The threat is 
real, the threat is still here and we need your help as much 
now as we did before.
    Again, I would like to take a moment to thank you for 
taking the time out of your busy schedules to meet with us 
today. Particularly again I would like to thank Congressman 
Lewis for his commitment to our citizens' safety, his tireless 
efforts to provide funding where none had existed before. I 
believe Senator Feinstein should be recognized for her help and 
her efforts to move this along. And I would like to extend a 
personal thank you to all of you members to that some day we 
can all say that we gave a gift of a healthy forest to our 
children--and my children are here today--and that gift can be 
given to their children so they can enjoy it.
    I would look to thank you very much.
    [The prepared statement of Mr. Brierty follows:]

               Statement of Peter Brierty, Fire Marshal, 
                  County of San Bernardino, California

    Honorable members of the Subcommittee, Mr. Chair, on behalf of the 
citizens of the County of San Bernardino, and the Board of Supervisors, 
I would like to thank you for the opportunity to speak to you today.
    Last month these mountain residents dodged a bullet. A bullet that 
could have taken the life off of, if not the life out of, these 
mountains.
    I realize that today, across our great nation, there are other 
forests with as many or possibly more dead and dying trees. But those 
forests are not the most popular; they are not the most visited; they 
are not the most populated; they do not contain eight billion dollars 
of assessed value of businesses, and homes, the homes of our citizens.

POST-FIRE REHABILITATION
MAST
    To manage the bark beetle problem the Board of Supervisors, 18 
months ago, authorized that the Mountain Area Safety Taskforce (MAST) 
be the administrative structure to manage this multi-jurisdictional 
emergency. The efforts of MAST paid great dividends in our response to 
the fire here on the mountain. With that in mind, the County's Office 
of Emergency Services is reinvesting those benefits of the MAST model 
and has initiated an action plan in cooperation with our Flood Control 
Districts to mitigate the effects of debris and flood run off from the 
burned areas.
    There are now 30 miles of burned foothills, moonscape, from La 
Verne in L.A. County across the front country to the Seven Oaks Dam 
east of Highland. This flood threat is not only a physical threat of 
debris and mud flows to property owners downstream but also threatens 
the quality of our drinking water, not just in the foothills, but the 
quality of the drinking water of millions of Southern Californians.
    Under the original construct of MAST, a year before the fire 
started, a division was designed to address reforestation. As we speak, 
the Lake Arrowhead Community Services District is creating a Customer 
Report that provides citizens valuable information on Erosion Control. 
This is a companion document to their previous publication providing 
information on proper planting and replanting of fire resistant, 
drought tolerant plants in the mountain communities. This week alone 
several meetings have been held between Agency reps, Registered 
Professional Foresters, Arborists, Fire Safe Councils, the Resource 
Conservation Service and citizens in efforts to coordinate, educate, 
communicate and initiate action on the issues of proper replanting, 
healthy reforestation and erosion control.
    The House Resources Committee's continued support of these 
community-based operations is critical to the long-term success of 
these endeavors.

FIRE PREVENTION
PRIVATE SECTOR PROPERTIES
    We need to maximize the funding of fire hazard mitigation and dead 
tree removal in the private land holdings. As of November 1st the Fire 
Siege of California consumed almost 800,000 acres. 68% of what burned 
was private lands. Only 32% was Federal Land.
    I would ask that Congress encourage the USFS to utilize the maximum 
flexibility provided within the Act to fund efforts to mitigate fire 
threat on private lands that are surrounded by the forest boundary. 
There are 49,000 improved parcels, parcels with homes and businesses on 
private lands adjacent to the boundaries of the San Bernardino National 
Forest. Only a small minority of our mountain homes are actually on 
USFS lands.
    I would also ask that the Forest Service make their highest 
priority, those projects that will protect our communities. They should 
endeavor to provide fuels treatments, fire protection zones or shaded 
fuel breaks in cooperation with local fire jurisdictions and create 
them immediately adjacent to our communities. I recognize some 
controversy in their effectiveness during a Santa Ana condition, but 
they are effective at reducing the velocity and momentum of fire and 
they do provide a degree of protection to our communities. A degree 
that doesn't exist today.

FIRE SAFE COUNCILS
    I would ask that funding not only be provided to local agencies to 
remove the dead trees but also funding must be provided to our Fire 
Safe Councils. The Byzantine grant approval system that is used today 
is too cumbersome and time consuming. These folks are ready to act 
today. These citizen-led organizations have made terrific progress in 
every community across this mountain. Their tireless efforts to 
motivate, educate and organize have paid great dividends to our 
mountain communities. Among many successes, their town hall meetings, 
standing room only, were clearly the ``foundation for success'' of the 
Sheriff's Office safely evacuating over 50,000 people off of this 
mountain in only a few days. Some have said that it was the largest 
evacuation in the State's history. If it wasn't the largest it was the 
most calm and the most polite.

SOLID WASTE MANAGEMENT
    We must reconsider our definition of ``tree removal.'' It is no 
longer just felling the tree. Tree removal now needs to include the 
development and utilization of infrastructure to utilize all of the 
wood products from the tree and consider them raw materials, not waste. 
The County has taken actions that are financing initial efforts to 
develop much-needed wood products utilization, but much more can be 
done with your help. At our last meeting, tree removal operations were 
creating 600 tons of wood waste a day, now we have exceeded 800 tons a 
day and this is without the Southern California Edison tree removal 
operations in full swing. Their participation will likely move us to 
1,600 tons a day. To put this in perspective, before the crisis, we 
managed five tons a day. Another source to consider is that the figures 
I have quoted only include activity on private lands. It does not 
include the Federal lands, which is roughly an area 10 times larger. 
The solutions that we consider must include beneficial uses for all 
wood products regardless of their origin.

FIRE RESPONSE
    We must also examine the National Fire Plan and National Wildland 
Policy in regard to how local agencies are reimbursed when wildland 
fires threaten structures on private lands. Local governments, whose 
citizens all pay federal taxes, incur great expense in providing 
structure protection during these events and do not have the mechanisms 
or funding in place to pay for response to threats from outside their 
jurisdictions. With over 350 Counties, Cities and Tribes participating 
the specter of uncompensated provision of service is wearing thin the 
fabric of the best mutual aid system in the Country.

PRESIDENTS HEALTHY FOREST INITIATIVE
    In recent days it has been somewhat frustrating to hear that the 
President's Healthy Forest Initiative was immaterial to the California 
Fire Siege of 2003. The detractors state that the fire was mostly in 
chaparral and coastal sage. I am here to tell you that our local 
mountain fire fighters were not going to allow this fire to burn into 
this forest just to make a point. Some say it was a little luck, some 
say it was the weather, but I will say that there was a lot of planning 
from our Mountain Area Safety Task Force, and preparation by our 
citizens and, the bottom line, some incredible fire fighting, nothing 
less than heroic fire fighting that kept this fire out of the greater 
parts of our mountain communities and out of the forest.
    The Siege of 2003 is now recognized as the largest fire in 
California history with over 3 thousand homes lost. These fire fighters 
kept this fire from getting into the dead trees and saved ten times 
that number of homes. Homes that would have been lost had this fire 
gotten into our dead forest.
    The fire affected fewer than 5% of the dead trees, 95% still 
standing and more dying every day. The threat is real, the treat is 
still here, and we need your help as much now as we did before.
    Again, I would like to take a moment to thank you for taking time 
out of your busy schedules to meet with us today. I would particularly 
like to thank Congressman Jerry Lewis, for his commitment to our 
citizen's safety and for his tireless efforts to provide funding where 
none existed. Senator Feinstein should be recognized for her efforts to 
help us. And I would like to extend a personal thank you to all of you 
for your commitment to eliminate the fire danger that still exists here 
in our mountain communities and that someday, we all can say that we 
gave the gift of a healthy forest to our children, a gift that their 
children will enjoy. Thank you very much.
                                 ______
                                 
    Mr. Pombo. Thank you and I thank you for your testimony.
    [Applause.]
    Mr. Pombo. I know, Mr. Brierty, that you had a personal 
conflict and when it is necessary for you to leave, feel free 
to do so.
    Mr. Brierty. Thank you very much. I will be more than happy 
to stay and answer questions.
    Mr. Pombo. Mr. Calvert.
    Mr. Calvert Thank you, Mr. Chairman.
    Mr. Barry, I was very interested in your testimony as well 
as Mr. Brierty's testimony, but the after-effects of the fire. 
In the last panel, you may have heard my questions to our 
friends as U.S. Geological Survey, and as I mentioned, Fish and 
Wildlife is not here, the Corps is not here. Those are agencies 
I am sure you had to deal with in the permitting process which 
you had to go through.
    The Hayman fire was approximately 140,000 acres. This fire 
exceeds that by a factor of two or three, three probably.
    Mr. Barry. Six.
    Mr. Calvert Six, yeah. There are six million people who 
live downstream in the Santa Ana River shed and I can tell you 
from flying over in the helicopter today that there is some 
work being done, but from your experience with a smaller fire, 
you are saying that if we have two inches of rain, if we are 
not prepared for this, we could have a disaster that is 
multiples of what you experienced in the Denver area, is that 
correct?
    Mr. Barry. Well, Mr. Calvert, I need to be very careful 
about not setting myself up as an expert in the geology, the 
soils, the hydrology, et cetera of this area. I certainly 
know--I think things are different here, your slopes are 
steeper, the soil is different and I do not want to project 
what I think will happen here because I have not studied it. 
And in fact, probably like many of you, I am a lawyer, not a 
scientist. So my word is not particularly valuable on that 
point anyway.
    I do know that two inches of rain on top of the Hayman fire 
area in the next two or three years, any time in the next two 
or three years, is going to cause enormous problems for Denver 
and that is----
    Mr. Calvert. How many people downstream from the Hayman 
fire?
    Mr. Barry. Well, all the way downstream in the city, you 
are talking about two million, but in the area above the 
reservoirs that would probably fill up with sediment if 
anything happened, there are only a few thousand people. It is 
not quite like this area around Lake Arrowhead where it is 
heavily urbanized.
    The Hayman fire area had probably only 5,000 or 6,000 
houses in it total.
    Mr. Calvert. I guess I just want to make the point that as 
bad as the Hayman fire was and the predicament that you are in 
is terrible, this could very well be worse.
    Mr. Barry. I think this could be worse, but I want to be 
careful about that.
    Mr. Calvert. And so it is imperative that the permits are 
in place, that the work takes place immediately to make sure 
that we mitigate for that. And also on the water quality issue, 
which we will probably get into with the next panel, this 
obviously has a horrendous effect on water quality; and I know 
from my experience in chairing the Water Subcommittee that 
Colorado is in a difficult situation anyway with water. So if 
you are not able to use your groundwater, you have nowhere else 
to go.
    Mr. Barry. Well, groundwater is not the problem, it is the 
surface water. If that gets full of ash and sediment, then it 
is going to cost us more money to treat it.
    Mr. Calvert, I had one item. Are you still there? There is 
a book, it is 20 years old now, but John McFee's book called 
``The Control of Nature'' has three chapters in it, one about 
controlling lava by putting fire hose water, one about the 
Mississippi River and the Corps of Engineers and the third 
chapter is called ``Los Angeles against the mountains'' and it 
is the story of debris flow basins and the cycle of fire, 
flood, debris, et cetera. And I would urge Committee members to 
look at that. It is well written. I have never met John McFee, 
I would not know him if he walked in the room.
    Mr. Calvert. I did read the book a long time ago, I will 
re-read it.
    Mr. Barry. But it is superb in talking about the issue of 
what happens if.
    Mr. Calvert. Great, thank you.
    And Mr. Brierty, your comments on fuel reduction, there are 
only several things you can do. People talk about fuel 
reduction and most people say they are in favor of that, but if 
you mention the word logging, you will get a lot of people 
upset. But what do you do with it? I mean either you can throw 
it away, which a lot of that is taking place today, or you can 
use it in some manner, whether it is biofuel or logs or 
something, to reduce the cost of removal, because this is going 
to be extremely expensive.
    Mr. Brierty. Yes. There are several options. Some of them 
are long-term, the cogeneration option is an 18-month to 2-year 
process. But some of the things we have looked at--the county 
just provided a loan to a pallet manufacturer. One of the 
situations we have up here is the homes are so close together 
you cannot free fall a tree and make regular lumber out of it, 
but the person who makes pallet stock, four foot lengths, can 
take those four foot, five foot, six foot chunks that have to 
be cut down in that fashion and use those as raw materials. 
Rather than using the good lumber, the 50-60 foot logs for 
pallet stock, let us use the stuff that is made available here, 
create market niches that we can make on this mountaintop.
    Mr. Calvert. I was raised in this area--this is my last 
question, but I cannot remember, maybe Mr. Lewis can remember, 
but I remember there used to be a local mill here. I think it 
closed in 1978 or the early 1980s.
    Mr. Brierty. That is correct.
    Mr. Calvert. It was an old family mill, was it not?
    Mr. Brierty. Yes, it was about 20 years ago. As early as a 
year ago, I had people tell me that there was no way that there 
would be another mill created in southern California, and as 
soon as we get it open, we are going to invite them to cut the 
ribbon with us.
    [Laughter.]
    Mr. Calvert. Thank you.
    Mr. Pombo. Mr. Baca.
    Mr. Baca. Thank you very much.
    Mr. Brierty, the first question is, you know, firefighters 
inhale fumes from fires and from everything else from fire 
burns. I have introduced a bill that requires health monitoring 
and analyzes the firefighters who respond to fires, wildfires 
and fire disasters. But besides the treatment, what do you 
think can be done through prevention? That is question number 
one. Number two, is there any equipment or precaution 
firefighters should use to reduce the amount of exposure to 
harmful fumes or other hazards?
    Mr. Brierty. One of the situations in the forest is that is 
just a byproduct, there is no way to get around it. I think 
that is where the term ``smoke eaters'' came from. But one of 
the things we can do is through proper forestation, through 
proper removal of dead materials, we can reduce that fire 
hazard and reduce the overall risk to those firefighters. It is 
indeed--cancer is presumptive in these folks because they 
breathe so much contamination in their jobs. And I applaud you 
for your efforts to do that.
    Mr. Baca. Thank you. I like the fact that you mention 
cancer presumption, because California is the first state to do 
that. Hopefully we can do that at the national level. I have 
introduced legislation in that area. Thank you for that plug.
    Mr. Brierty. Thank you.
    Mr. Baca. In reference to another question, do you believe 
that there is adequate funding to continue to be ready to fight 
any additional fires that may come our way? That is question 
number one. Two, is there adequate funding in terms of both 
equipment to fight the fires and the ability to protect our 
firefighters? Because I noticed that when I was out there 
during that period of time with the firefighters and highway 
patrol, I saw many of the individuals who were resident 
individuals trying to put out the fires themselves. Joe, can 
you call a firefighter, can you get them over to my home? I 
wish I had a magic wand and I would have just been able to got 
a fire truck in that immediate area and got it there. They felt 
they would have saved their homes, some of them did and some 
others did not. But is there anything that can be done?
    Mr. Brierty. Absolutely. All across southern California, 
northern California, there are measures going forward to the 
voters to try to staff up and properly equip firefighters to do 
the job. To give you an example, for the last two years, we 
have been asking for assistance prior to the fire starting, and 
I was told by the FEMA representatives that as soon as the fire 
started, we would have all the resources we need. Now sitting 
on Sunday morning on October 26, watching the fire burn toward 
Crestline with seven local engines, a strike team from San 
Diego and our assistants from the Forest Service and CDF is all 
we had that morning on Sunday.
    But again, you have to remember that there was tremendous 
resources drawn everywhere in southern California. The answer 
to your question is no, there is not.
    Mr. Baca. Thank you very much.
    How much has the lack of infrastructure such as milling, 
cogens for electricity cost the County of San Bernardino?
    Mr. Brierty. It has cost the county well over $5 million to 
this point and it is expected to increase until such time that 
we have those infrastructures in place. One of the benefits of 
that is once those infrastructures--mills, et cetera--come into 
place, it will again reduce the cost of the tree removal to our 
citizens and incentivize, absolutely incentivize the removal of 
dead trees and help us start the forest regeneration.
    Mr. Baca. Thank you.
    Mr. Barry, I know that I am running out of time, but my 
question pertains to something that you said and I am intrigued 
by it because you talked about the insurance industries.
    Could you elaborate a little bit more in reference to what 
can be done there? Because I sit on the Financial Services 
Committee and that has jurisdiction over insurance companies.
    Mr. Barry. I did not put anything in my testimony because I 
did not think of this in this context until this morning, but 
it does seem to me--I do not know how Congress would do it. I 
do not want to--I do not know enough about how you would do it, 
but it would seem to me that the incentive for a homeowner to 
do forest treatment and thinning on land he owns would be 
considerable, if the insurance company said either we will not 
write insurance or we will increase the price unless you treat 
the forest land on your property. It seems to me that may be an 
easier mechanism than having the heavy hand of the Federal 
government tell a homeowner you must do X and you cannot do Y. 
That is always a difficult thing to do, but if there were a way 
for the insurance industry to make that as part of a policy or 
a requirement of a policy, you would see action.
    But I have not begun--and I would be more than happy to 
have people from my office and utility and even state work with 
you all about that. It is just the beginnings of an idea at 
this point.
    Mr. Baca. I would like to explore that since I do sit on 
that Committee.
    But one final question, since my light is on. The city of 
Rialto in my district has declared a water shortage emergency 
on Tuesday. They have already faced serious quality and 
quantity problems due to perchlorate and drought, but the 
vegetation that has helped water seep into the ground has been 
destroyed. The City believes that they have enough water for 
now, but there will be serious problems if the basin does not 
soak up the water. The ashes and debris will also cause 
problems for water treatment.
    How great of an impact do you believe that water shortage 
could have on this community or any other communities and what 
steps do you believe should be taken to make sure that there is 
enough quality water?
    Mr. Barry. That is to me?
    Mr. Baca. Yes.
    Mr. Barry. We have many of the same problems in Colorado, 
almost all of our water supply in Denver comes from snowmelt. 
We have had several water-short years. We are taking a number 
of different steps to increase our water supply, including 
increased water conservations, incentives, rebates, et cetera. 
We are building a water recycling plant, $110 million worth of 
recycled water that will be reused for non-potable purposes. 
And we are building small projects, nothing big, but a whole 
number of different things to increase supply.
    Beyond sort of generic advice, I want to stay away from 
telling California agencies how they should do their business, 
because it is different than ours.
    Mr. Baca. Peter, if you would like----
    Mr. Brierty. Congressman Baca, on your question on 
insurance, one of the things I am sure mountain residents would 
be very concerned about is actually a concern over 
cancellation, that the fear may be too great by the insurance 
companies, but if you could assist in assuring folks that their 
insurance would not be canceled as long as they took prudent 
actions, that would be much appreciated.
    Mr. Baca. Thank you.
    Mr. Pombo. Mr. Radanovich.
    Mr. Radanovich. Thank you. I thought both your testimonies 
were very valuable and I appreciate you being here, but I have 
no questions.
    Mr. Pombo. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I too appreciate your 
testimony.
    I wanted to point out, this discussion about biomass and 
how we can use that to produce power. Just to remind people 
that in the Healthy Forests Restoration Act, we put a provision 
in there for $10 a green ton to help subsidize it, to help pay 
for getting it basically out of the woods down to where it can 
be used. People you talk to who are in that business will tell 
you that is a pittance compared to what it will take, so we are 
not going to artificially subsidize it to the point of not 
being economically feasible, it will either make it or not. But 
it is a little bit of an incentive I think that will help 
develop a market for that renewable resource.
    How do you say your last name?
    Mr. Brierty. Just like you were to make tea out of briars, 
briar-tea.
    Mr. Walden. Good, thank you.
    Mr. Calvert. Sticky subject.
    Mr. Walden. The point I was going to make, when we were 
putting together the Healthy Forest Restoration Act, the House 
version left open but set priorities where this Act would have 
its priority. And we said wildland/urban interface, watersheds, 
areas of endangered and threatened specie habitat and 
watersheds. When the Senate got done with it, they put an 
arbitrary half-mile limit and said half the money has to be 
spent within half a mile of a wildland/urban interface. Now in 
reality, we spend over 60 percent of the funds there today.
    We were trying to leave some flexibility to deal with, if 
it is your watershed, the Forest Service says needs it the 
most, supply it there, or if it is wildland/urban interface, 
you can do it there, but try not to have these arbitrary 
limits.
    The concern I have is that this Act, as good as it is, and 
the reform, as good as it is, only applies to about 11 
percent--11 percent--of the lands identified in the forest 
system that we know are subject to catastrophic fire, bug 
infestation and disease, because there is 190 million acres at 
threat. This is limited to 20 million acres. Now that is still 
a lot of territory, but it does not apply to timber sales, it 
does not go into wilderness areas, it does not go into these 
roadless areas. All that stuff is sort of off limits. And so as 
I look at the problem we face, this Act will help us in a 
limited way, but it seems to me there is a lot more that needs 
to be done. And I guess specifically to you, Mr. Barry, in the 
watershed environment and in a post-fire environment, what were 
you able to do and the timeline you undertook versus those 
across the red dotted line you had there, in the Federal lands, 
how long has it taken them to do things? And can you compare 
the processes? You are an attorney, give us an idea.
    Mr. Barry. One, I think one of our concerns with the 
Healthy Forest bill is it does not put emphasis on watershed, 
and we thought that perhaps that was missing. Congressman 
McInnis, who I know well and have for 20 years, we are going to 
miss him, did a good job, did very much appreciate all that 
work, but if I had any problem with the bill, it did not quite 
go enough to identify watersheds as a particular area of 
concern.
    Mr. Walden. We did highlight it though as one of the top 
ones.
    Mr. Barry. You did highlight it and I agree with that, and 
I think that was helpful. And I know that this is all part of a 
larger political process, so I want to use the term log 
rolling, but perhaps in this context, that might be a little 
bit off.
    Mr. Walden. Would not go.
    Let us go back to the watershed.
    Mr. Barry. What we did in the watershed that we own was far 
more than the Forest Service was able to do. I think they were 
in full agreement with what we were doing, but they did not 
have the manpower or the money to do it. So we spent about 10 
times as much money per acre.
    Mr. Walden. Right. But what I want to get to is in addition 
to money, we know that process differences--you are not bound 
by the same sort of NEPA processes, are you?
    Mr. Barry. No, we are not.
    Mr. Walden. And so how fast could you operate? Can you 
compare what you were able to do, to put together your plans 
and implement them, compared to what you see happening across 
the line that you are concerned about?
    Mr. Barry. I thought that after the fire, the Forest 
Service did not appear to be hamstrung as they were before the 
fire, by excessive rules and regulations and process. I did not 
find that their ability to move was particularly hamstrung by 
their own regulations and litigation, as it is before the fire. 
And we had some experience with that and so did they. I thought 
afterwards, they could do almost everything they needed to do. 
They just did not have the manpower and the money.
    Mr. Walden. We are sure seeing something different in 
Oregon, where 400,000 to 500,000 acre perimeter burned in the 
Biscuit fire. The counties and private landowners have gone in, 
they have gotten out the dead trees, they have replanted, they 
are doing a lot of things. The Forest Service is still writing 
the plan that they know will take another year to be appealed. 
We are going to be three years in, you are not going to end up 
with a conifer forest unless you spend a fortune to put it in 
there, because the brush is going to come up and overtake it.
    Mr. Barry. I guess my experience in Colorado has been a 
little bit better than that.
    Mr. Walden. Good.
    Mr. Barry. But it is either that I am misinformed or not 
sufficiently informed or that things are a little bit 
different. I cannot tell you which.
    Mr. Walden. Thank you. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman. I too would like to say 
that the testimony of both of you has been very helpful, a lot 
of imagination and stimulated at least me.
    Mary Bono mentioned earlier that she and I a long time ago, 
with some people with forest expertise spent some time on the 
ground but also flying around the forest, her portion of the 
San Bernardino National Forest as well as this. Yesterday, I 
flew in helicopter from here all the way down through the L.A. 
County line to see the huge front that is there. And above that 
fire line, of course, the very problems that you have been 
discussing--soil erosion, the potential for sediment movement, 
what it can do to the people who live in the pathway of that 
movement--all of that is of great concern.
    But the line I remember from that one trip from these 
timber experts was that in the San Bernardino National Forest, 
unless we get a handle on these bark beetle trees, if we have 
that major fire, that chances are very, very great with the 
geology, the steep slopes and otherwise, that erosion could 
very well eliminate the ability of those who care to ever bring 
back the kind of tall tree, fir forest, that we all love and 
know, and perhaps we will be left with scrub oak. The prospect 
of that was enough to stimulate me to get involved as early as 
possible.
    But in the meantime, as you are talking about items--I 
never heard of hydro-axing before. I do not know if, Peter, we 
have been thinking about that, but this mix of possibilities in 
terms of a very rapid action plan over the next 12, 18, 24 
months is sure intriguing to me and I do want to follow through 
on it. Would you both comment on that scrub oak forest that I 
am worried about in this huge front?
    Mr. Brierty. The concern I have is exactly that, the 
watershed is extremely important to our ability to regenerate 
this forest. Personally, I still drink tap water, so the 
watershed protection is extremely important to anybody who 
lives on this mountain and we need to work on that as fast as 
possible.
    Mr. Barry. I do not have too much to add other than that 
the catastrophe in Colorado appears to me to be less because 
there are fewer people living in the area that has burned or 
immediately downstream of it. And that our slopes are less 
steep and we are talking mostly about ball-bearing size 
decomposed granite sediment, not big boulders. When I read John 
McFee's book, he talks about Volkswagen sizes boulders crashing 
through people's houses. That seems to me to be a bigger 
problem. And I agree that unless we get a handle on it and you 
see big rainstorms with perhaps change in the meteorological 
conditions of the earth, there are some serious problems ahead, 
I would guess. But again, I want to be very careful, that I am 
not an expert in southern California. Practically the last time 
I was here was when I was born here 59 years ago. So I am no 
expert.
    Mr. Brierty. With the heat that the fire caused as it 
burned, many areas that we have are basically moonscape and 
somewhat of moon dust on them. It is not an issue of when the 
rain comes, the dust storms that we have had, you can see 
alluvial deposits coming off the hillsides of the fines, the 
things necessary for the small plants to grow that would 
encourage the other larger plants. So if we do not move fast--
we do not have to wait for rain here, we have got wind 
conditions that will cause the problem to exacerbate.
    Mr. Barry. We have seen some success--remember, I talked 
about two fires. Buffalo Creek in 1996, our movement after that 
fire was not as aggressive, but we have seen reasonably decent 
revegetation of grasses, very little of trees. That has helped 
slow down erosion in that area, has not stopped it, but it has 
helped. It gives me hope that if you can get a reasonable 
degree of revegetation, mostly grasses and sedges, brush, not 
trees because trees take a long time, in a five to 10 year 
period, you may be able to reduce sediment flows by quite a 
bit. But as I said, we are the poster boy for what you do, but 
it has not rained hard in the drainage yet and after it does, 
we may be the poster boy for something else.
    Mr. Lewis. Well, we want to keep very close to what you are 
about and what does happen. The testimony here on the part of 
both of you has been very valuable. Thank you, Mr. Chairman.
    Mr. Pombo. Ms. Bono.
    Ms. Bono. Thank you, Mr. Chairman. I actually just want to 
compliment both gentlemen on their testimony and say, Mr. 
Barry, it certainly does not seem like much stands in your way 
and I applaud you for that, because the answers are usually 
outside of the box, and I appreciate you way of thinking.
    I really just have a quick comment, and that is to Mr. 
Brierty, that during the fires, Congressman Calvert and I 
toured, along with Secretary Veneman, the California Department 
of Forestry's I guess response center in Riverside, or command 
center.
    Mr. Brierty. Right.
    Ms. Bono. And we were very--I believe I speak for Ken as 
well, interrupt me if I do not--but we were very impressed with 
how the agencies came together. And certainly in this post 9-11 
world, where we have heard so much criticism about our agencies 
not talking to one another, we were very impressed and 
encouraged by your ability to walk in the door, and the famous 
line was of course, ``to check their egos at the door'' and 
they sat down, rolled up their sleeves and they attacked these 
fires extremely successfully and we were encouraged, because we 
know that your charge is larger than just this, but heaven 
forbid 1 day when we have that large catastrophic earthquake or 
terrorist attack, we will be in very much the same situation. 
So my hat is off to you for doing such a great job and we 
witnessed first-hand how effective you were. So that is not a 
question, but sometimes we do not dish out enough compliments 
around here, so I hope you will take that instead of a 
question.
    Mr. Brierty. Thank you very much. And on behalf of the 
chiefs that made that happen, there is a lot of vision in Tom 
O'Keefe, Gene Zimmerman, Peter Hills, Bill McNall and Bill 
Smith from Running Springs, that made those types of things 
happen. So thank you very much for that kind compliment.
    Ms. Bono. Thank you. I yield back, Mr. Chairman.
    Mr. Pombo. Thank you.
    Mr. Barry, just I guess briefly in your opinion, what were 
some of the impediments to the work that you did in terms of 
Federal rules, policy, laws that stopped you from being able to 
move forward?
    Mr. Barry. Let me give you two different answers for the 
time period. When we were trying to do forest thinning and 
forest treatment before--after the Buffalo Creek fire but 
before the Hayman fire, where we wanted to go in and treat, 
reduce the density of fuel loads in the forest, we had 
cooperation from the Forest Service, but we did get sued, there 
was dispute about rewriting the forest management plan. That 
process moved more slowly and less completely than we would 
have liked. I do not--I did not bone up on all that before I 
came out today, so I cannot give you a complete answer, but I 
would say there were some impediment, they may have been 
citizen initiated and not Forest Service driven, in our ability 
to thin and treat the forest as we thought necessary prior to 
that fire.
    After the fire, I would say we have gotten a great deal of 
interest and complete cooperation from all the Federal 
agencies. And I do not have any--other than lack of funding and 
their need to pay attention to other people's problems 
elsewhere in the country, which they need to do--other than 
that, I do not have any complaints about how the Forest Service 
has handled our situation post-fire.
    Mr. Pombo. You said you were sued before the fire started. 
You were not sued after the fire?
    Mr. Barry. Correct. We were sued before the fire, or the 
Forest Service was, I cannot remember which, as we tried to put 
in place our plan to thin and treat some of our forested 
acreage in the area that later was in fact burned.
    Mr. Pombo. So when you had trees alive, you were sued but 
after they were all dead, they let you go in and do the work?
    Mr. Barry. That is correct.
    [Laughter.]
    Mr. Pombo. Mr. Brierty, I know this is relatively soon for 
you in terms of dealing with the aftermath of this fire, but do 
you have suggestions for the Committee for things that we could 
do at this point that would make it easier for you to do the 
work that you need to do at this point?
    Mr. Brierty. In terms of tree removal, fire response?
    Mr. Pombo. The after-effects.
    Mr. Brierty. After-effects.
    Mr. Pombo. Yeah.
    Mr. Brierty. The direction that the Committee is going is 
very, very helpful. The assistance that Congressman Lewis and 
Feinstein's actions have been able to provide. The 
incentivization to remove the trees, helping us get the trees 
on the ground, helping the citizens who are total victims in 
this. They did not do anything wrong here, they have done 
nothing wrong, but they are incurring costs of tens of 
thousands of dollars, and your assistance and Congress' 
assistance to those citizens and to those fire safe councils 
would be more than I could ask for.
    Mr. Pombo. Well, I want to thank both of you. Your 
testimony has proven to be extremely valuable for the 
Committee. If there are further questions that the members 
have, they will be submitted to you in writing and if you can 
answer those in writing for the Committee, it would be 
appreciated, so that we could include them as part of the 
hearing record.
    Mr. Barry. Be pleased to do so.
    Mr. Brierty. Thank you very much.
    Mr. Pombo. Thank you very much. I am going to excuse this 
panel and I would like to call up our third panel.
    [Applause.]
    Mr. Pombo. We have Dr. Thomas Bonnicksen, Mr. Alan Barrett 
accompanied by Dave Nenna; Dr. Scott Stephens and Mr. Joseph 
Grindstaff.
    Before you get too comfortable, if I could just have you 
gentlemen stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Pombo. Let the record show they all answered in the 
affirmative.
    I want to welcome our third panel here. I appreciate your 
patience and your perseverance in staying with us. I know that 
this has proven to be a long day. We will start with Dr. 
Bonnicksen.

STATEMENT OF THOMAS BONNICKSEN, PH.D., PROFESSOR, DEPARTMENT OF 
              FOREST SCIENCE, TEXAS A&M UNIVERSITY

    Dr. Bonnicksen. Thank you, Mr. Chairman. My name is Dr. 
Thomas Bonnicksen, I am Professor of Forest Science at Texas 
A&M University. I have spent my entire professional career 
studying the history of North America's native forests and ways 
to restore them.
    I find this to be a sad occasion. I have been working in 
these mountains for quite some time. We all know the losses, 
the numbers of acres, lives lost and so on. I was here during 
the fires as a matter of fact, at the request of this 
Committee. But I cannot possibly imagine how the people here 
actually felt when these fires occurred. I was an observer, I 
did not experience it. I do remember driving into Lake 
Arrowhead and Crestline after the evacuation, and to me it was 
eery and depressing because there was not a single soul, it was 
silent. Things were left behind right where they had been used. 
I could imagine barely how people below felt, not knowing if 
they would come back to a home and all the things they cared 
about.
    And then I went into Cedar Glen and then I saw where those 
people could not come back to a home. It was gone. This was, to 
me, a terrible tragedy and I can barely understand how those 
people felt, many of which may very well be in this room.
    I will also say that when I drove up Highway 18, it was 
clear to me that the firefighters saved Lake Arrowhead. It was 
heroic and it was skillful and I was very impressed.
    But we have known what to do to prevent this problem for a 
very long time. And I think it has gotten to the point now 
where the lives and property and our heritage that is being 
lost goes beyond arguments. I think it now is at the point 
where we as a society have a moral obligation to use what we 
know to prevent any further loss of life and property and 
natural resources.
    I started working in southern California's forests 30 years 
ago, in the chaparral. I remember then that we knew what to do, 
I remember then people were frustrated because they could not 
do it.
    Then in 1994, I was asked to come up to Lake Arrowhead and 
help a large group of professionals find a way to deal with the 
overgrown forest problem, and they drafted a plan that they all 
agreed on. Nothing happened. If something had been done, based 
on that plan, the beetle outbreak probably would have been 
contained and would not have destroyed 474,000 acres of forest, 
an entire forest.
    Then I was asked to go down into San Diego County and do 
the same thing for chaparral in 1995. We had 59 professionals, 
all of whom came to agreement on what to do to prevent a next 
big fire in San Diego County. Nothing happened.
    Then I came here 2 months ago and testified before this 
Committee and I was really hopeful. It represented the 
Congress' interest in a problem that has been festering for a 
century. And there were many solutions suggested. But there was 
too little time, nothing could be done between then and the 
October fires. So here we are again.
    And here, I think things have changed. Not only have you 
shown twice that you are committed to solving this problem, but 
now things are different too because we have the Healthy Forest 
Restoration Act. I was there, as were you, when the President 
signed the Act. I was there because I thought it was truly 
historic. This is several decades before we have had the 
opportunity to do something to solve this problem. And I say 
opportunity, the Act is not the solution. The Act makes it 
possible for us to solve the problem, but now the test is will 
we solve the problem? That is the real test now--do we have the 
money, the manpower and the will? And you helped make this 
possible, Mr. Chairman and Mr. Walden. And for that I am 
grateful and I think our nation is grateful. Thank you.
    Now, I think in order to make this work, we have to focus 
the resources that the Congress provides where the problem is 
most serious. I cannot think, in my understanding of the entire 
western United States, a place where this problem is more 
serious than it is right here. So rather than sprinkling the 
money around to solve problems every place in the west, I think 
we ought to focus our attention here where we can make a real 
difference. But we are going to have to act quickly.
    I think, given the fact that we have 95 percent of this 
beetle-killed forest out here, that we have less than 8 months 
to make a difference on the ground, to keep Lake Arrowhead, 
Crestline, Big Bear, Idyllwild from burning next fall. We just 
have 8 months, and that is it. And we had best use our time 
wisely.
    We have to remove the dead trees and we have to start near 
the communities, because that is where it will be most 
effective, given the time we have available. Then we have to 
work outward, of course, into the forests where the problem is 
most severe. But we have to do so in a way that rebuilds the 
next forest at the same time and does not just level the forest 
that is here. So that means we have to protect the trees that 
are still alive, even young trees that are going to be part of 
the new forest. We have to leave snags for wildlife, three or 
so per acre, we have to leave logs on the ground, five to nine 
per acre. We have to do many things to make sure that when we 
reduce the fire hazard, we do it in a way that ensures that the 
new forest can be rebuilt quickly and effectively so that 50 
years from now, our children, my grandchildren, can enjoy this 
again.
    Now I want to point out that this is not just about 
forests. Chaparral is also a big part of our problem and 
obviously that is most of the area that was burned. Now in the 
case of our forests, fires were light, so we can I think 
rebuild a forest where fires would be light again. In the case 
of chaparral, fires were hot historically, and they will be hot 
from now on.
    Even so, the solution is the same. We have to isolate those 
parts of the forest that are overgrown, and should be 
overgrown. Part of this forest was overgrown historically, but 
those are the parts that burned. We have to isolate them from 
one another, with the other parts of the forest that do not 
burn as hot--younger trees, large trees with nothing 
underneath. Chaparral is exactly the same situation. If 
chaparral is less than five years old, it will not burn. If it 
is 20 to 40 years old, it will not burn very hot unless it is 
the most extreme conditions and it is usually a very good fuel 
break. After 40 years, it starts to become decadent and by 50 
and 60 years, it is explosive. We have to isolate those 
explosive parts of the chaparral from one another with the 
younger parts that do not burn so hot.
    Now an example of this is in the testimony I provided. If 
you look at the last figure, Figure 2, you can see in that 
figure that--and it was at my request that San Diego County 
prepared that map just for this hearing, it shows the areas by 
age class that burned in the fire, the Cedar fire and so on. 
You can see, with the explanations on the map, that the fire 
followed the older age classes. It was suppressed at the 
boundaries of recent fires and areas where the chaparral was 
younger.
    Now if you also look at Figure 1 in my testimony, you will 
see the difference between southern California and Baja 
California in terms of the size of the fires, and thereby the 
size of the older patches of chaparral that burned the hottest. 
And it was provided by Dr. Richard Minnick from UC-Riverside. 
That is an outstanding map because it shows we have hundred 
thousand-plus acre patches of aged and flammable chaparral on 
our side of the border and there is a straight line, whereas in 
Baja, there are 5,000 acre and smaller patches. Why? Because 
they have been burning for this same century we have tried to 
stop all the fires, and they have successfully isolated the 
older, more flammable patches from one another with the less 
flammable younger patches.
    And it turns out that what it looks like in Baja California 
is the way southern California used to look and did look for 
thousands of years. So it is the same problem, same solution, 
just a slightly different way of going about it.
    But let me conclude by saying there are a couple of lessons 
I think we have to learn from this. The first is anywhere that 
forests are overgrown could end up like this, either killed by 
beetles or destroyed by fire. The Sierra Nevada is, I think, a 
prime example of a place where this could happen again. And 
where the chaparral is aged, the same thing. In fact, San Diego 
County created a map of aged classes of chaparral and all you 
have to do is look at that map to see where the next big fire 
is going to be or where the next lives are going to be in 
jeopardy. The map tells you everything.
    So the next lesson? We have to thin our forests and reduce 
the density of aged chaparral and we have to make sure--and we 
have, I think, a moral obligation that what happened this year 
does not happen again.
    Thank you, Mr. Chairman.
    Mr. Pombo. Thank you. Mr. Barrett.
    [The prepared statement of Dr. Bonnicksen follows:]

Statement of Dr. Thomas M. Bonnicksen, Professor, Department of Forest 
 Science, Texas A&M University, Visiting Scholar and Board Member, The 
                 Forest Foundation, Auburn, California

INTRODUCTION
    My name is Dr. Thomas M. Bonnicksen. I am a forest ecologist and 
professor in the Department of Forest Science at Texas A&M University. 
I am also a visiting scholar and board member of The Forest Foundation 
in Auburn, California. I have conducted research on the history and 
restoration of America's native forests, especially California's 
forests and brushlands, for more than 30 years. I have written over 100 
scientific and technical papers and I recently published a book titled 
``America's Ancient Forests: From the Ice Age to the Age of Discovery'' 
(Copyright January 2000, John Wiley & Sons, Inc., 594 pages). The book 
documents the 18,000-year history of North America's native forests.

 MORAL IMPERATIVE
    Mr. Chairman, members of the Committee, this is a sad day for all 
of us. The Southern California fires of 2003 burned 739,597 acres, took 
22 human lives, caused $2.2 billion in losses, and cost taxpayers more 
than $250 million to contain. In the San Bernardino Mountains alone, 
six people lost their lives, 993 homes and 10 businesses were 
destroyed, and over 90,000 acres burned.
    Equally important, and often ignored, are the millions of tons of 
pollutants generated by these monster fires that fill the air and 
impair human health. Furthermore, few people realize that the aftermath 
of a fire can be just as devastating as the fire itself. Total runoff 
in just this area (the Santa Ana River Watershed) is likely to increase 
by more than 10 percent and peak storm flows will increase about five 
times the average. Sediment loads carried downstream could be 30 to 50 
times normal, and as much as 20,000 tons of nutrients, nitrates, and 
phosphorus formerly bound in soil will probably be released and make 
its way into groundwater. Uranium and other radioactive materials also 
will be transported downstream with toxic organics and carcinogenic 
compounds from partial combustion of forest materials. This will 
decrease the usability of one of this region's primary water sources. 
It is estimated that 1.7 billion cubic yards of rock, sand, and debris 
will clog water control structures and dams as well.
    These horrific fires are a warning. We can anticipate similar 
catastrophes in overgrown forests throughout the West if we do not 
change our ways. We have already seen this happen in Arizona and 
Colorado. The Sierra Nevada may be next.
    Nothing done by management to the environment would come close to 
the ecological and social costs of monster fires. There is no argument, 
no matter how compelling or well-meaning, that justifies allowing 
uncontrolled and unnatural wildfires to kill human beings, destroy 
homes, forests, and the habitat of millions of animals, pollute the air 
and water, and strip irreplaceable soil from the land. We know how to 
prevent these catastrophic fires and we have a moral obligation to 
prevent them in the future.

IMPRESSIONS OF DISASTER
    I have been working on restoring beetle-killed forests in these 
mountains with Forest Service professionals almost continuously for 
most of this year, and I had warned of a possible tragedy as early as 
1994. I know many of the people who live here. That makes this tragedy 
even more personal. Under the auspices of this Committee, I was able to 
see the devastation firsthand while the fires were still burning. I 
will never forget what I saw, experienced, and felt at the time.
    Shortly after passing through the police roadblock, I could not 
believe how barren the soils were as I drove up Waterman Canyon. 
Nothing remained except smoldering embers and a smell like burned 
newspaper. The only life I saw was a single yellow jacket. The fire was 
so hot that rocks exploded and flames left behind only stubs of the 
thickest branches on the shrubs. There is no doubt; soil erosion must 
be addressed because it could be severe.
    I also remember driving up this same road through Waterman Canyon 
many times this year talking with Jon Regelbrugge, Doug Pumphrey, and 
other Forest Service professionals about the need to use prescribed 
burning to break up the overgrown brushlands below Lake Arrowhead. They 
were frustrated by a lack of resources that made it difficult to 
protect Lake Arrowhead and Running Springs from a fire that came up the 
canyon. We know all too well the consequences of not having adequate 
means to take preventative action.
    My second impression was how well firefighters planned their 
defense of Lake Arrowhead. They used backing fires from Highway 18 to 
deprive the fire coming up Waterman Canyon of fuel. There is no doubt 
that their actions saved Lake Arrowhead. I only saw the smoldering 
ruins of one home on that ridge; the rest of Lake Arrowhead was spared, 
except for Cedar Glen.
    I had seen Cedar Glen before it burned. I knew that the people 
living there were in serious trouble. They lived in a narrow canyon, 
thickly overgrown with trees of all sizes, and surrounded on the ridges 
above with a half-dead forest.
    Tragically, the fires this fall looped around the East side of the 
firefighter's defensive line and swooped across the half-dead forest 
into Cedar Glen. I saw the homes that it destroyed, still smoking in 
the aftermath of the fire. It was a terrible sight. I will never forget 
seeing a garden hose laid across a railing where the owner had left it 
after trying to protect their home and then fleeing before a wall of 
flames. Nearby, a child's wooden swing set stood untouched by the fire 
while the house lay in ruins 50 feet away.
    The fire passed through the Los Angeles Council of Boy Scouts Camp 
before reaching Cedar Glen. I saw half the forest on their lands 
destroyed and still smoking. The western pine beetle had killed 
thousands of the trees before the fire. The trees were still draped 
with dead pine needles when the fire reached them, so they burned with 
extreme heat, and many were reduced to charred spikes. Not even a 
branch was left on many of the burned trees, and the ground was barren 
underneath.
    I had warned a Boy Scout leader at the camp, and officials in Los 
Angeles, that this could happen when I was there in late summer. 
However, they had too little time to take action to prevent it. The 
pool where Boy Scouts were swimming this summer was untouched, but 
everything else was gone. Their headquarters lay in ruins, and a 
barracks was reduced to a chimney and the twisted metal wreckage of 
bunk beds where Boy Scouts had slept just a month earlier. What saved 
them was the time of year when the fire passed through their camp. They 
were safely at home in October.
    My final impression was of the depressing emptiness of Crestline 
and Lake Arrowhead. Where before I saw a forest community full of 
people going about their daily lives, now, there was nothing but 
silence. People left in haste and could take only one car, so other 
cars were parked as if someone was home. Empty chairs were sitting by 
tables with drinks still on them. Occasionally, I would hear a hungry 
stray dog barking abandoned in the rush to safety. People who left 
their homes behind had no idea if they would ever see the things they 
cared about again. We cannot imagine how they must have felt. I only 
know that we should have acted sooner to help prevent these people from 
experiencing such trauma.

TRAGEDY FORETOLD
    I, and several other panelists, appeared before the House Resources 
Committee in this very place about two months ago to help prevent the 
tragic fires that today's hearing is addressing. I said then that 
history will judge us by how we respond to the crisis caused by 
overgrown and beetle-ravaged forests. I should have added our overgrown 
and aged chaparral. History really means that our children and our 
grandchildren will judge us. Did we take the action needed to protect 
the lives and homes of their parents, them as children, and their 
children? Did we protect the forests that we enjoyed, so that they 
could share our experiences and receive their forest heritage 
unimpaired?
    The answer is no, at least so far. We did not act swiftly enough to 
prevent the loss of an entire forest--474,000 acres--in the San 
Bernardino and San Jacinto Mountains to the ravages of the western pine 
beetle, or the wildfires that followed in October of 2003. We also 
failed to prevent the chaparral fires that took so many lives and 
destroyed so many homes in San Diego County and elsewhere in Southern 
California.
    I was honored to be invited to witness President Bush signing the 
Healthy Forest Restoration Act of 2003 this past Wednesday in 
Washington, D.C. This historic Act will help prevent future disasters, 
but it came too late to prevent the fires this year.
    I have been working in the San Bernardino Mountains with Forest 
Service professionals almost continuously this year. We knew that we 
faced a crisis and that dramatic action was needed to prevent a 
disaster. Not only were beetle-killed trees about to fall on people, 
houses, powerlines, and cars, but a catastrophic fire could sweep into 
communities from any direction at any time. Something had to be done. 
However, the Forest Service was hampered in its efforts to prevent a 
disaster. They had too few people and too little money, and they faced 
too many restrictions to reduce fuels over a large enough area to 
decrease the fire threat significantly.
    Sadly, the insect infestations and wildfires were predictable and 
preventable. We did not look after our forests. Meanwhile, trees grew 
and forests became overgrown and unhealthy.
    I conducted a workshop in 1994 in which 27 specialists representing 
many interests and agencies came together in Lake Arrowhead to do 
something about the unnaturally thick forests in the San Bernardino 
Mountains that led to this disaster. We knew that communities like Lake 
Arrowhead, Big Bear, Crestline, Idyllwild, and Wrightwood were in 
imminent danger from wildfire. The workshop produced a report charting 
a course to improve the safety and health of forests surrounding these 
communities. Unfortunately, bark beetles got there before anyone took 
action to thin the forest and make it more resistant to bark beetles 
and fires.
    The highest priority recommendation in the 1994 report for the San 
Bernardino Mountains called for developing ``a comprehensive and 
integrated fire protection program consisting of'':
    <bullet>  A fuels management program (mechanical removal and 
prescribed fire);
    <bullet>  Strategically located park-like fuel breaks;
    <bullet>  A public information and education program dealing with 
structural (residential and business) modifications and landscape 
design; and
    <bullet>  Effective enforcement.
    In addition, the report emphasized ``private sector and government 
partnerships to carry out this alternative, including funding, because 
government agencies alone cannot solve wildfire problems.'' Subsequent 
recommendations elaborated and expanded these ideas.
    Brushlands in Southern California face the same problem as forests. 
They have grown old and thick. Hundreds of thousands of acres of brush 
are ready to burn. We know where the next big fires will be due to the 
age of the chaparral, but we have done almost nothing to prevent them. 
We also know how to break up the fuels and save lives and property, but 
we seem incapable of taking action. As a result, we have lost many 
lives this year, thousands of homes, and hundreds of thousands of acres 
of forest and brushland.
    Again, I wrote a report in 1995 documenting the severe fire hazard 
in the brushlands of San Diego County. A total of 59 specialists 
representing many interests and agencies participated in preparing the 
recommendations. Like the San Bernardino Mountains report, we had a 
plan for preventing catastrophic wildfires. Unfortunately, we failed to 
act, and that is where most of the lives and property were lost this 
year.
    Selected recommendations in the 1995 report include:
    <bullet>  Design a prescribed burn pattern or mosaic based on 
vegetation and wildlife surveys, fire history, and public outreach 
programs;
    <bullet>  Encourage the construction of community fuel breaks;
    <bullet>  Conduct public meetings with private and public 
landowners and solicit information on their needs and opinions 
regarding wildfire control and prescribed burning;
    <bullet>  Conduct education programs to reduce the public's risk 
from wildfires; and
    <bullet>  Encourage the public to assume greater responsibility for 
self-protection from wildfires.
    There is no doubt that the recommendations in the 1994 and 1995 
reports, if implemented when proposed, would have dramatically reduced 
the death and destruction caused by the horrific fires of 2003.
PAY NOW OR PAY MORE LATER
    It is prophetic that the Healthy Forest Restoration Act of 2003 
requires weighing the risk of action against the risk of inaction when 
making management decisions. Think of the terrible human, financial, 
and ecological losses suffered in Southern California this year and 
weigh them against the minor risks of having used scientific management 
to prevent them.
    We cannot put a price on lives lost and human suffering, which, by 
itself, justifies fire prevention. In addition, economic losses could 
be higher than $2.2 billion in just Southern California. Using the most 
comprehensive and expensive methods, that is enough money to restore 
over seven million acres of chaparral to a more fire-resistant and 
natural condition, which is far more than is needed. Similarly, that 
money could pay to remove most of the beetle-killed trees in Southern 
California and rebuild new fire-resistant forests that are more natural 
and sustainable than those that were lost.
    Here in the San Bernardino Mountains, we can restore about half the 
474,000 acres of forest devastated by the western pine beetle, perhaps 
more. The remainder is inaccessible because of steep slopes and the 
lack of roads. It is tragic to know that we cannot restore so much of 
this forest. Especially since most of the historic pine and mixed-
conifer forests will convert to unnatural oak-shrub forests. Wildlife 
will suffer as well, and an endless cycle of severe and unnatural 
wildfires is likely.
    It is even questionable if we can restore much of the accessible 
forest because of the high cost. I estimate that it will take as much 
as $1 billion to do the job right on 237,000 acres. Probably less, as 
we become more efficient. That means providing immediate fire 
protection and rebuilding the new forest.
    This is far more money than taxpayers will bear. However, if 
private companies could harvest and thin only the trees required to 
restore and sustain a healthy, fire-resistant forest, it could be done. 
In exchange, companies would sell the wood and, thereby, significantly 
reduce public expenditures.
    The problem is finding someone to buy the wood. There is no biomass 
or wood processing facility nearby. That means the initial public 
expenditure will have to include providing subsidies to build the 
infrastructure needed to make the restoration of fire-resistant forests 
financially feasible.
    The inescapable truth is that we will pay now for prevention, or we 
will pay far more later to deal with disaster and its aftermath. On 
average, it costs only one-seventh as much to prevent a catastrophic 
wildfire than it does to fight it, mitigate the damage, and pay to 
replace what is lost. This does not include the loss of forests, 
wildlife habitat, soil, and the degradation of our precious supplies of 
water.

CLEAR CHOICES FOR THE FUTURE
    There are two choices for the future of Southern California's 
forests and brushlands, and no middle ground for debate. First, leave 
them alone, or the ``hands-off'' option. This means dooming hundreds of 
thousands of acres of beetle-killed forests. No longer will people in 
this region enjoy shady forests of huge pines and firs. Instead, they 
will see thickets of oak and brush, and many animals will disappear. 
Not only that, but this option will pass to future generations an 
unending cycle of death and destruction from fire and insects, as well 
as accelerating costs for firefighting, and rehabilitating forests, 
brushlands, and communities.
    Our second option is to restore the natural fire- and insect-
resistant forests, and diverse natural brushlands, through active 
management. This would enhance watersheds and water quality, improve 
habitat for a diverse range of native wildlife, and expand scenic and 
recreational opportunities. Most importantly, it would secure a safe 
future for the people of Southern California by protecting communities 
and breaking the cycle of monster fires.
    Both options cost money. However, the ``hands-off'' option will 
cost taxpayers at least seven times as much as the ``management'' 
option, not including the cost in lives and destruction of public and 
private property. The ratio in favor of management could be even higher 
when subtracting the economic value that might be derived from selling 
wood products and clean biomass energy.
    There is no question. Active management is essential if we are to 
secure a safe and sustainable future for our forests and brushlands, 
and the people who depend on them.

WHAT WE NEED TO DO
    Active management means using the history of a forest or brushland 
as a model for its future. That does not involve a futile effort to 
duplicate the past. It means learning from the past. The most important 
lesson we can learn is that historic forests and brushlands were 
sustainable, diverse, and far less susceptible to the monster fires we 
see today.
    Historically, most of California's forests were open because Native 
American and lightning fires burned regularly. These gentle fires 
stayed on the ground as they wandered around under trees. You could 
walk over the flames without burning your legs even though they 
occasionally flared up and killed patches of trees. Such scattered hot 
spots kept forests diverse by creating openings where young trees and 
shrubs could grow.
    Brushlands like chaparral and coastal sage burned hotter. These hot 
fires often swept over thousands of acres. They were stand-replacing 
fires that renewed the brush on about a 40-year cycle. Even so, they 
were much smaller than today's brush fires. They usually burned patches 
of a few thousand acres, sometimes larger, but seldom, if ever, 
hundreds of thousands of acres as we see today.
    The patchiness of historic forests and brushlands is the key to 
their restoration and the solution to the wildfire problem. They 
consisted of mosaics of patches. Some patches were freshly burned, 
others were young or old, depending on how many years passed since fire 
created a new opening where plants could grow.
    The variety of patches in historic forests and brushlands helped to 
contain hot fires. Freshly burned areas, patches of young trees or 
shrubs, and patches of old trees with little underneath, did not burn 
well and served as fuelbreaks. In chaparral, patches five years old or 
younger will not carry a fire, and patches 20 years old or younger are 
effective fuelbreaks. These less flammable patches isolated more 
flammable older or denser patches of trees or shrubs, so that hot fires 
could not spread over vast areas. Thus, nature developed an ingenious 
pattern of natural fuelbreaks that kept most historic forests and 
brushlands immune from monster fires.
    Today, the patchiness of our forests and brushlands is gone, so 
they have lost their immunity to monster fires. Fires now spread across 
landscapes because we let most patches grow old and thick, and there 
are few less-flammable patches left to slow the flames.
    Some people believe that horrific brushland fires are wind-driven 
events. They are wrong. Science and nearly a century of professional 
experience shows that they are fuel-driven events. Wind contributes to 
the intensity of a fire, but no fire can burn without adequate fuel, no 
matter how strong the wind. Wind, topography, and drought play an 
important role in fire behavior, but continuous heavy fuels are the 
fundamental cause for the outbreak of monster fires plaguing the West, 
especially California.
    This is even more serious because monster fires create even bigger 
monsters. Huge blocks of seedlings that grow on burned areas become 
older and thicker at the same time. When it burns again, fire spreads 
farther and creates an even bigger block of fuel for the next fire. 
This cycle of monster fires has begun. Today, the average fire is 
nearly double the size it was in the last two decades, and it may 
double again.
    We can see this in Figures 1 and 2. Figure 1, created by Dr. 
Richard Minnich, from UC Riverside, in 1971, shows the difference in 
the size of fires in Southern California and Baja California. The 
difference is striking because of the political border that separates 
the two countries. There is no ecological reason for this dramatic 
difference. On the Mexican side, patches are very small, a few thousand 
acres, because fires burn as they did when Native Americans lived 
there. Farmers set fires regularly to maintain the mosaic of small 
patches that provide habitat for game and livestock, and keep fires 
small and safe. They also let lightning fires burn because less 
flammable patches easily contain them.
    In contrast, we have been putting out fires for over a century in 
Southern California. Even longer if one considers the proclamation by 
Don Jose Joaquin de Arrillaga, Captain of Cavalry, Interim Governor and 
Inspector Comandante of Upper and Lower California, in 1793, which was 
strictly enforced in Alta California. He said, ``With attention to the 
widespread damage which results...I see myself required to have the 
foresight to prohibit...all kinds of burning, not only in the vicinity 
of the towns, but even at the most remote distances...'' It only takes 
30-40 years for chaparral to grow old enough to create large areas of 
highly flammable fuel. Even though ranchers changed burning practices 
when California became a state, this simple proclamation helped start 
the cycle of monster fires long before some people believe that fire 
control became effective.
    More than two centuries of efforts to control fires increased the 
size of chaparral patches in Southern California. They grew to more 
than 10 times the size of patches in Baja California where fire 
controls were not enforced. It is not surprising that our fires are 
also more than 10 times the size of those in Mexico. This year our 
fires are becoming even larger because we know that monster fires 
create bigger monsters.
    Figure 2, which was graciously created at my request by San Diego 
County for this Congressional hearing, shows that the October fires of 
2003 were concentrated in older brushlands. As expected, firefighters 
also found it easier to stop the fires at the boundaries of younger 
less-flammable patches of chaparral, even in Santa Anna winds.
    The evidence is clear. We cannot blame people for living in fire-
prone rural areas because they want a more enjoyable lifestyle for 
their families. Fires may be inevitable, but not the monster fires that 
we created by failing to be good stewards of our forests and 
brushlands.
    We must restore our forests and brushlands to a more fire-resistant 
condition by recreating the historic mosaic of patches. The less-
flammable younger patches will contain hot fires and make them easier 
to extinguish. This, in combination with modern and effective 
firefighting organizations and less flammable structures, will break 
the cycle of monster fires. Consequently, the lives and property of the 
people of Southern California will be protected as well.
GETTING TO WORK
    Addressing the wildfire problem in Southern California brushlands 
is obvious and relatively simple. Science shows that brushlands are 
resilient, no matter how often fires burn, or how hot the fire. They 
recover fully and in the same way. That is, the same plant species will 
grow after a fire in the same order that they grew before. All that we 
need to do to restore diversity and naturalness to brushlands is to 
create the more fire-resistant historic mosaic. This will solve the 
fire problem if communities and individuals also assume their 
responsibility for providing defensible space and less flammable 
structures.
    The problem is more difficult in San Bernardino Mountain forests. 
The scope and magnitude of devastation from the bark beetle outbreak is 
unprecedented in recorded history. We have lost an entire forest 
because there are simply too many trees. Drought has contributed to the 
crisis, but it is not the underlying cause. Forest density is 10 times 
what is natural--200 to 500 large trees stand on an acre where 50 would 
be natural and sustainable.
    The fires of 2003 did little to reduce the number of trees or 
remove dead trees killed by bark beetles. About 85-90 percent of the 
forest was untouched by the fires and is ready to fuel the next one. At 
least 60 percent of the trees are dead in this forest, and as many as 
90 percent of the trees will be dead by next year when the bark beetle 
epidemic slows down for lack of food.
    We must remove the dead and dying trees and restore the forest in 
strategic areas during the next eight months. Otherwise, the enormous 
amount of fuel that remains in these forests will likely generate fires 
next year that are far worse than this year.
    The desired future condition is a native mixed-conifer forest that 
approximates the historic range of variation characteristic of this 
forest type. The desired restored forest will provide opportunities for 
economically sustaining the forest and all of its values.
    The long-term restoration goal should be to develop a patchy forest 
mosaic consistent with the open historical forest. That means a patch 
size of one acre, a smallest patch size of 0.2 acres, and at least 68 
percent of patches less than 1.8 acres. In addition, approximately 42 
percent of the mosaic should consist of patches of mature and large 
mature trees of which no more than 47 percent should contain a multi-
layered understory.
    Mechanical methods are the most important tools we have to restore 
this forest and reduce fire hazards. Mechanical methods followed by 
prescribed fire may also be effective when used together, but safety 
and air quality restrictions are major constraints. Prescribed fire 
alone will not be effective because it is too unpredictable and 
dangerous in overgrown forests.
    The approach for restoring San Bernardino Mountain forests involves 
cutting the dead and dying trees in a way that minimizes damage to live 
trees and other vegetation desired to meet the long-term restoration 
and protection goals. Then, remove, or chip the slash to reduce fuels, 
and leave enough snags and logs for wildlife. That means approximately 
2-3 snags per acre in groups and 5-9 logs 24 inches or larger oriented 
across slope so that they also control soil erosion. The surviving 
trees must be thinned as well so that they grow quickly and to protect 
them from fire because they will become the oldest trees in the future 
forest.
    Next, begin rebuilding the forest by planting native trees in gaps 
left by beetle-killed trees. Additional gaps will have to be opened and 
planted at different times and places to ensure that the restored 
forest has groups of trees of different ages. This will take five or 
more decades. By then seeds from adjacent trees will fill new gaps and 
the forest will look relatively natural since some sites will grow 
trees 120 feet tall in 50 years.
    When complete, and even during the early phases of restoration, the 
restored forest will reduce threats to local communities from wildfire 
by providing a system of fire-resistant patches that act as fuelbreaks 
strategically dispersed throughout the forest mosaic. In short, the 
restored forest will look and behave in much the same way as historic 
forests. It also will be healthy, diverse, sustainable, attractive, 
resistant to insects and drought, and nearly immune from monster fires.
                                 ______
                                 

 STATEMENT OF ALAN L. BARRETT, COUNCIL MEMBER, VIEJAS BAND OF 
      KUMEYAAY INDIANS, ACCOMPANIED BY DAVE NENNA, TRIBAL 
                ADMINISTRATOR, TULE RIVER TRIBE

    Mr. Barrett. Chairman Pombo, distinguished guests, thank 
you for allowing me to speak today. My name is Alan Barrett, I 
am an elected official of the Viejas Tribal Government. The 
Viejas Band of Kumeyaay Indians is located in Alpine, 
California, in San Diego County. The Viejas Reservation is 
bordered by Cleveland National Forest, BLM land and within a 
corridor of state and county parklands.
    Our neighbors include a number of unincorporated suburban 
and rural communities. In late October, the Cedar fire 
destroyed entire communities, thousands of acres of park and 
woodlands, burning more than 280,000 acres and 2,320 homes, at 
the cost of 12 lives. Eleven were civilians and one was a 
firefighter. The price to extinguish the fire was $27 million.
    As you may have read, the fire also devastated tribal 
reservations. San Diego County has 18 reservations, located in 
rural unincorporated areas of northern and eastern San Diego 
County. Many are adjacent to the Cleveland National Forest. 
Eleven reservations were evacuated due to the proximity of the 
fire and immediate danger. Four reservations suffered 75 to 100 
percent damage to land, structures and hundred of homes.
    I am shortening up my testimony here so I can get down the 
hill and get back to my family.
    Mr. Lewis. Good for you.
    Mr. Barrett. That is a priority.
    We are able to show our gratitude and assist in fire 
management efforts to provide food, water, generators and other 
necessities to operate in camps which housed more than 100 
units of Federal, state and local firefighters.
    The Viejas Band also shares our original reservation--
Capital Grande--with the Barona Band. The Barona Reservation 
lost 37 homes and both of us lost our entire 17,000 acres of 
Capitan Grande. This is a great loss to both tribes and the 
county, as the land was a prime undeveloped wildlife habitat. 
It serves as a natural conservation corridor between El Capitan 
Dam, the San Diego River, the Cleveland National Forest and the 
Laguna and Cuyamaca Mountain Ranges. Plus it is also home and 
burial grounds of our ancestors.
    Today, we have major concerns about replanting. We worry 
about infestation of invasive species and non-indigenous growth 
attacking and altering the terrain of this beautiful natural 
resource. We face major problems with erosion on roads, 
hillsides, wells and waterways.
    And we have been warned the fire danger is not past. Large 
tracts of Federal and state forest lands, disease infested and 
drought weakened, are now littered with burnt trees and charred 
ground cover, are ripe kindling for yet more fires.
    I want to thank you for this hearing and all of the 
distinguished speakers, for the sincere interest in recovery of 
the aftermath of the terrible disaster. Recovery is urgent, 
lagging, and going to be expensive.
    But today, I would like to take a few minutes to discuss 
future prevention.
    The one thing that we have learned from this tragic fire in 
San Diego County is the importance of prevention. Nothing does 
more for prevention of wild fires than the Health Forest 
Restoration Act, recently signed by President Bush. I 
congratulate you, Chairman Pombo, on the bill and your 
sponsorship.
    Today I would like to ask you to apply the key provisions 
to tribal trust lands. You can do this by adding the Tribal 
Forest Asset Protection Amendment to H.R. 1904.
    We need a tribal amendment to H.R. 1904. Very little has 
been done on Federal lands to clear dead excessive overgrowth 
and reduce threats that disease infested vegetation pose to our 
borders. We can help the Federal government manage these lands 
if allowed. In San Diego County, tribal governments are one of 
the largest owners of undeveloped land. We are also located in 
rural areas where fire protection is an expensive luxury and 
clearing is non-existent.
    This amendment to the Healthy Forest Restoration Act will 
assure tribes that we can take actions necessary to help the 
U.S. safeguard tribal trust forests and woodlands.
    I can only hope that the recent devastation to tribes in 
San Diego County will create a sense of urgency about this 
issue. The reservation is our home and it represents who we are 
and have been as Indian people. We cannot just pick up and move 
because it is too expensive to rebuild, the insurance cost is 
too high.
    Help us help ourselves. Preventing wildfire is critical to 
our lives and our existence.
    I not only speak for California tribes, but also for the 
White Mountain Apache, for the Crow, the Oneida, the Lumini 
Nations and tribal nations throughout the United States. Tribes 
must be given the opportunity to participate in managing 
Federal lands so that the next year another Congressional 
Committee will not have to face a daunting economic and 
ecological challenge we face today.
    We stand ready to assist you in support of the Tribal 
Forest Asset Protection Amendment. I brought copies of our 
local newspaper for you to read when you have a few extra 
minutes of time.
    Thank you for chairing this hearing and again allowing me 
to address the Committee.
    Mr. Pombo. Thank you.
    Dr. Stephens.
    [The prepared statement of Mr. Barrett follows:]

             Statement of Alan L. Barrett, Councilmember, 
                    Viejas Band of Kumeyaay Indians

    Chairman Pombo and distinguished guests.
    Thank you for allowing me to speak today. My name is Alan L. 
Barrett. I'm an elected official of the Viejas Tribal Government. The 
Viejas Band of Kumeyaay Indians is located in Alpine, California, in 
San Diego County. The Viejas Reservation is bordered by the Cleveland 
National Forest, BLM land, and within a corridor of state parklands.
    Our neighbors include a number of unincorporated suburban and rural 
communities. In late October, Cedar Fire destroyed entire communities 
of homes, thousands of acres of park and woodlands, burning more than 
280,000 acres and 2,320 homes. The cost was 12 fatalities, 11 were 
civilians and one was a firefighter. The cost to extinguish the fire 
was $27 million.
    As you may have read, the fire also devastated tribal reservations. 
San Diego has 18 reservations, located in rural unincorporated areas of 
North and East San Diego County. Many are adjacent to the Cleveland 
National Forest. Eleven reservations were evacuated due to the 
proximity to the fire and immediate danger. Four reservations suffered 
75 percent to 100 percent damage to land and structures, including 
hundreds of homes. Even though the fire roared through the Viejas 
reservation, we were fortunate. We were able to defend our homes and 
managed to protect other structures, including our businesses. We own 
and operate a casino, retail outlet center, and bank. All were 
evacuated safely, but were closed for a week, due to the fact we had no 
electricity or power, other than generators.
    We were also fortunate in that we had time to prepare, as we were 
alerted to the progress of the fire. Other reservations and homeowners, 
who were caught by surprise, had only minutes to get to safety. Many 
did not make it.
    Fire crews from Northern California arrived at the same time as the 
200-foot wall of flame, clouds of black smoke and swirling debris, hit 
our reservation. Additionally, we are grateful we had the resources to 
house the U.S. Forest Service and California Department of Forestry 
Cedar East Fire Camp and heliport on our reservation.
    We were able to show our gratitude and assist in the fire 
management efforts by providing food, water, generators and other 
necessities to the operation and camp, which housed more than 100 units 
of federal, state and local fire crews.
    The Viejas Band shares our original reservation--Capitan Grande--
with the Barona Band. The Barona Reservation lost 37 homes, and we both 
lost the entire 16,000 acres of Capitan Grande. This is a great loss to 
both tribes and the county, as this land was a prime and undeveloped 
wildlife and species habitat.
    It serves as a natural corridor between El Capitan Dam, the San 
Diego River, the Cleveland National Forest, and the Laguna and Cuyamaca 
Mountain Ranges. Plus, it's the home and burial ground of our 
ancestors.
    Today, we have major concerns about replanting. We worry about 
invasive species and non-indigenous growth, attacking and altering the 
terrain of this beautiful, natural resource. We face major problems 
with erosion on roads, hillsides, wells and waterways.
    And, we have been warned the fire danger is not past. Large tracts 
of federal and state forest lands, disease infested and drought 
weakened, and now littered dead and burned trees and charred ground 
cover, are ripe kindling for yet more fires.
    Like my father and uncles, I have been employed as a fireman. I 
know wildfires, and have seen many, including the Viejas Fire, which 
burned an area of our reservation and neighboring communities in 2001. 
But, I have never seen, heard or felt anything as truly frightening as 
this fire. The Santana winds drove it. The dead and drought-weakened 
trees, thousands of acres infested with beetle disease, fueled it. 
Woodlands and forests suffocating with dead and dry groundcover, which 
have never been cleared or removed, continued to feed it for weeks.
    I want to thank you for this hearing and all of your distinguished 
speakers for the sincere interest in recovery in the aftermath of this 
terrible disaster. Recovery is urgent, lagging, and going to be 
expensive.
    But, today, I would like to take a few minutes of your time to 
discuss future prevention.
    The one thing we learned from this tragic fire in San Diego County 
is the importance of prevention. Nothing does more for prevention of 
wild fires than the Healthy Forrest Restoration Act, recently signed by 
President Bush. I congratulate you, Chairman Pombo, on this bill and 
your sponsorship.
    Today, I would like to ask you to apply its key provisions to 
tribal trust lands.
    You can do this by adding the Tribal Forest Asset Protection 
Amendment to H.R. 1904.
    In Southern California, our lands are a tribe's most important 
asset, and until gaming for some, our only asset. Because most of our 
reservations are small, every acre is precious. The Healthy Forest 
Restoration Act was written to assist private property owners and 
unincorporated communities protect their assets, yet tribal 
governments, with assets held in trust by the Federal Government, were 
not included in the bill.
    We need a tribal amendment to H.R. 1904. Very little has been done 
on federal lands to correct the fire, disease of infestation threats 
these lands pose to our borders. We can help the federal government 
manage these lands if we are allowed to do so. In San Diego County, 
tribal governments are one of the largest owners of undeveloped land, 
we are also located in rural areas, where fire protection is an 
expensive luxury and clearing is non-existent.
    We can provide firebreaks to protect our lands and federal lands 
from fires and spreading to our neighboring communities. Or, we can 
continue to provide fuel for wild fires.
    This amendment to the Healthy Forest Restoration Act will assure 
tribes that we can take the actions necessary to help the U.S. 
safeguard tribal trust forests and woodlands.
    Could the Cedar Fire have been prevented? Maybe not. But the damage 
could have been reduced or contained by taking actions to reduce fuel 
and establish buffer zones of Forest Service or BLM land and keeping 
adjacent forests and woodlands healthy. These are key features of the 
Healthy Forest Restoration Act. These are the key features of the 
Tribal Forest Asset Protection Amendment.
    I speak not just for California tribes, but also for the White 
Mountain Apache, the Crow, the Oneida, the Lummi Nation and tribal 
nations throughout the United States. Tribes must be given the 
opportunity to participate in managing federal lands so that next year 
another Congressional committee will not to have to face the daunting 
economic and ecological challenge we face today.
    We stand ready to assist you in support of the Tribal Forest Asset 
Protection Amendment.
    Thank you for chairing this hearing, and again for allowing me to 
address the Subcommittee.
                                 ______
                                 

STATEMENT OF SCOTT STEPHENS, PH.D., ASSISTANT PROFESSOR OF FIRE 
   SCIENCE, DEPARTMENT OF ENVIRONMENTAL SCIENCE, POLICY AND 
         MANAGEMENT, UNIVERSITY OF CALIFORNIA, BERKELEY

    Dr. Stephens. Mr. Chairman and members of the Committee and 
other Representatives, I am privileged to be here today.
    The 2003 wildfires in southern California were tragic in 
many respects. We have heard about it from further testimony--
losses of life, impacts to communities, negative impacts to 
forests and ecosystems.
    In the future, an idea that I might have is it would be 
nice to have a hearing such as this to actually talk about some 
successes relative to wildland fire. I think a lot of hearings 
occur when we have tragedies with fire, and they are very real, 
but there actually are some times when we have successes and it 
would be nice to have a forum for them some day.
    I want to give a brief discussion about chaparral forests 
in southern California, ideas on how you might be able to 
mitigate hazard, mitigate some of the post-fire outcomes and 
also a real brief discussion on urban interface.
    Chaparral and coastal state scrub was the majority of the 
fire area. We know, we have heard this from several speakers. 
Some people estimate 70 percent of the area, some 80 percent, 
forests maybe five percent. We also have heard from the Fire 
Marshal of San Bernardino County that there was a heroic effort 
to stop the fire on the ridge, there is no doubt about that.
    But when you look at the fire in these two communities, you 
have to really look at them because they are fundamentally 
absolutely different. If you look at fire in chaparral, as Dr. 
Bonnicksen has said this is a crown fire adapted ecosystem, it 
is just that simple. This system burns on slopes, under high 
winds and under drought and you produce flame lengths 60, 80 
feet, and fires move up canyons at incredible rates of spread. 
I have done actually 22 prescribed fires in chaparral in the 
last seven years in northern California actually. We burn this 
stuff under prescription and we get flame lengths of 60, 70 
feet in our research. So this is a very volatile fuel type and 
it actually does burn and regenerates well after a high 
severity fire.
    If you look at the erosion off these systems, it absolutely 
is a concern for management because erosion is downhill and we 
have communities, but erosion is actually part of the natural 
system, just as the fire is unfortunately. This means that 
living near chaparral is an absolute challenge because you have 
erosion and you have fire hazard that are really part of the 
ecosystem. They can be mitigated to some point.
    I think in response to fire in these areas, we started to 
do things like annual rye grass seeding and other methods back 
in the 1930s and 1940s. Some research has been done right here, 
several research scientists for the Forest Service and USGS 
looked at some of the effectiveness of this and it has been 
shown to be fairly ineffective unless you have rain that comes 
in very slowly, comes in and wets the grown, gets the seedlings 
established, and that maybe can help a little bit, but also has 
some negative impacts for displacing native flora and impacting 
biodiversity. There is also a problem if we get grasses in 
these systems and they keep in here, that we cannot increase 
fire frequency to the point where we can take the scrub out and 
then create a grassland. And that actually can make more 
problems for slopes because of higher erosion.
    I think if we were going to look at the southern California 
example, I would say that the best place to put most of the 
efforts are right on the urban interface, and I think we have 
heard this from the other speakers. I would say that these are 
the places where you will probably get the biggest bang for 
your investment, trying to create some more defensible space in 
these areas. The large lands, certain chaparral in this area, 
trying to put fire on the ground for huge areas is an absolute 
challenge. I am a very big fire proponent, but I also know it 
is very challenging to put fire on the ground and try to get 
these systems to work.
    Now I want to shift over to the ponderosa pine, mixed 
conifer and the forests up here on top of the mountain. These 
systems are not adapted to high severity fire whatsoever, at 
least at scales that are large. These are systems that are 
adapted to high severity fire maybe the size of half an acre. 
Regeneration in the past has been in these clumps and there is 
no doubt that these systems have changed.
    I have done some research down in northern Mexico, Sierra 
San Pedro Martir. If we could jump in an airplane and went 300 
miles south, we would actually end up at the end of this 
peninsula mountain range and that is actually the Sierra San 
Pedro Martir Mountains. The place never had fire suppression 
until 1970, it has also never been harvested. Today the average 
tree per acre down there is six feet above one inch diameter, 
ranges from about 20 to 125, incredible spatial heterogeneity 
in that system. Fires still occur down there and the outcomes 
of these fires generally retain most of the forest overstory. 
It is just that simple. It is must more resilient and it is 
really a desired condition for many areas, it is not a complete 
surrogate for this place by any means, but it is an amazing 
place in terms of what the forest structure is.
    So we have changed these systems. We know that tree 
mortality in this area is nothing less than extraordinary. When 
I come up here, we have got a research study here, Rick 
Everett, a person working in my lab at Berkeley, is doing a 
study here and it is extraordinary. What needs to be done is 
really restoration.
    If we look at fuels, I would just like to say a couple of 
things about fuels. You have got four different fuel systems 
that you really look at--ground fuels, surface fuels, ladder 
fuels and crown fuels.
    Ground fuels are the litter and dust layer right on the 
surface of the soil. Surface fuels are the dead and down 
material on the forest floor, and also small shrubs. Ladder 
fuels, small trees and taller shrubs provide continuity, many 
of you have heard this. And the crown fuels are the things 
above our heads.
    If you look at the systems that used to burn frequently, 
like most of the systems here, most of the hazard is in the 
surface fuel area. The second most one in my opinion is the 
ladder fuels, the third most is the crown fuels. This means if 
we want to do some work to really do some restoration which is 
critically needed, we have to really evaluate surface fuels, 
how we are going to treat them, what are we going to do with 
them, and it is an absolute priority.
    The great challenges around here is the infrastructure. One 
of the real problems with infrastructure is, as we have talked 
about, there is very little biomass utilization capacity here. 
You heard some comments earlier about maybe more biomass mills 
being put here, potentially a small sawmill. I actually think 
that is a great idea because I think you need more options to 
do work here that needs to be done.
    If you just do biomassing and chipping onsite, you are 
going to have a terribly expensive operation and also probably 
very limited capacity.
    I think the forest management needs to be flexible, very 
flexible, because the systems on the ground are so variable. 
Flexibility unfortunately takes trust in the agency and the 
Chief talked about that a little bit that there is some sort of 
disconnect there a little bit. One way that I think you could 
actually move forward on this is a system of adaptive 
management large scale, so you can learn from adaptive 
management, put this on the ground, learn from it, go forward 
as a collaborative with all sorts of people engaged. I think 
this could happen in many scales.
    If you look today in the national forest system, we really 
never had a priority for fuels management for national forest 
system, it did not occur until about 1995 when Federal wildland 
policy changed. You have done work on this to amend this 
through the other legislative acts. I would not say it became a 
priority until 1997, which simply means there are no places we 
can go that have large landscape level areas that have had fire 
management as a priority--simply does not exist. We could point 
to some national parks where maybe that has been occurring for 
30 years. Without having that place to learn and to have a 
discourse in, it causes I think a lot of uncertainty and I 
think you could learn a lot from actually trying to do adaptive 
management.
    There is a new bill in Congress that I have become aware 
of, H.R. 2696, the Fire Institute bill. This bill is basically 
written to promote the use of adaptive ecosystem management to 
reduce the risk of wildfires and improve forest health. I think 
it is absolutely a powerful idea, a great idea, I fully support 
it. I am actually a little concerned that it only has three 
states involved and California is not one of them. There is no 
state in this nation that has got a bigger fire issue than this 
state. I am biased, I am a Californian, but when you look at 
vegetation here, you look at the number of people, the number 
of wildland interfaces, you have to a problem that is 
extraordinary.
    Urban/wildland interface, just quickly I will sum up, I am 
over time a little bit. I think that urban interface is a huge 
issue across the west. I also would say that we need to do more 
in the urban interface for the large landowner to reduce 
hazards, absolutely critical. Equally, we need to do as much on 
the private side. If we take fire resilient landscape on the 
urban interface, large landowner--BLM, Forest Service, Park 
Service--and a fire still comes up through there, which they 
are going to do and they lob embers into the communities, fire 
does not discriminate, fire takes the thing that is going to 
burn the easiest and burns it up. If it turns out to be a 
house, it turns out to be a house. You have got to do more on 
the private side. That is a collaborative effort. Actually my 
dad lives in the woods and we are constantly facing this 
challenge, so I would just say that yes, we need to do urban 
interface on the wildland side on the big landowner, but it has 
to go along with the private side. The private side is probably 
more of a state issue and a county issue. But it is paramount.
    Mr. Calvert. I thank the gentleman for his testimony.
    Mr. Grindstaff.
    [The prepared statement of Dr. Stephens follows:]

    Statement of Dr. Scott L. Stephens, Assistant Professor of Fire 
  Science, Division of Ecosystem Science, Department of Environmental 
    Science, Policy, and Management, College of Natural Resources, 
                   University of California, Berkeley

    Chairman McInnis, distinguished members of the Committee, it is a 
privilege to have the opportunity to present my testimony to you today.
    The 2003 wildfires in Southern California were tragic in respect to 
losses of life, their impacts on communities, and how they affected the 
forested ecosystems in this region.
    In the future, I look forward to the day when a hearing such as 
this can be held to discuss successes relative to wildland fire and 
ecosystem restoration. Certainly, more work must be done in this area, 
but it would be useful to have a forum where positive aspects of 
wildland fire could be presented.
    I will present a discussion of wildland fire in chaparral, coastal 
sage scrub, and forests in the southern California region. This will 
include the benefits and risks associated with the different methods 
used to reduce fire hazards and the effectiveness of post-wildfire 
mitigation methods. I finish with a discussion on the urban-wildland 
intermix.

Chaparral and Coastal Sage Scrub
    Chaparral and coastal sage scrub are the vegetation types that were 
most affected by the 2003 southern California wildfires. Approximately 
90-95 percent of the area burned was in these two shrubland vegetation 
types. The remaining area was in coniferous forests.
    It is important to distinguish between shrublands and forests in 
regard to the 2003 wildfires. Chaparral and coastal sage scrub are 
vegetation types that are adapted to high intensity crown fires at 
intervals of approximately 25-50 years. They produce extensive live 
fuel beds as they develop and almost always burn as high intensity 
crown fires when successfully ignited. Under extreme fire weather, such 
as when the Santa Ana winds occur, the resulting fire behavior is 
phenomenal with flame lengths over 75 feet and rates of spread greater 
than 6 feet/second. This type of fire behavior is not uncharacteristic 
or uncommon, it is simply how these vegetation types burn under extreme 
weather conditions. After such fires, native vegetation will recover 
relatively quickly by resprouting and from the germination of a soil-
stored seed bank. I have conducted 22 research chaparral prescribed 
fires in northern California since 1995 and the vegetation in the areas 
burned 7-8 years ago is approximately one-half to two-thirds of what it 
was before burning. These ecosystems can respond quickly after high 
severity wildfires.
    After wildfire, there is a real management concern concerning 
erosion impacts. Erosion is a natural part of this ecosystem, just as 
fire is. Immediately after fire, dry ravel erosion increases greatly as 
surface barriers to soil movement are removed. Dry ravel moves 
downslope under gravity and fills in stream channels. Early post-fire 
rains can promote on-slope rill networks, enabling large amounts of 
water and soil to move rapidly off of steep burned slopes.
    Erosion tends to be high for the first few years after fire, and 
then gradually decreased with time, normally returning to prefire 
levels in 5-10 years as the increases in plant cover and root biomass 
help stabilize surface material.
    In response to the need to protect downstream structures and 
resources after fire, managers began to explore ways of establishing 
rapid vegetation cover on burned hill slopes. Starting in the 1930's, 
Los Angeles County foresters first tried to seed native shrubs, then 
later experimented with herbaceous species such as mustards and 
grasses. By the 1940's, managers were routinely using annual ryegrass 
(Lolium multiforum) in an attempt to stabilize slopes after fire.
    Evaluation of seeding effectiveness was based primarily on the 
level of grass cover established, with little attention given to any 
effects on native vegetation recovery. At this time, little or no 
attempts to quantify the success of this practice at reducing erosion 
were attempted.
    Questions about the impact of seeding with annual grasses on 
natural vegetation recovery in chaparral and coastal sage scrub have 
been raised for years. Some research has observed a negative 
relationship between ryegrass cover and native herb cover. Lower 
species richness has been reported for ryegrass seeded plots. Reseeding 
of non-native species after fire in chaparral does not affect the long-
term, post-fire recovery of native shrubs.
    Seeding also has the potential to increase fire frequency in 
chaparral and coastal sage scrub as flammable, exotic grasses provide a 
continuous fuel structure in a very short time period. If these systems 
burn frequently, a vegetation type conversion from shrublands to 
grasslands can occur and this can further exacerbate erosion problems 
because grasses provide little soil stabilization on steep slopes.
    The most likely scenario for maximum effectiveness of post-fire 
seeding at reducing erosion would be one where rainfall is of low 
intensity and regularly spaced in the fall and early winter, allowing 
good grass cover to establish before heavy rains. However, this weather 
pattern does not appear to be a reliable or frequently occurring 
scenario on southern California chaparral sites.
    In years of even moderately favorable weather conditions, seeded 
grasses appear to compete with the natural post-fire herbaceous flora 
rather than enhancing total plant cover. This competition decreases 
both species richness and percent cover of the native, herbaceous 
species. Research on the long-term effects of reseeding on the 
chaparral seed banks continues but it seems seed banks are also 
affected by introduced annuals.
    New methods to reduce erosion, such as aerial straw mulching, 
polyacrylamide, and aerial mulching, have never been rigorously field 
tested. The lack of information argues for a standardized program of 
treatment effectiveness monitoring, as pointed out in a recent General 
Accounting Office report on this subject.
    Today, even though the best scientific information on the effects 
of post-fire seeding of exotic grasses tells us there are few or no 
positive affects, some agencies continue to promote the practice in 
southern California. This is slowly changing.
    I believe federal and state managers should focus chaparral fuel 
treatments in the urban-wildland intermix. These treatments have been 
proven to be effective during wildfires in southern California. An 
example is the 1995 West Ridge prescribed fire in the San Bernardino 
National Forest. This chaparral prescribed fire was done below the town 
of Idyllwild. Two years later, the Bee wildfire burned uphill towards 
Idyllwild and was successfully suppressed because of the impacts of the 
previous burning.

Mixed Conifer, Ponderosa and Jeffrey Pine Forests
    The ponderosa pine, mixed conifer, and Jeffrey pine forests that 
burned in 2003 are not adapted to large, high intensity fires. Most of 
these forests, area denser and more spatially uniform, have many more 
small trees and fewer large trees, and have much greater quantities of 
surface fuels than did their pre-settlement counterparts. Causes 
include fire suppression, past livestock grazing and timber harvests, 
and possibly changes in climate. The results include a general 
deterioration in forest ecosystem integrity and an increased 
probability of large, high-severity wildfires. Such conditions are 
prevalent nationally, especially in forests that once experienced 
short-interval (<15 years), low to moderate-severity fire regimes.
    The tree mortality that occurred in many forested areas prior to 
the southern California wildfires is extraordinary. I visited this 
region several times before the 2003 fires and in some areas, the 
mortality was the most severe that I have ever witnessed. The mortality 
is the result of several factors, including past management activities, 
that allowed more trees to become established over the last 100 years, 
a multi-year drought, stress from smog that is transported to this area 
from the Los Angeles basin, and the impacts of native bark beetles. 
Past management actions set the stage for a dramatic change in this 
forested ecosystem. I should note that the past drought has been severe 
and trees have died at the lower forest-shrub ecotone, and this has not 
been witnessed in the last 70-100 years. Still, droughts are part of 
the natural ecosystem stresses that have and will continue to affect 
California. I think one of the central messages that should be learned 
from the forests of southern California is an active management 
philosophy is needed in these forested ecosystems.
    Before beginning my discussion of the different methods that can be 
used to reduce fire hazards in these forests, I want to spend a moment 
on what I believe is the critical issue, the definition of desired 
future conditions for our diverse ecosystems. Once this is done we can 
then decide what management tools are appropriate to achieve and 
maintain the desired conditions. I believe the debate on whether we 
should use silviculture to manage our national forests is unproductive, 
the real issue is the definition of desired future conditions, and how 
are we going to get there, and once there, how they will be maintained.
    When discussing fuel hazards in coniferous forests we must examine 
four different fuel systems:
    1)  Ground fuels (leaf litter and decomposed organic materials on 
the soil surface);
    2)  Surface fuels (dead and down woody materials, herbaceous fuels, 
live shrubs);
    3)  Ladder fuels (small trees and shrubs that can provide vertical 
continuity to move a fire into tree crowns); and
    4)  Crown fuels (vertical and horizontal distribution of tree 
crowns).
    Each area of the country is unique but in most forest types that 
historically had frequent, low-moderate intensity fire regimes, such as 
most of those in the mountains of southern California, the most 
critical fuel complex from a fire hazard standpoint is the surface 
fuels, followed by the ladder fuels, and then the crown fuels. Ground 
fuels are relatively compact (low surface area to volume ratio) and 
contribute little to flaming combustion or fireline intensity.
    If one is designing a fuels treatment strategy it must focus on 
surface fuels. Commercial and pre-commercial thinning operations can 
reduce ladder fuels and crown fuels but without combining these 
treatments with surface fuel reductions, the overall program will not 
reduce potential fire behavior. In fact, operations that lop and 
scatter the slash fuels produced after thinning operations will 
increase fire hazards for a decade or more until decomposition reduces 
fuel loads. Mechanical removal of ladder and crown fuels will reduce 
the probability of crown fires in an area, but if surface fuels are not 
reduced, a high severity surface fire can be produced, and it will kill 
the majority of the remaining trees by scorching (production of lethal 
thermal injuries to all exposed leaf and meristem tissues). Only when 
these treatments are coupled with a surface fuel treatment will this 
result in a reduction in potential fire behavior. One of the most 
effective surface fuel treatments is prescribed burning which can be 
used with or without prior mechanical treatments to produce the overall 
objective. A limitation of mechanical treatments is the need of road 
networks which are not available in all areas, especially in the 
mountains of southern California. Whatever treatment is selected, it 
must target the surface fuel layer, followed by ladder fuels, and then 
the crown fuels. Surface fuel reduction cannot be an afterthought of 
fuel treatments in these forests, it must be the central objective.
    One of the great challenges of producing a fire hazard reduction 
program for the forests in southern California is the lack of 
infrastructure in this area. The closest sawmill to this area is in the 
southern Sierra Nevada. This is outside the economic range of most 
materials that should be removed to reduce fire hazards in this region. 
Presently, the National Forests in this area are chipping dead trees on 
site and dispersing the chips locally over the forest floor. This is an 
improvement in terms of fire hazard reduction but it is a very slow, 
expensive alternative. The large chipper that worked in the forest 
around Lake Arrowhead this summer cost $580/hour to operate. In 
addition to this machine and its operator, tree fallers and skidder 
operators were needed to move the dead materials to the large chipper. 
I watched this machine operate this summer and it could only chip 
approximately 1-2 acres per day in areas where tree mortality was 
heavy. There is a real need to have a local mill in this region that 
could efficiently process materials removed to improve forest health.
    Another critical question is the definition of desired future 
conditions for the forests in this region. One forested ecosystem 
exists that can be compared to those found in southern California, this 
is the Sierra San Pedro Martir (SSPM) in northwestern Mexico. This 
forest is composed of mixed conifer forests and shrublands of the 
Californian floristic province that occur nowhere else in Mexico. The 
SSPM is unique within the California floristic province in that its 
forests were never harvested and a policy of large-scale fire 
suppression did not begin until 1970. I have been conducting research 
in this area since 1998 and it can provide information that can assist 
in the production of desired future conditions in the forests of 
southern California. There is a great amount of spatial heterogeneity 
in the forests of the SSPM. Average surface fuel loads are small (6 
tons/acre). Over the last four years, the forests of the SSPM have 
experienced a similar drought to that experienced in the forests of 
southern California. I have a set of forest inventory plots in this 
region and snag density increased from 1.7/acre to 2.6/acre over the 
last three years. This is a large mortality event for this region but 
is orders of magnitude smaller than what occurred in southern 
California. One of the goals of forest management should be to produce 
resilient forest structures that can incorporate natural disturbances 
such as fire, insects, diseases, and drought without catastrophe (tree 
mortality outside desired conditions). Forest management plans should 
be flexible to allow managers enough space to propose creative field-
based solutions to address our current fire problems. There is 
presently mistrust in many sectors of federal forest management and 
this has impeded the ability to allow flexibility. A vigorous system of 
adaptive management at large spatial scales would reduce these 
barriers.
    California has huge challenges to overcome in terms of wildland 
fire. The state has a Mediterranean climate (dry hot summers) and 
almost all of its vegetation is fire adapted. The exclusion of fire and 
past management practices has produced ecosystems that are not 
sustainable. California also has the largest population in the nation 
and the number of people moving into the urban-wildland intermix is 
increasing. The USFS has been attempting to produce a plan to manage 
the National Forests of the Sierra Nevada since 1990 and wildland fire 
has been one of the central issues. After 13 years of debate, we still 
don't have a final plan. The ecosystems in southern and northeastern 
California have similar management challenges.
    Since fire hazard reduction has never been the main objective of 
USFS land management, we have no large-scale research to support such a 
management philosophy. There simply are no places to go in California 
to get information on the trade-offs (economic, social, ecological) of 
large-scale management treatments designed to reduce fire hazards and 
improve forest health. I have become aware of a new bill in Congress, 
H.R. 2696 (Fire Institute Bill), that attempts to fill this need. It 
proposes 3 new Fire Institutes that would ``promote the use of adaptive 
ecosystem management to reduce the risk of wildfires and improve forest 
health.'' The new institutes would be funded for five years and would 
be created with the consultation of the Secretary of Agriculture. I 
fully support this idea because of the real need for increased 
information but am distressed that California is not one of the states 
that would receive such an institute. There is no state in our nation 
that has more complex fire and forest health issues than California.

Urban-Wildland Intermix
    Land management agencies throughout the country are increasingly 
aware of the difficulties of managing in the urban-wildland intermix. 
This is a very complicated landscape with homes, subdivisions, and 
towns all mixed into or adjoining wildland areas. The number of people 
who choose to live in this area continues to increase and many wildland 
fire agencies, such as the California Department of Forestry and Fire 
Protection, believe this is the area where their fuels treatments 
should be focused.
    I believe this area requires partnerships between home owners and 
the public or private organizations that have responsibility for the 
adjoining wildlands. Strategic fuel reduction zones can be created in 
the urban wildland intermix to allow for more effective and safe 
suppression activities when wildfires are moving from the wildlands 
toward homes or from the homes into the wildlands.
    Private home owners share responsibility in this area. Homes must 
be built with combustion-resistant roofs and siding materials. 
Defensible space must be created around each structure to increase the 
probability that it will survive a wildfire. Fine fuels and needles 
must be removed annually from roofs and around houses to reduce the 
chance of spot fire ignition during wildfires. To reduce losses in this 
area, a shared partnership must occur between the private landowner and 
the manager of the adjoining wildlands. Currently, most of the debate 
is focusing on what large land managers must do to reduce risk, but an 
equal amount of responsibility rests on the private side of the 
intermix. Counties and states must take action to ensure that 
individual home owners reduce their potential for catastrophic fire.
    Thank you for the opportunity to speak to you today.
                                 ______
                                 

 STATEMENT OF P. JOSEPH GRINDSTAFF, GENERAL MANAGER, SANTA ANA 
                  WATERSHED PROJECT AUTHORITY

    Mr. Grindstaff. Thank you very much. I appreciate the 
opportunity to be here. You have a copy of my testimony and 
copy of the burn report here. I think I will answer a couple of 
questions that I have heard asked here specifically about the 
impacts to this watershed.
    Two major fires impacted the Santa Ana River Watershed. The 
Old fire and the Grand Prix fire. An example, the Old fire, we 
are expecting that that will generate 300,000 acre feet of 
debris. Now those of you that know what an acre foot is, that 
is a lot of debris. So will there be a problem? Yes, there will 
be a major problem over the next probably four or five years. 
Most of this fire--about 80 percent of the fire was on very 
steep slopes. So mulching, doing anything like that is 
impossible. We have very, very steep slopes. We are going to 
have a lot of that debris come down and there is not much we 
can do about it except enlarge the debris basins down at the 
bottom of the hill, try and empty them out every time they get 
full and be prepared to evacuate people if in fact we have 
problems.
    I know that is hard to say. But the day when the BAER team 
came together we were sitting in this room, the incident 
command center, and Ken Miller, who is the flood control 
director for San Bernardino County, was sitting there and we 
asked the question what level of storm is going to cause a 
problem for you. He said one inch will cause problems in this 
watershed today. I am hoping that as time goes by and we get 
more things in place that number will go up, but it is a 
significant, significant problem. You are talking about an 
order of magnitude change after a fire. So the flows that you 
might expect from a one-inch storm will in fact be 10 times 
higher. The peak flows will be 10 times higher than what you 
would get in a normal one-inch storm. So that carries a lot 
more debris with it. If you will remember about a week or 2 
weeks ago there was a big storm down in Los Angeles. If that 
storm cell had hit one of the burn areas we would have had a 
massive problem in this region.
    So fire has very real costs. It will probably cost just for 
the debris problem we believe on the order of $190 million in 
this watershed. So when we talk about the costs of thinning and 
managing the forests well, there are very real reasons why we 
should do that.
    Let us talk about water supply. In this watershed we 
estimate because of this fire we are going to lose 
approximately 60,000 acre feet of water per year for the next 
few years. That is a significant amount of water that we will 
be importing because we are not able to capture it and use it 
locally. So we have had a long-term program here to try and 
reduce the amount of imports for the watershed that is 5.5 
million people. Over the next few years we are actually going 
to be increasing the amount of water we import because we are 
not going to be able to capture it all. There are impacts to 
small agencies that have a treatment plant, whether it is 
Cucamonga County Water District that cannot take water through 
their treatment plant now because there is too much sediment, 
too much ash there. That ranges all the way across the whole 
part of the mountains, this whole part of the watershed.
    Water quality. I am going to give another example that is 
probably different, of a potential kind of problem we have. The 
largest constructed wetlands in the western United States are 
located on the Santa Ana River. They were built by the Orange 
County Water District as treatment wetlands, and half of the 
flow of the Santa Ana River goes through those wetlands. If we 
get indeed the sediment that we are expecting to get, we are 
going to fill them all up. So the water quality benefits, the 
habitat benefits that we get from those--and the principal 
reason for them was to reduce nitrate in the water--that is 
gone and they have to go in and rebuild them essentially after 
the event is over. So that is an example of the kinds of 
impacts, and they are going to happen. I hope that over the 
next 8 months we can do something that prevents fires--further 
fires in this watershed. But now that San Jacinto and Idyllwild 
are also a part of this watershed, I am not hopeful honestly. 
As a planner--somebody that has to lay out what might happen--I 
am not hopeful that we are really going to prevent the kinds of 
fires that certainly look likely today next year. So that is--
and we will have similar kinds of impacts when that happens.
    Probably one of the things that I understand more now than 
I ever understood before--and I have managed water agencies for 
most of my career--managing the forest has a real financial 
impact in ways that we do not normally think about, that we 
have not normally cataloged as we as water agencies move ahead. 
I am sure that is true in many other areas. That, I think, just 
increases the urgency for us to find ways to manage those 
forests properly.
    Thank you.
    [The prepared statement of Mr. Grindstaff follows:]

          Statement of P. Joseph Grindstaff, General Manager, 
                 Santa Ana Watershed Project Authority

    Chairman Pombo and members of the Committee on Resources, thank you 
for providing me this opportunity to address the significant impacts to 
our water supply and quality throughout the Santa Ana Watershed from 
the October wildfires in the San Bernardino, San Gorgonio and San 
Jacinto Mountains.
    Also, I thank you for addressing the needs of the watersheds in 
California. The forests provide significant groundwater recharge for 
our region and their health is important to millions. Federal funding 
for fire impacts will significantly reduce the ``urban drought'' that 
is likely to follow the recent fires.
    SAWPA was honored to be asked by Tom O'Keefe and Gene Zimmerman to 
participate in the Burn Area Emergency Response (BAER) team. We were 
impressed by the individuals and teamwork of the group to assess the 
devastation. In parallel, we developed the report we have provided to 
you. Our staff worked with dozens of the nearly 100 agencies in the 
watershed to integrate the broad needs resulting from the recent fires. 
These needed improvements range from flood control enhancements and 
habitat restoration to salt removal from groundwater. This 
collaboration enabled us to quickly assemble this information and bring 
a large portion of the effected agencies up to speed.
    These efforts follow the model that Santa Ana Watershed Project 
Authority (SAWPA) created for the Integrated Watershed Program (IWP). 
The IWP has been very successful in collectively working with all 
agencies in the watershed to drought proof the Santa Ana Watershed. 
Through this program, the region will not require imported water during 
drought years. With help from funding in Proposition 13, the program is 
creating almost 300,000 acre feet of new water at an average cost to 
the state taxpayer of less than $100 per acre foot. The $235 million is 
being matched with local funding to build almost $800 million in 
infrastructure. Additionally, it will improve and protect almost 10,000 
acres of river habitat and wetlands.
    We believe the IWP is a model that will work for regions throughout 
the state and will likely be a model to mitigate water quality impacts 
associated with fire. This model will address flood control problems, 
and enhance the environment through desalting, groundwater cleanup, 
improve water supply storage, storm and flood control management, water 
recycling, environmental and habitat restoration and conservation 
measures.
    From our information, this same scenario is likely to be repeated 
throughout the state in the foothills and forest of the Sierras in 
California. Action is needed to prevent these disasters from repeating 
throughout the state.

Background
    The Santa Ana Watershed provides a majority of the drinking water 
for over 5 million residents from the rainfall in and around the San 
Bernardino, San Gorgonio and San Jacinto Mountains' forest areas. 
Rainfall in these mountainous areas provides surface water flows and 
groundwater recharge throughout the region via the Santa Ana River and 
its tributaries.
    Recent fires in these areas were large and difficult to contain. 
The aftermath of these fire events have resulted in extraordinary 
impacts on the forests and the watershed. The recent Grand Prix, Old 
and Padua Fires burned over 120,000 acres (more than 185 square miles) 
in the Santa Ana Watershed of wildland habitat, primarily in the San 
Bernardino National Forest.
    These fires will have significant impacts on the Santa Ana River 
and its associated water quality for an extended period and these 
impacts will occur in areas far from the burned sites. While the fires 
were confined to the top of the watershed, virtually the entire 
watershed is impacted by the fires, or will be impacted. It is 
estimated that the fires' effects will impact an additional 430 square 
miles beyond the burn area for a total impact to over one-quarter of 
the watershed. Without intervention, most of the associated costs will 
be borne by local government.
    The area burned will significantly complicate our efforts to 
drought-proof the watershed. As presented above to prepare for greater 
water demands that are projected to increase nearly 30% within 20 years 
and seeking to drought proof the region so that no imported water would 
be required during drought years, SAWPA developed a 10-year IWP to 
address the water needs of the region. Over 200 water resource-related 
projects were identified as part of this program to date. Three billion 
dollars was initially estimated to implement the 10-year IWP. In 2000, 
SAWPA successfully contracted with the State Water Resources Control 
Board to use $235 million in Proposition 13 Water Bond funds to begin 
construction of over $800 million in projects that directly support the 
IWP. Costs borne by local agencies in responding to problems arising 
from recent fire events will significantly impact the ability of the 
agencies cooperating in implementing the SAWPA IWP to reduce the 
region's dependence on imported water and, therefore, will have a 
lasting impact on water supplies statewide.

Water Supply and Quality, Habitat, and Flood Control Impacts
    An ``urban drought,'' caused by the inability of the forests to 
capture and percolate water into the ground and water basins, will 
likely damage water supply and quality. Significant conservation 
efforts are needed now. Federal and state funding are also needed to 
avert the disaster after the disaster.
    The following areas of risk have been identified:
    <bullet>  Future Fires: Less than 5% of the trees with drought-
induced severe mortality have burned in the recent fires, which leaves 
more than 150,000 acres unburned. More fires are likely, further 
exacerbating the impacts;
    <bullet>  Flooding and Debris: In the Old Fire alone about 300,000 
acre feet (AF) of mud, rock and water are anticipated to fill streams, 
basins, and flood facilities. Removal of sediment and facilities 
improvements to mitigate flood impacts could cost $190 million;
    <bullet>  Mud and Rock Flows: From even a moderate (10-year storm), 
mud and rock flows would cause 100 sub-watersheds to produce 4,500 
cubic feet per second or more of runoff, well over ten times the 
average year flows;
    <bullet>  Threatened and Endangered Species: Threatened and 
endangered species are negatively impacted not just in the burned area, 
but by sediment, and pollutants that occur for years after the burn in 
areas throughout the watershed;
    <bullet>  Groundwater: Seventy percent of the water used by its 5 
million residents in the watershed is groundwater; much of this is 
percolated rain water in the forest, or within approximately five miles 
of the forest;
    <bullet>  Percolation: More than 70 groundwater percolation basins 
will likely be impacted by mud and rock reducing recharge;
    <bullet>  Ash Impacts: As much as ten million cubic yards of ash 
are expected to be washed into creeks, streams, rivers and percolation 
basins as far as Orange County and eventually the ocean;
    <bullet>  Water Loss: With these basins out of commission, as much 
as 60,000 AF of water will be lost to the ocean each year, instead of 
percolated and used for drinking water. The cost of replacement water, 
if it is available, could be $15 million per year;
    <bullet>  Contaminants: Runoff water will likely bring 
contaminants--manganese, lead, phosphorus, mercury nitrates, total 
organic carbon, and uranium requiring treatment and removal before use; 
and
    <bullet>  Stress on State Water Supplies: Without mitigation from 
the fires' impact, the region will become more dependent on imported 
water from the Colorado River and the Bay-Delta, rather than less as is 
planned through the IWP. The impacts of the fires will be felt 
statewide.
    For additional information, please reference a report entitled, 
Old, Grand Prix, and Padua Fires (October, 2003) Burn Impacts to Water 
Systems and Resources dated December, 2003, prepared by SAWPA in 
support for the United States Forest Services Burn Area Response Team 
working in the area. This report has been prepared to inform and aid 
decisionmakers and other interested parties throughout the watershed.

Fire Impact Cost Estimates
    Costs of mitigating the effects of recent fires within the 
watershed are estimated to be nearly $450 million, and are summarized 
below:

[GRAPHIC] [TIFF OMITTED] T0767.001


    In addition, local water agencies have expressed concern over 
direct damage to infrastructure such as wells and access roads 
resulting from increased debris and sediment flow from storm events 
following fires.
    Although the fires did not burn all of the areas anticipated in 
earlier calculations, these impacts are likely to be severe over the 
next five or more years, depending on rainfall and storm intensity.
    In addition, as much of the unburned area is still at extreme risk 
of a catastrophic fire, costs are likely to be higher than those 
projected from the recent fire events.

[GRAPHIC] [TIFF OMITTED] T0767.002


Requested Actions/Funding Recommendations
    We urge the Committee to:
    <bullet>  Continue to fund the restoration of the forest as it is 
the top of the watershed and from where the highest quality drinking 
water in the watershed comes;
    <bullet>  Continue to support sustainable land use in the forest 
and the watershed;
    <bullet>  Provide funding and support for immediate flood and 
debris measures to protect the area from additional disasters at the 
first heavy rains; and
    <bullet>  Understand the close connection that exists between the 
forest and the watershed below and provide support and funding for the 
mitigation of the fire impacts on the groundwater basins of the 
watershed.
    The following table summarizes specific watershed improvements to 
mitigate the effects of the recent fires. These improvements are 
individually identified, as well as their benefits.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0767.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0767.004
                                 

    Mr. Calvert. Thank you, Mr. Grindstaff, for your testimony.
    This entire panel is extremely interesting. I want to get 
into this issue of prescription burns. I was also intrigued by 
our friends from the Native American community, because Native 
Americans have a history of managing property through the 
history of their residency here in America, especially the 
Plains Indians where we have historical data of the Plains 
Indians setting fire to their property on the plains in order 
to bring grasses back for their buffalo population.
    But on the issue of prescriptive burns, our friend from 
Texas, welcome to California. How difficult is it here in 
California to get a permit for a prescriptive burn? Are you 
familiar with that?
    Dr. Bonnicksen. Are you asking me?
    Mr. Calvert. Yes, sir.
    Dr. Bonnicksen. How difficult----
    Mr. Calvert. You can use that mike.
    Dr. Bonnicksen. Oh, I am sorry.
    How difficult is it to get a prescription to burn? To tell 
you the truth, I probably do not--I do not know, but I think 
Scott may have some idea.
    Mr. Calvert. Well, I will ask Scott.
    Dr. Stephens. Yes, we have done quite a bit of burning. 
Actually it is a--I call it almost a Master's thesis. It is 
probably about the scale of document of about 40 pages or so. 
You have a smoke management plan that actually is written and 
then put to the agency that has air shed quality control over 
the area. It has to be approved by the smoke management plan. 
Then you also have a prescribed fire plan that actually is 
submitted to the fire agency that has jurisdiction over your 
area. If it is the Forest Service, you send it to them. If it 
is BLM, you do it with them. If it is CDF--the whole thing 
turns out to be probably on the scale of maybe about 45 or 50 
pages. The first one is really a challenge. The second and 
third gets a little easier. But there is no doubt it is an 
effort--it is an effort and it has gone up quite a bit. My 
predecessor at Berkeley, Bob Martin, used to have a prescribed 
burn plan that was on two pages of paper. It has gone up 
substantially.
    Mr. Calvert. You burn up a lot of trees to get a permit. As 
I understand it, I spent some time with some fire marshals and 
some firefighters and they told me it is virtually impossible--
as a matter of fact, some of the areas that burned in this most 
recent fire, that they had put some applications in for some 
controlled fires and they could not get permission to do so. In 
fact, all of that area now is gone, of course, and the habitat 
that they were trying to protect is gone with it, as I 
understand it. So I just want to put that on the record.
    The other issue, of course, is the water supply. Mr. 
Grindstaff, I was interested when you said 60,000 acre feet of 
water. To put that in perspective for the audience, 60,000 acre 
feet of water is 20 percent of the water supply for the entire 
State of Nevada, which is lost because it is--because of the 
problems in this watershed. I know my friend from Oregon will 
tell you we go into great battles and wars in the Congress over 
less water than that. So it is going to be lost. If you take 
that 60,000 a year for at least five years, that is a lot of 
water.
    Mr. Grindstaff. Yes, that is a lot of water. We are 
fortunate that we have some alternate sources. I do not imagine 
that the people in northern California would think that we are 
fortunate that we have that alternate source to take water 
from.
    Mr. Calvert. And for our friends from--I know that the San 
Diego fires were devastating. Our friend and colleague that 
lives in your area, Alpine, Duncan Hunter, lost his home. As a 
matter of fact, he told me the fire was so hot because the 
growth and the thickness and the way the fire burned, that his 
pot-bellied stove actually melted, everything was gone. That is 
how devastating and hot that fire was.
    Maybe for testimony, do you remember the last time they did 
a control burn to manage--like our friends in Mexico are 
apparently doing--but to manage old growth, which is done 
naturally in history, but apparently we have not been able to 
do it. Can you remember the last time they did such a thing in 
the San Diego area?
    Mr. Barrett. I know that the National Forest Service in 
Cleveland National Forest last spring was doing controlled 
burns in the Laguna Mountains area. Part of the Cedar fire had 
burned back around on itself and burned east and when it hit 
that prescribed burn area it stopped at that point and then 
continued to burn north, which was into the Julian area where 
they had made a big stand up there and saved the town up there. 
That is where the one firefighter was killed, up in that area.
    Mr. Calvert. Thank you. Thank you for your testimony.
    Mr. Pombo. Mr. Baca.
    Mr. Baca. Thank you, Mr. Chairman.
    Mr. Grindstaff, you mentioned--and I am trying to imagine 
300 acres of debris. And as I look at the watershed and I look 
at the Santa Ana winds in the area, and you mentioned the cost. 
What effects then will the Santa Ana winds do as well, because 
that has to be taken into account as we look at the debris and 
the ashes. I know every time I leave my window open there in 
Rialto I see a lot of the ashes just coming right into the 
house, draining into the water as well. Have you taken into 
consideration the Santa Ana winds that will be picking up 
between now and then based on this fire and the cost it is 
going to be to us as we look at not only the quality of water 
and the quantity of water as well?
    Mr. Grindstaff. I cannot tell you a specific number but I 
can tell you anecdotally that in fact the Santa Ana winds have 
already scoured a lot of the ash off of the upper parts of the 
slopes and moved it down. In fact, it is in the water. I can 
tell you that in fact ash is in the water in Orange County, the 
water that they are percolating into the ground. So it has 
already made its way down river--downstream and has impacts.
    Mr. Baca. And this probably has impact not only on 
Arrowhead drinking water that comes from here too as well, or 
Bear water as well.
    Mr. Grindstaff. Lake Silverwood is a major supply source 
for the east branch of the state water project and that is 
impacted by the Old fire. It is a major source of supply for 
southern California, and certainly the ash, they are trying to 
protect and stop it from getting in there. But we expect some 
will get in there and there will be some treatment problems 
with that.
    Mr. Baca. One of the other areas--it is safe to say that 
the wildfires greatly affected tribes in southern California. 
We all realize that. In our area, San Manuel Reservation lost 
about 98 percent of its vegetation. Without the vegetation all 
that is left is the bare soil where the chances for flooding 
are greatly increased. What is being done on the reservations 
to provide--provided by the local, state and Federal government 
to help prepare for any flooding such as the result of 
wildfire? Does anyone know? And what is being done in terms of 
fostering thinning near reservations and what more can be done?
    Mr. Barrett. We had several Federal agencies, FEMA BAER 
Team--we had the U.S. Forest Service BAER Team and also--
actually we had two BAER teams working on the reservations in 
San Diego County. The problem with the two agencies is they did 
not communicate with each other. They stayed in the same hotel 
but they did not communicate. They have two different BAER 
reports and both of them are doing different things on Federal 
lands.
    Mr. Baca. And I noticed that during the wildfires we did 
not see very much coverage of the effects that wildfires had on 
our local Indian reservations. From your experience, do you 
believe that your tribes had adequate access to government 
relief services? That is question number one. And to your 
knowledge, do you know of any Native Americans who were turned 
away from relief centers? In the Cavazon Newsletter they stated 
that tribal members in San Diego County were being turned down 
for help by relief centers in Riverside County. They thought 
that the Red Cross was insufficient in providing immediate 
services. Can you share your experiences? Either one of you. 
You, too, as well, David.

        STATEMENT OF DAVE NENNA, TRIBAL ADMINISTRATOR, 
                        TULE RIVER TRIBE

    Mr. Nenna. I would love to. If I could go ahead and provide 
my testimony with the rest of the panel.
    First off, thank you, Mr. Chairman and honorable members 
for allowing me to give testimony on behalf of my tribal 
government.
    The Tule River Indian Reservation was created by executive 
order in 1873 and the land base consists of 55,341 acres which 
is located in the Sierra Nevada foothills and the mountains of 
central California and Tulare County. The Tule River Tribe is 
the second largest timber tribe in the State of California. We 
are surrounded on three sides by the newly designated Giant 
Sequoia National Monument administered by the Department of 
Agriculture. The Forest Service classifies this Federal lands 
along our common boundaries very high fire hazard and risk 
index.
    The tribe has over 17,000 acres of productive forest land 
including five groves of giant sequoyas, and 30,000 acres of 
native oak woodlands. Three of these groves cross 
administrative boundaries with U.S. Forest Service. There are 
253 homes and over 1,000 residents within the reservation 
boundaries that are located within our wildland and urban 
interface.
    The tribe has an established natural resource and forestry 
program, along with a forest management plan in place and 
approved by the Department of Interior. The tribe manages its 
own wildland fire department and has cooperative agreements in 
place with the U.S. Forest Service, the California Department 
of Forestry and Tulare County Fire Departments and also the 
Bureau of Indian Affairs. The tribe also has a fire management 
plan awaiting final approval.
    The tribe has taken a very proactive management approach in 
trying to protect and enhance its forest assets and natural 
resources. This will not be enough. The tribe has always had 
grave concerns about continuous fuel loads along the 
reservation boundaries. We keep our fingers crossed year after 
year that we are not the victims of catastrophic fire. We were 
extremely fortunate last year during the course of the 150,000 
acre plus McNalley fire which burned on adjacent forest lands. 
The fire came within two miles of our reservation boundaries. 
The potential of losing such great national treasures as the 
giant Sequoias looms daily. The tribe's concern has not changed 
over the years. The fuel problem still exists. Until the issue 
of fuels are addressed and the risk of large stand replacing 
fire will remain. The tribe is open to alternatives such as 
joint management, stewardship or some plan or course of action 
that would help us address the fuel and the fuel hazards on 
Federal lands.
    During the 2003 fire season we suffered through another 
year with minimal rainfall. When conifer trees are weakened 
from drought and overcrowding, they become susceptible to 
insect infestation. Without timely action the fuel problem 
magnifies. Any potential timber recovery from dead and dying 
trees is lost. This past season the tribe completed a salvage 
timber harvesting effort to address an abundance of dying trees 
due to bark beetle attack. Trying to remedy our forests health 
and fire concerns does not do much good if the same effort to 
reduce similar hazards does not happen on the national monument 
side. We pray for some type of relief, that we do not have to 
wait for the inevitable to happen before any action occurs. The 
problems have been identified on numerous occasions and now it 
has to be addressed.
    Along with these same concerns, as the honorable councilman 
had mentioned, of having something to address or amendment to 
the Healthy Forest Initiative that would help address this with 
tribes that are heavily forested. I would also like to submit 
as part of my testimony a letter from the Council on Energy 
Resource Tribes which represents 53 tribes throughout the 
Nation supporting some type of amendment to the Healthy Forest 
Initiative to address these so we can work in a cooperative 
effort to address the heavy fuel loadings for those of us that 
are surrounded by other Federal lands where these fuel loads 
are not being addressed at the present time.
    I would like to thank you very much for allowing me to 
offer my testimony, Mr. Chairman. Thank you.
    Mr. Baca. Mr. Chairman, if I may reclaim my time?
    Mr. Pombo. Absolutely.
    Mr. Baca. Alan, would you like to answer the question?
    Mr. Barrett. I cannot speak for other tribes because I did 
not participate in their meetings with the BAER committees that 
came on. But for us, we did have adequate resources. At Viejas 
we had a strike team from northern California, which mostly 
consisted of San Jose area Fire Departments that came in right 
when the fire got to our reservation. We did work very closely 
with the Red Cross. We had--two days after the fire, we did sit 
down with the Red Cross and start discussing avenues and ways 
to get resources to actually the entire San Diego--the 
community of San Diego.
    Mr. Baca. Would you want to add anything else, David? If 
not, I have another question.
    Mr. Nenna. I will wait for your next question, Congressman.
    Mr. Baca. Thank you. Just one final question to both of the 
tribal members. You have painted a clear picture of just how at 
risk Indian tribes are and what we have had to deal with this 
fire season. America's reservations are the repositories of 
countless archeological and cultural and historical sites and 
artifacts. Could you discuss the seriousness of the permanent 
loss of these national resources to wildfires, and do we even 
have an adequate inventory of such sites?
    Mr. Nenna. I would like to say on behalf of my tribe and 
several tribes up through the foothills, most tribe do catalog 
a lot of their cultural and archeological resources. Sometimes 
these resources are exposed that we are not aware of. During 
the McNalley fire and the Manteur fire the previous year there 
was sites that were heavily saturated in archeological findings 
that are now being cataloged. But we--with the limited 
resources on our reservation and the limited personnel to do 
this that are trained in this field, we have only been able to 
catalog about 50,000 acres of our reservation and know all of 
our archeological sites. They are very susceptible to damage 
and destruction depending on the intensity of the fire.
    Like I mentioned on some of the treasures, irreplaceable 
things that we could never recover are the 2,000- and 3,000-
year-old giant Sequoia groves that we have. Also our commercial 
timber, it is replaceable but not in our lifetime. It will take 
many generations to regrow a lot of these natural beauties that 
we have.
    And destruction of--the possibility of our river. I keep 
hearing water. I was very interested in the one gentleman's 
comments on what had happened, because our only water source or 
domestic water supply is a single river where all the 
watersheds are created on the reservation. So it would take 
many, many years, if ever, in generations to recover from a 
catastrophic fire.
    Mr. Baca. Thank you.
    Mr. Pombo. Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman.
    I was intrigued by the information on chaparral and the age 
of chaparral and the age depending on its susceptibility to 
fire and the difference between the way it is managed between 
California and Mexico. Dr. Bonnicksen, can you tell me, is it 
because of controlled burning that is allowed in Mexico that is 
not here? You mentioned in California and the United States it 
was just complete fire suppression. But how did they get the 
nice mosaic that you are wanting to achieve there? Is it just 
by nature or what?
    Dr. Bonnicksen. No. It was a combination of active burning 
by small farmers to provide room for livestock grazing and 
habitat for game. Also, they do not put out wildfires, 
lightning fires. So that combination over many decades has 
allowed the chaparral to retain its mosaic and fire-resistant 
structure and this makes it a relatively safe place for people 
to live.
    Mr. Radanovich. I know in southern California, as well as 
my part of the state in the Central Valley, which is soon to be 
one of the most--will probably overcome the Los Angeles basin 
for bad air quality. The idea of burning which--you know, I am 
in favor of burning for forest management except for when it is 
used to exclude logging as well. But do you think that the 
amount of fire necessary to create this mosaic in California 
would significantly impact the air quality in the basin?
    Dr. Bonnicksen. First of all, the amount of pollutants that 
go into the air from prescribed burning would be small doses, 
whereas a wildfire would give you all of those small doses at 
once. We seem to be better at tolerating the big dose than we 
are, you know, enduring some hazy skies on a regular basis. So 
I do think it is a problem. It is one of the constraints--major 
constraints to solving the problem. Frankly--I mean we either 
deal with the chaparral by burning it in a way that restores 
the historic mosaic and fire resistance of that vegetation or 
we find in addition to that economic uses of it, perhaps 
biomass energy, perhaps the fiber itself could be used for 
certain products to defray the cost and reduce the amount of 
burning. I think the point is though, we have got to stop 
saying we cannot and we have to start saying we will and we 
will find a way.
    Mr. Radanovich. Thank you.
    Dr. Stephens, you have mentioned as well the conifer aspect 
of that in Mexico. Now what are they doing to get a good 
mosaic? You mentioned that, but I was not sure if it was by 
natural burning or what.
    Dr. Stephens. This area of northwestern Mexico did not have 
a road built until 1970. So before that there really was no 
management up there except for livestock grazing which has been 
there for 200 years. So the fire regime by lightning was 
uninterrupted until 1970. So it really was functionally 
complete. In 1970, actually they began to use fire suppression. 
You go up there today and there are two pickups with two four-
person hand crews and they are putting out fires and they are 
pretty good at it because the fuel loads are so low. It is a 
lot like we did in 1905. A lot of us are talking about this as 
maybe not a great idea. But theirs is actually a lightning-
induced fire regime. Native Americans actually live on this 
side as well. We do not have as much information about their 
burning practices but they very well could have been part of 
the regime as well.
    Mr. Radanovich. And it is possible--and you can both speak 
to that if you want to--to achieve that kind of mosaic pattern, 
which is desirable because it does not--fires when they start 
do not spread over a massive area. They somewhat contain 
themselves because of the fuel load restrictions. It is 
possible to achieve that, I think, in conifer forests as well 
as chaparral through either burning or logging frankly, right?
    Dr. Bonnicksen. In conifer forests in California, 
especially the short return interval fire forests, I think they 
have gotten to the point where they are so overgrown that fire 
is not really our option as a way to thin these forests. It is 
beyond that. We have to use mechanical means supplemented with 
fire. Fire does play a very important role ecologically in 
these forests. But there, too, I seriously doubt even after we 
use mechanical methods that we will be able to use fire on a 
scale that will maintain the forest and we will have to 
continue to use mechanical methods as well.
    Mr. Radanovich. I agree. But mechanical methods can achieve 
the same thing, right?
    Dr. Bonnicksen. They can achieve almost all the same things 
structurally in terms of the forest itself, but fire 
supplements that because there are some plants that actually 
are regenerated by fire that would be important as well. So 
light prescribed fires as a supplement to the thinning effort 
would, I think, help to keep the entire ecological system 
functioning.
    Mr. Radanovich. Thank you.
    I have another quick question, if I may. Mr. Nenna, welcome 
to the Committee. I remember not fondly--I remember the 
McNalley fire a couple of years ago and how there was concern 
about that moving into your tribe. Can you describe for me the 
management of your tribal forests compared to the management of 
what is now the monument which surrounds your reservation as 
far as it relates to forest health? For example, how do you 
take care of your tribal lands? Do you think that they are 
better managed and less resistant to fire once it starts 
because of your management practices? Do you notice a 
difference between the two forests?
    Mr. Nenna. Very much so, Congressman. There is a very, very 
distinct difference when you drive up to where the boundary is 
separated between the Forest lands and the reservation lands. 
We are very aggressive in doing fuels reductions. We want to 
introduce fire back in, but it is extremely difficult because 
of the fuel loads on the Giant Sequoia National Monument side. 
That was our fear because of the heavy fuel loads. We did what 
we could to attempt to do a shaded fuel break on our side on 
the reservation land and protect what little assets we do have. 
But even that is going to be impossible should catastrophic 
fire or should the McNalley fire have burned even closer. Then 
it would have--we would have been looking at the destruction of 
not just the five groves of giant Sequoias on the reservation, 
but many of the groves of the giant Sequoias which are 
irreplaceable.
    But the introduction of fire, this is one of the things--it 
is funny that we should hear this. Fire is needed for the 
natural generation of the giant Sequoia trees. That is what 
cracks open the cones and allows the seed to fall on the ground 
and germinate.
    Mr. Radanovich. But as of now, there is so much fuel 
buildup that you cannot even think of using fire as a 
management tool, at least on public lands, Federal lands.
    Mr. Nenna. No, sir. Year after year the tribe has had the 
same concern. Working with the Forest Service they were limited 
in funding or limited in personnel and at times we have went 
over and done joint projects and thinning projects when we 
could. But they are very sporadic and extremely sparse. It is 
not doing enough. A lot more needs to be done to reduce that 
fuel load.
    Mr. Radanovich. You say thinning, but you also log as well, 
do you not?
    Mr. Nenna. On the reservation many, many years ago the 
tribe logged for substance. That is the only source of revenue 
the tribe had. But for many years since, we have been very 
fortunate, the only thing we do is, we go in--and it is for 
forest health--so we do select harvest.
    Mr. Radanovich. It is OK to use the logging word, too.
    Mr. Nenna. Thank you.
    [Laughter.]
    Mr. Radanovich. That is OK.
    Thank you for the time.
    Mr. Pombo. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman.
    I was intrigued by somebody's comment here about the forest 
in Mexico and that grazing was--cattle grazing there 200 years, 
I think, livestock grazing?
    Dr. Stephens. Yes, that is correct. They came in there with 
the Jesuit missions were actually created there, just like in 
coastal California. So they started grazing about 200 years 
ago.
    Mr. Walden. And what effect did that have on the health of 
that forest?
    Dr. Stephens. That is a great question. We think it 
actually has degraded some of the meadows because they have not 
really reformed the grazing. At least in my view it is still 
overgrazed meadows. But the forests looks like possibly some 
fine fuel has been removed but not a lot. We think that the 
forest still has effective regeneration and other aspects that 
seem to be quite sustainable. It is actually an area of 
research that we are working on right now, so I have not got 
the conclusive answer. But they have been there for a couple of 
hundred years.
    Mr. Walden. OK. Dr. Bonnicksen, I am really concerned. I 
get what we need to do. All you have got to do is look at this 
picture and it is pretty obvious. I do not know why it takes 
eight, 10, 20 years for government to move, or whoever to move, 
to get rid of dead trees. It is what we do after the fires now 
that I want to get focused on. Have you read the Sessions 
Report out of Oregon State University on the Biscuit fire?
    Dr. Bonnicksen. I have read some papers on the Biscuit 
fire.
    Mr. Walden. And part of what that report found was that if 
we do not get in and replant conifer forests we will get 
hardwood forests. That is what will naturally come back first. 
You will get the brush and the alder and such, and that it will 
be a cycle of a couple of hundred years before you get conifer 
forests back. I am concerned about areas like this, if they 
burn--if we do not get in and replant quickly what kind of 
forest we get back. In these northwest forests they basically 
say there is a clear line of demarcation, private and Federal, 
and private replants quicker and you have gorgeous big 
evergreen trees growing, and at the Federal line they are still 
debating what to do and we have brush and it is going to burn 
again. I am not picking on the Forest Service and its laws, 
rules and regulations. It is two or three years in appeals. But 
I want to figure out what we do to fix that. What happens in 
these forests if you do not replant?
    Dr. Bonnicksen. Well when I was up here during the fire, I 
went to the Boy Scout camp, the UCLA--the U.C.--I mean the L.A. 
Council of Boys Scouts Camp, because I had been concerned about 
that and I wanted to see what happened. Sure enough, half the 
Boy Scout camp was burned. That is where some of the fires were 
the hottest, and that is where the fire came from that went 
down into Cedar Glen. In that case, in part of that forest 
where the trees had been killed by the beetles, those trees 
obviously had exploded in the fire because all they were were 
charred spikes, no branches. In a case like that, and over a 
large area, there are no seed trees, so what is going to come 
back is brush around the standing dead trees. Now if that 
happens on a large scale--the kind of scale we see up here in 
this poster--where we have no seed trees nearby and all we have 
is brush and oak coming up underneath the snags that were 
killed, what we are doing is setting ourselves up for what we 
call a reburn. Which in about 15 years, when the snags start 
tumbling into the brush, you know, stacking up like jackstraws 
and the brush is five feet tall, that is a prime candidate for 
another fire that could be worse than the original fire or 
equally bad. If that happens, all you have done is convert a 
forest into a brush field, and it would take human intervention 
to turn it back into a forest.
    Mr. Walden. Part of the issue on the Biscuit fire in 
southern Oregon--this is the one that two years ago burned 
400,000 acres. It burned something on the order of 80,000 acres 
of endangered spotted owl habitat. If we do not get in and 
replant that in conifer and you get a hardwood forest, it is 
not spotted owl habitat. I am curious, in these fires, what 
kind of habitat has been eliminated and what do you anticipate 
comes back and what happens to those species?
    Dr. Bonnicksen. Well in the case of the spotted owl, we 
know all of the structural characteristics of the stands that 
are appropriate as nesting habitat for spotted owls. Basically 
there will be no nesting habitat. And one of the things that 
concerns me is the community of Big Bear. That community is at 
great risk from a fire coming from--I think it is the southeast 
side. That is spotted owl habitat. If a fire gets in there, it 
could destroy the community of Big Bear, along with the spotted 
owl habitat and you cannot do anything about the problem 
because the spotted owls are there. But they will not be there 
in a year or so anyway because the beetles will have taken care 
of their habitat for us.
    Mr. Walden. This gets to my own bias and frustration. The 
same people who do not want us to do anything out in the woods 
are the ones who are saying we cannot do anything because we 
have got to protect this habitat for whatever. The mere action 
of taking no action has a consequence that can do more to 
damage the habitat and the communities and the forests that 
some claim they are trying to protect that anything else we do.
    [Applause.]
    Mr. Walden. I am trying to figure out how post-fire we get 
in and do the right thing for the community, the right thing 
for the environment, the right thing for those of us who 
actually love forests that are healthy. At some point we need 
to figure out that one in a responsible way.
    Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Lewis.
    Voice. What classification does human species fall under?
    Mr. Lewis. I appreciate the rhetorical question. I think 
there is a good deal of empathy in the audience regarding the 
question and the answer.
    Mr. Chairman, I want to say for all of those who spent much 
time with us today, the citizens, especially from my own 
district in the mountains, I very much appreciate the attention 
that the United States Congress' Interior Committee has paid to 
the challenges that we have here. It is a reflection of a 
national challenge and responsibility, but we are a case study 
that was not--it was at one time looking for somewhere to 
happen and it has happened now and provides fodder for lots of 
thought in the months and the years ahead.
    Dr. Bonnicksen, I remember your last time with us and your 
testimony then, and very much appreciate your sense of 
frustration about the reality of what we are dealing with.
    The gentlemen from the tribes who are with us are 
expressing a view and interest that is so fundamental to our 
nature that it is very important that you be with us. Mr. 
Nenna, I was asking about your formal testimony and some way or 
another, I think maybe my own staff thought that the two of you 
were going to share testimony or something, so please do not 
have the Tule River Tribe suggest that we were really 
suggesting Mr. Barrett could speak for everybody.
    Dr. Stephens, thank you very much for your help and 
appreciation. And the same with you, Mr. Grindstaff.
    Mr. Chairman, the only closing comment I would make is that 
we have experienced tragedy here and all of us have raised this 
concern and question and the need for long-term action as the 
highest priority. I think we should all remember that America 
by its nature it seems is a crisis-oriented society and out of 
sight out of mind. And as time goes forward, unless we continue 
to keep the pressure on and insist that these voices continue 
to be heard, these fires will have had little long-term effect 
in terms of our changing and implementing further national 
policy. So your personal attention to this is very much 
appreciated, and I suggest to all of my friends in the audience 
that we ought to help keep that pressure on.
    Thank you very much, sir.
    Mr. Pombo. Thank you, Mr. Lewis.
    I will tell the panel that your testimony was very much 
appreciated and very helpful to the Committee.
    Dr. Bonnicksen, I want to personally thank you for the work 
that you have done over the years in providing information to 
this Committee. Both your testimony before this Committee 
before the fire happened. You have been extremely helpful in 
that regard. During the fire, at the Committee's request, you 
monitored the fire, you provided us with information that was 
very valuable to us, and we look forward to continuing to work 
with you in both dealing with the forest that is still there 
and the issues that we have to deal with, as well as in the 
recovery stages. I appreciate a great deal the work that you 
have done on our behalf over the years.
    Dr. Bonnicksen. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Barrett, both you and Mr. Nenna, as you both 
know, I supported the provisions that would have included the 
tribal governments as part of the Healthy Forest Bill. 
Unfortunately the way things unfolded as we were moving forward 
with that bill, we were not able to get that done. I will tell 
you that one way or another we will get it done, whether it is 
with a stand-alone bill or whether we are able to include that 
as part of other legislation that will be moving. We will get 
that done.
    I would point out to you and to everyone else there was a 
very interesting article that ran December 2nd in the Arizona 
Republic talking about how work that was done on tribal lands 
saved three communities in Arizona because of thinning and work 
that they did on those lands, and the people in those 
communities are forever in the debt of that particular tribe 
for the work that they did because they were able to stop a 
fire when it hit the tribal lands. When it went across Forest 
Service lands it got out of control and there was no way they 
were going to stop it before it burned those communities.
    Obviously when you look at the landscape of the west, 
tribal lands are extremely important in terms of maintaining an 
environment and they have to be included in anything that we 
do. There is no way around it. It is a major part of the 
environment in the west and we have to recognize that. We will 
continue to work with both of you gentlemen to make sure that 
that happens.
    Before I excuse this panel, I will just say that, you know, 
it is nice to be in Lake Arrowhead. I have always loved coming 
up here, but I wish it was under different circumstances. The 
last time that we were here, just a couple of short months ago, 
it was with the hope of passing the Healthy Forest bill and 
being able to do something before these lands burned. Coming 
back here after a fire was not what any of us had in mind, but 
I think it was important that we do it. It was important that 
the members of the Committee have an opportunity to listen to 
you, to listen to the testimony that we had today, but I think 
just as importantly to see for themselves what happened in 
these fires and to fly over and actually look at the fire 
patterns and the impact that they had. That will help us do a 
better job in the future in terms of drafting legislation.
    I will tell the members of the panel that if there are 
things that we need to do--the Federal government needs to do 
to change policy, to change rules, regulations, to work with 
the bureaucracy, let us know. Let us know what those changes 
are and how we can do a better job of managing the public 
trust, the public lands that are out there and to help private 
property owners in dealing with the challenges that they have. 
Because that is something that we have as a responsibility on 
this Committee and as members of Congress that we do.
    I will say that for those of you that stuck with us all day 
in the audience, I appreciate your willingness to be here, your 
willingness to participate in this hearing. We are going to 
hold the Congressional record open, the Committee record open 
for 10 days so that if members of the audience wish to submit 
testimony to be included in the record, we will give you the 
opportunity to do that. It can be submitted to the House 
Resources Committee. That record will be held open.
    I want to thank Mr Lewis again for hosting us in his 
district. I wish it was not in your district, Jerry, but----
    Mr. Lewis. But it is.
    Mr. Pombo. --it is. And it is greatly appreciated, the 
hospitality that we always have had up here. So I thank you for 
doing that.
    Is there any further business to come before the Committee?
    [No response.]
    Mr. Pombo. Hearing none, we are adjourned.
    [Whereupon, at 2:41 p.m., the Subcommittee was adjourned.]


    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Congressman Dreier 
follows:]

 Statement of The Honorable David Dreier, a Representative in Congress 
                      from the State of California

    Chairman McInnis, thank you for holding this field hearing on fire 
recovery. I also want to thank Chairman Richard Pombo and all my 
colleagues on the House Resources Committee for coming to Southern 
California to discuss this timely and critical issue of recovery from 
the recent California wildfires.
    These fires devastated Southern California in October, including 
parts of Los Angeles, San Bernardino, Riverside, Ventura, and San Diego 
counties. We are already working toward rebuilding, mitigating for 
potential mud slides and erosion during the rainy season, and looking 
at every opportunity to prevent another disaster of this magnitude.
    Federal agencies including the U.S. Forest Service, the Federal 
Emergency Management Agency, the Small Business Administration, the 
Army Corps of Engineers, and the U.S. Department of Agriculture's 
Natural Resources Conservation Service are working with local and state 
agencies on fire recovery efforts.
    With this many agencies involved, it is absolutely critical that 
response at all levels be seamless and without regulatory burden for 
fire victims. Working cooperatively rather than shirking jurisdictional 
responsibility by citing obscure technicalities is the last thing we 
need in this crucial period. Fire victims still have debris in their 
yards and homes. Before the rainy season begins, we must do all we can 
to expedite the delivery of federal disaster assistance dollars, to 
coordinate with federal, state, and local agencies to assist in the 
recovery effort, and, most importantly, to engage in preventing further 
damage from potentially damaging winter storms.
    In addition to the hands-on recovery work that is currently 
underway and must continue, we must also take a hard look at our 
preventative policies in mitigating for disease-infested trees and 
managing our forests. One major step in improving these policies was 
spearheaded by this Committee with the enactment of the Healthy Forests 
Restoration Act (HFRA). With President Bush signing this landmark 
legislation this week, we can finally move toward sensible management 
of our national forests as one component of preventing the catastrophic 
wildfires that just swept through our region.
    Our past failure to maintain the forests has had dangerous and 
devastating consequences. The uncontrolled growth, left by years of 
neglect, chokes off nutrients from trees and provides a breeding ground 
for insects and disease. Only in the aftermath of the Southern 
California fires was Congress able to reach a bipartisan agreement to 
deal with what had obviously become a serious problem.
    The primary focus of the HFRA is to streamline the decisionmaking 
process inside the U.S. Forest Service. A major factor in the 
widespread destruction caused by wildfires has been the Forest 
Service's inability to take action that might have made fires more 
manageable. The National Association of Public Administration found 
that the Forest Service spends 40 percent of its manpower and 20 
percent of its funding on planning and process activities. Some of this 
inaction is due to bureaucratic requirements the HFRA was designed to 
reduce. Some of it is also attributable to what some would say is the 
wrong approach to forestry management. Without a doubt, freeing up some 
of the resources expended on such bureaucracy will only help the Forest 
Service reorganize and become more effective in its mission.
    Bureaucracy does not ensure public input, and it most certainly 
does not ensure success. But, as many in our area know, managing 
forests can have a significant effect on a community. Because of this 
fact, the HFRA creates unprecedented processes for public input. The 
legislation includes a ten year strategy for public involvement 
outlined by the Western Governors Association and endorsed by 
environmental groups such as the Wilderness Society. It also makes 
permanent the public notice and comment requirements currently required 
during the environmental analysis phase for a wildlife mitigation 
project.
    Mr. Chairman, by holding this hearing today, you are providing a 
valuable forum for oversight of the fire recovery process. Thank you.
                                 ______
                                 
    [A statement submitted for the record by Congressman Issa 
follows:]

 Statement of The Honorable Darrell Issa, a Representative in Congress 
                      from the State of California

    Mr. Chairman, thank you for holding this important hearing today in 
Lake Arrowhead, California, on ``Recovering From the Fires: Restoring 
and Protecting Communities, Water, and Wildlife and Forests in Southern 
California.'' I hope that after we hear from the witnesses, we can 
learn from this devastating experience and minimize the loss of damage 
of possible future fires.
    I would like to thank Chairman Jerry Lewis for his leadership in 
attaining much-needed emergency funding to assist in the recovery 
efforts. I also want to thank all the firefighters and every entity, 
including local, state and federal agencies that coordinated efforts to 
suppress the fires, save lives, and limit the damage caused to 
structures and other personal property. Finally, I want to thank the 
witnesses here today for taking time out of their busy schedules to 
testify for this hearing, so that we may better-educate ourselves in 
preventing the type of catastrophe we witnessed a few short weeks ago.
    As a child, I remember my parents providing me with some very sound 
advice, ``an ounce of prevention is worth a pound of cure.'' This is 
precisely the mind-set that Resource Chairman Richard Pombo and 
Subcommittee Chairman Scott McInnis (R-Colo.) had when they drafted the 
``Healthy Forest Restoration Act'' in order to prevent catastrophic 
wildfires. Last Wednesday, President George W. Bush signed this bill 
into law.
    This year, California was the victim of horrific wildfires. Arizona 
was victimized last year. A major reason for the extensive fire damage 
in both California and Arizona was limited preventative maintenance on 
federal lands. ``The Healthy Forest Restoration Act'' will provide the 
means with which to thin out the forests on federal lands that are at 
the highest risk of wildfires.
    The numerical data released by the United States Forest Service 
regarding the total destruction caused by the Southern California 
wildfires is staggering. The fire left approximately 740,000 acres of 
national forests, tribal lands, state forests and private lands 
charred, 4,676 structures (3,661 homes) destroyed, and 22 people 
killed, including a firefighter. In San Diego County alone, three fires 
burned 383,284 acres and caused $28 million in agricultural crop 
losses. I surveyed the damage in my district and visited three of the 
Indian Reservations in my district that were most impacted by the 
fires. The San Pasqual Band of Mission Indians lost close to 80% of the 
homes on their reservation. It comes as no surprise that this was the 
most destructive and costly wildfire to ever impact California, with 
the damage certain to exceed $2 billion.
    The impacts of the fire extend beyond the individuals and families 
who lost physical property in the fire. The fires in Southern 
California caused irreversible environmental damage. The fires have 
impacted air quality, water quality, soil erosion, sensitive habitat, 
and endangered species. San Diego County was one of the hardest hit of 
all the fire-ravaged counties. Dry and strong Santa Ana winds and the 
low humidity are part of the explanation for the severity of the fires, 
as they fueled and exacerbated the burning of dried shrubs and 
chaparral. These, however, are annual conditions that were not 
unexpected. In the future, once the vegetation grows back, we will 
again be caught in a similar dilemma if we do nothing to prevent future 
wildfires.
    Implementing the ``Healthy Forest Restoration Act'' will be one 
part of the solution in protecting communities and businesses from 
future conflagrations. Streamlining the administrative offices and 
giving forest managers the tools they need to maintain a healthy 
environment are just two examples of the important programs in this 
act. Working with environmental groups and resource agencies, we can 
begin to restore much of the burned areas. Never again should 
California, or anywhere else in the United States, be subjected to the 
kinds of wildfires that raged in Southern California this year.
    Again, Mr. Chairman, thank you for the opportunity to speak at this 
field hearing, and I look forward to hearing the testimony from the 
panel of witnesses.

                                 <all>

</pre></body></html>
